<html>
<title> - THREATS TO THE AMERICAN HOMELAND AFTER KILLING BIN LADEN: AN ASSESSMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





THREATS TO THE AMERICAN HOMELAND AFTER KILLING BIN LADEN: AN ASSESSMENT

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2011

                               __________

                           Serial No. 112-25

                               __________

       Printed for the use of the Committee on Homeland Security


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-235 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Lee Hamilton, Bipartisan Policy Center:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Ms. Frances F. Townsend, Senior Vice President, Worldwide 
  Government, Legal and Business Affairs, MacAndrews & Forbes 
  Holdings, Inc..................................................    15
Mr. Peter Bergen, Director, National Security Studies Program, 
  New America Foundation:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Evan F. Kohlmann, Flashpoint Global Partners:
  Oral Statement.................................................    27
  Prepared Statement with Laith Alkhouri.........................    30

                               Appendix I

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Information Submitted for the Record...........................    49
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas:
  Charts.........................................................    57

 
THREATS TO THE AMERICAN HOMELAND AFTER KILLING BIN LADEN: AN ASSESSMENT

                              ----------                              


                        Wednesday, May 25, 2011

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:33 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Smith, Lungren, Rogers, 
McCaul, Broun, Miller, Walberg, Cravaack, Walsh, Meehan, 
Rigell, Duncan, Marino, Farenthold, Brooks, Thompson, Jackson 
Lee, Cuellar, Clarke of New York, Richardson, Davis, Speier, 
Richmond, Clarke of Michigan and Keating.
    Chairman King. Good morning. The Committee on Homeland 
Security will come to order.
    The committee is meeting today to examine the near-term and 
long-term consequences and benefits to the security of our 
homeland resulting from the successful killing of Osama bin 
Laden. I now recognize myself for an opening statement.
    First of all, let me welcome everyone here this morning. 
Let me especially thank our witnesses. We have an outstanding 
panel of witnesses, and I truly look forward to their 
testimony. I want to thank the Ranking Member, as always, for 
his assistance in this hearing. My remarks will be brief this 
morning.
    I believe this hearing is absolutely essential for a number 
of reasons. One, all of us can take great satisfaction and 
pride, quite frankly, in the killing of Osama bin Laden. I give 
the President tremendous credit for having done it. It took 
courage. It took basically ice water in his veins at the last 
moment to make that decision, and I give him tremendous credit 
for it.
    The only concern I have is that too many, I think, of the 
American people somehow feel that now with bin Laden dead, as 
great a victory as this was, and we can discuss how great it 
was, how significant it was, what the implications are, the 
fact is I believe too many people think that with bin Laden 
dead, somehow the war against terrorism is over, or the 
terrorist war against us is over; that this will significantly 
impact the war against us; and somehow maybe we should step 
back and let our guard down, maybe we can relax, maybe start 
cutting back in some of the programs that have kept us safe 
over the last 10 years.
    My own belief is that in the short run, the threat is 
probably greater than it was. Long term, there is no doubt that 
the death of bin Laden is extremely positive for so many 
different reasons. But in the short run in particular, I think 
it is very likely to assume--and just looking at al-Qaeda's own 
language--the fact is that they feel they have to not just 
avenge this, but they have to show the rest of the world, the 
rest of the Muslim world, the rest of the terror world, that 
they are viable, that they are vibrant as before, that they 
have not been taken down, and they have to have a dramatic 
showing. That, to me, would involve obviously an attack by al-
Qaeda or one of its franchise operations.
    My belief is that because of the many programs that have 
been instituted over the last 9, 10 years, it would be very 
difficult for al-Qaeda to carry out another 9/11-type attack, 
attack from overseas into the United States, certainly not on 
the dimensions of the September 11 attacks. But at the same 
time, starting several years ago, al-Qaeda did begin recruiting 
in this country people under the radar screen. In addition to 
that, we have had those who are self-radicalized, those who are 
radicalized through the internet. We have seen a series of 
cases, for instance, just in New York, Najibullah Zazi, the 
subway bomber, who was totally under the radar screen, who was 
taken to Afghanistan for training and came back to this country 
and came within hours of carrying out a massive attack on the 
New York City subway system.
    We had Major Hasan, who was in a way self-radicalized 
through his dealings with Awlaki over the internet, and what he 
carried out at Fort Hood in the fall of the 2009. Then we had 
Shahzad, the Times Square bomber, again, under the radar 
screen, an American citizen trained by the Pakistani Taliban, 
who came, again, very close to a successful attack in Times 
Square.
    So with all of this, I look forward to the witnesses 
telling us exactly what they see both in the long term and the 
short term, what it means that bin Laden is no longer here, 
what it means as far as our defenses, where we should be 
looking to for the next attack, the type of attack it could be, 
the dimensions of that attack. Also, as far as the power 
structure in al-Qaeda, who is going to take over? Is there 
anyone who has the capability of having the type of evil 
magnetism that bin Laden had where he could hold the various 
ethnic groups together and keep al-Qaeda unified? Is there 
anyone who can step up to that? Will it be Zawahiri; will it be 
someone else? What is the role of someone like Awlaki, who is 
outside the traditional al-Qaeda structure?
    So these are all the questions that I look forward to 
hearing the answers to. I look forward to the insights of the 
members of our panel, all of whom have long records of 
expertise and experience.
    I, again, thank all of the witnesses for being here. I 
thank the Members for having such a large turnout this morning.
    With that, I yield to the gentleman from Mississippi, the 
Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding this hearing. I join you in welcoming our panel of 
witnesses.
    Before we consider the risk of a terrorist attack following 
the death of bin Laden, I want to publicly add my voice to the 
many who have commended the President, the National security 
team, and our uniformed forces for successfully completing a 
mission that began over 10 years ago. The success of this 
mission was made possible by the administration's efforts with 
reliable intelligence and the surgical use of force.
    For many, the killing of bin Laden has always been the 
ultimate goal of the war on terror. As the mastermind of the 
terrorist attacks on September 11, he became the central focus 
of our policies. Bin Laden became the personification of 
terrorism for us. We went to war in Afghanistan to eliminate 
bin Laden's training camps and base of operation. We went to 
war in Iraq because we were told that Saddam Hussein had some 
connection with bin Laden. In the last 10 years, many of our 
policies at home and abroad have been based on forecasts and 
predictions about bin Laden. For many, the elimination of bin 
Laden will require a dramatic shift in thinking about and 
analyzing the terrorist threat.
    In the last 10 years, we have seen the migration and 
mutation of the terrorist network and the terrorist threat. The 
threat network has moved beyond borders, and operatives have 
become decentralized. At the time of his death, bin Laden 
remained a dangerous, charismatic figure, but his control was 
not absolute, and his authority was not singular. We cannot 
ignore the new challenges presented by his death. In every 
group, the death of a leader causes disarray and confusion 
among the followers. These periods of transition can last for 
weeks or years.
    When we consider the safety of our country, the question 
that matters most is what will we do while the terrorists are 
in the throes of transition? For fiscal year 2012, the answer 
is not encouraging. The DHS appropriations bill recently 
approved by the Republican-controlled Appropriations Committee 
cut the Department's budget by more than $1 billion. Since bin 
Laden's death, we have learned that al-Qaeda was targeting our 
cities and critical infrastructure. I am glad to see that our 
Chairman acknowledged the cutting back of some of those 
desperately needed funds, and I look forward to at some point, 
Mr. Chairman, working with you on getting many of those funds 
restored based on this treasure trove of information that was 
collected at the site of the killing of bin Laden.
    Last week the Pakistani Taliban and al-Qaeda-allied groups 
struck an American armored vehicle transporting American 
Government personnel. They claimed the attack was in 
retaliation for bin Laden's death. At a time when our 
adversaries are seeking opportunities to attack us, cuts in 
homeland security funding puts us in harm's way. Bin Laden's 
death does not end the threat to this Nation. In many ways, the 
picture has become more complex. Our focus must remain steady. 
Our funding must match our focus.
    I look forward to this hearing and to hearing from our 
witnesses today about the dynamic threat environment we now 
face.
    Mr. Chairman, I yield back.
    [The information follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                              May 25, 2011
    Before we consider the risk of terrorist attack following the death 
of bin Laden, I want to publicly add my voice to the many who have 
commended the President, the National security team and our uniformed 
forces for successfully completing a mission that began 10 years ago.
    The success of this mission was made possible by this 
administration's efforts, reliable intelligence and the surgical use of 
force.
    For many, the killing of bin Laden has always been the ultimate 
goal of the war on terror.
    As the mastermind of the terrorist attacks on September 11, he 
became the central focus of our policies.
    Bin Laden became the personification of terrorism for us.
    We went to war in Afghanistan to eliminate bin Laden's training 
camps and base of operations.
    We went to war in Iraq because we were told that Saddam Hussein had 
some connection with bin Laden.
    In the last 10 years, many of our policies at home and abroad have 
been based on forecasts and predictions about bin Laden.
    For many, the elimination of bin Laden will require a dramatic 
shift in thinking about and analyzing the terrorist threat.
    In the last 10 years, we have seen the migration and mutation of 
the terrorist network and the terrorist threat.
    The terrorist network has moved beyond familiar borders and 
operatives have become decentralized.
    At the time of his death, Bin Laden remained a dangerous 
charismatic figure, but his control was not absolute and his authority 
was not singular.
    We cannot ignore the new challenge presented by his death.
    In every group, the death of a leader causes disarray and confusion 
among the followers. These periods of transition can last for weeks or 
years.
    When we consider the safety of our country, the question that 
matters most is--what will we do while the terrorist are in the throes 
of transition?
    For fiscal year 2012, the answer is not encouraging.
    The DHS appropriations bill, recently approved by the Republican-
controlled Appropriations Committee, cuts the Department's budget by 
more than $1 billion.
    Since bin Laden's death, we have learned that al-Qaeda was 
targeting our cities and critical infrastructure.
    We also know that AQAP is actively targeting our aviation sector.
    Last week, the Pakistani Taliban, an al-Qaeda-allied group struck 
an American armored vehicle transporting American Government personnel. 
They claimed the attack was in retaliation for bin Laden's death.
    At a time when our adversaries are seeking opportunities to attack 
us, cuts to homeland security funding put us in harm's way.
    Bin Laden's death does not end the threat to this Nation.
    In many ways, the picture has become more complex. Our focus must 
remain steady. And our funding must match our focus.

    Chairman King. Thank you, Congressman Thompson.
    [The statement of Hon. Richardson follows:]
              Prepared Statement of Hon. Laura Richardson
                              May 24, 2011
    I would like to thank Chairman King and Ranking Member Thompson for 
convening this hearing today focused on the current state of terror 
threats to the American Homeland in light of the death of Osama bin 
Laden. While the death of bin Laden has been a significant victory in 
the war on terror for America as well as the rest of the world, the 
implications of this victory need to be addressed. Thus, I would like 
to thank our distinguished panel of witnesses for appearing before the 
committee today to discuss these very important issues that lay before 
us.
    The death of bin Laden marks the most significant turning point to 
date in our Nation's efforts to combat and eliminate al-Qaeda and its 
worldwide affiliates. As the figurehead and symbol of global terrorism, 
he inspired thousands of militants and extremists to wage war against 
the West and commit unspeakable acts of violence.
    While it is clear that his death has marked a significant blow to 
al-Qaeda and its affiliates, most experts agree that bin Laden's death 
alone is not likely to end the war on terror. In fact, as some of the 
recent events in Pakistan have indicated, many terrorist groups are not 
deterred by the recent death of bin Laden and are likely to continue to 
plot attacks from safe havens world-wide.
    As al-Qaeda attempts to regroup and reorganize after the death of 
bin Laden, their leader, it is important that the United States assess 
the new threat dynamic in order to ensure our National security efforts 
remain strong and do not become complacent in the wake of bin Laden's 
death. This means continuing to focus on al-Qaeda and its affiliates, 
supporting the message of democracy that is now spreading across the 
Middle East, and providing our counterterrorism officials with the 
tools they need in order to build an effective capacity to combat these 
world-wide threats.
    Unfortunately, the fiscal year 2012 Department of Homeland Security 
(DHS) appropriations bill that was recently approved by the House 
Homeland Security Appropriations Subcommittee, will make these efforts 
considerably more difficult with a decrease in funding of $1.1 
billion--or 2.6%--below last year's level and $3 billion--or 7%--below 
the President's request. These proposed cuts represent an unacceptable 
blow to our National security and could undoubtedly jeopardize future 
counterterrorism efforts.
    As the representative of the 37th district of California, I 
understand the importance of giving law enforcement officials the 
resources they need to efficiently and effectively protect our local 
communities. My Congressional district abuts the Nation's largest 
ports, contains oil refineries that produce more than 1 million barrels 
per day, and is home to a number of gas treatment and petrochemical 
facilities that present a target-rich environment for those seeking to 
do us harm.
    Thus, it is imperative that we continue to provide counterterrorism 
officials with the resources necessary to sustain their efforts to 
disrupt, dismantle, and defeat al-Qaeda and strengthen the resilience 
of our Nation against acts of terrorism.
    Thank you again Mr. Chairman and Ranking Member Thompson for 
convening this very important hearing today. I look forward to hearing 
from our distinguished panel of witnesses on these issues. I yield back 
my time.

    Chairman King. Our first witness this morning is former 
Congressman Lee Hamilton. I had the privilege of serving on the 
House Foreign Affairs Committee with Congressman Hamilton 
during his extraordinary career. He was chairman of the House 
Committee on Foreign Affairs, the House Permanent Select 
Committee on Intelligence, and everyone in the country knows of 
his outstanding service as Vice Chair of the 9/11 Commission 
with Governor Kean. He served on the U.S. Homeland Security 
Advisory Council and led the Woodrow Wilson International 
Center for Scholars. He currently serves as co-chair of the 
Bipartisan Policy Center's National Security Preparedness 
Group. It has always been a privilege of mine to consider Lee 
Hamilton a friend and colleague. I certainly welcome you here 
for your testimony this morning.
    Thank you, Chairman Hamilton.

      STATEMENT OF LEE HAMILTON, BIPARTISAN POLICY CENTER

    Mr. Hamilton. Thank you, Chairman King and Ranking Member 
Thompson, and, of course, the other Members of the committee. I 
am very pleased to have the opportunity to be with you today. I 
have really appreciated the leadership that the Chairman and 
the other Members of this committee have shown on the whole 
question of the terrorist threat confronting the country. I am 
deeply grateful for the sustained support coming from this 
committee in reforming our National security institutions.
    As the Chairman mentioned, I am appearing today as the co-
chair of the Bipartisan Policy Center's National Security 
Preparedness Group, and very pleased indeed to be joined by two 
distinguished members of that group, Fran Townsend and Peter 
Bergen, here at the witness table.
    Significant progress has been made, of course, since 9/11 
in protecting the homeland, and our country is undoubtedly more 
safer and more secure. But it also remains the fact that a 
number of our key recommendations of the Commission have not 
yet been implemented.
    The attacks on 9/11 demonstrated the teamwork and 
collaboration and effective communications at the site are 
critical. We have made some movement towards establishing the 
unity of command. One person has to be in charge when you have 
a disaster strike. They have to make thousands of decisions 
very quickly. I have heard simply from too many community 
leaders and first responders across the Nation that many 
communities, many regions still have not solved the problem of 
a unified command structure in the event of a disaster.
    Likewise, there has been some, but not sufficient progress 
in establishing interoperable communications for first 
responders. I know the Chairman and others on this committee 
have been very, very good in calling the attention of the 
country to that. This is a no-brainer. The people at the site 
of a disaster--the chief players, the police, the first aid 
people, the experts--all have to be able to communicate with 
one another, and the Government has to allocate an additional 
10 megahertz of the radio spectrum to public safety to enhance 
the ability to communicate in a disaster.
    There have been improvements in transportation and security 
and border security, but transportation security technology 
still lags in its capability to screen passengers and baggage 
for concealed weapons and explosives. Several attempted attacks 
over the past few years perpetrated by terrorists who could 
have been detected by the U.S. immigration system demonstrate 
that a more streamlined terrorist watch-listing capability and 
improved information sharing among the intelligence agencies 
and immigration authorities still have to be improved.
    One area of significant progress is the deployment of the 
biometric entry system, known as US-VISIT. But a biometric exit 
component to determine which foreign nationals have left the 
United States has not yet been deployed. I think if law 
enforcement and intelligence officials had known for certain in 
August 2001, prior to the attack, that two of the 9/11 
hijackers remained in the United States, the search for them 
could have taken on a greater urgency.
    With respect to intelligence reform, the Director of 
National Intelligence has certainly made progress in several 
areas, including increased information sharing and improved 
cooperation among the various agencies. But it is not clear 
that the DNI is the driving force of the intelligence community 
that the 9/11 Commission envisioned. Some ambiguity still 
appears in the basic statutory structure over the DNI's 
authority with regard to budget and personnel. Strengthening 
his position in these areas would advance the unity of effort 
in intelligence, whether that be done through legislation or 
declarations from the President.
    A major disappointment for all of us on the 9/11 Commission 
has been the failure of the administration to empanel the 
Privacy and Civil Liberties Oversight Board. This was a major 
recommendation of the Commission, easily agreed to unanimously 
by all members of the Commission. My information at this time 
is that the President has only nominated two members to serve 
on the five-member Board, and neither has been confirmed by the 
Senate. I thank Ranking Member Thompson and other Members of 
the committee for the letter that was sent to the 
administration about the Board's vacancies. I encourage the 
committee to push that in the months ahead.
    Another disappointment, of course, is the failure of this 
Congress to reform oversight of the intelligence community and 
the Department of Homeland Security. This committee is well 
aware, better than almost anybody else, of the fractured 
oversight of DHS. I need not give the statistics to you. It is 
an inefficient allocation of limited resources needed to secure 
our Nation. The massive Department of the DHS will be much 
better integrated if there is integrated oversight. I know 
Members of this committee have been helpful on this. I have 
some understanding of the difficulties of the problem and 
working it out, but it is really a high priority and a National 
security interest that the oversight of Homeland Security be 
much more focused.
    The capture and death of Osama bin Laden is the most 
significant achievement to date in our efforts to defeat al-
Qaeda. That hard work, the cooperation, vigilance, the tenacity 
over a period of years, as both of you in your opening 
statements have acknowledged, has been critical. There is no 
question that his capture and death came about as a result of 
reforms that have recently been enacted in the Federal 
Government that yielded much closer collaboration and 
information sharing.
    Of course, we now have a major new source of information 
that the intelligence community can analyze in great detail. I 
think it is likely that the information that we get is even 
more important than the death of Osama bin Laden himself.
    Whether his death is a turning point in our fight against 
terrorism remains to be seen. You can kill a man. You cannot 
kill a symbol. Osama bin Laden is dead. Al-Qaeda is not. It is 
a network, not a hierarchy, as others have said. Over a period 
of years, it has been adaptive, it has been resilient, and his 
death is certainly a setback for al-Qaeda, but likely not its 
demise. Its affiliates and al-Qaeda itself will almost 
certainly attempt to avenge his death; however, that attack 
will not necessarily occur soon.
    Al-Qaeda's capabilities, as the Chairman noted, and its 
ability to implement large-scale attacks are less formidable 
that they were 10 years ago, but there isn't any doubt at all 
about al-Qaeda's intent. They want to kill more Americans.
    Al-Qaeda has been marked by rapid decentralization. The 
most significant threats to American security come from 
affiliates of core al-Qaeda, al-Qaeda in the Arabian Peninsula, 
al-Qaeda elsewhere. Its influence, which is on the rise in 
South Asia, continues to extend to failing states like Yemen 
and Somalia.
    In assessing threats to the homeland security, senior U.S. 
counterterrorism officials now call attention to al-Qaeda's 
strategy of diversification. Mounting attacks involving a wide 
variety of perpetrators of different national and ethnic 
background make it very difficult to profile threats. Most 
troubling is the pattern of increasing terrorist recruitment of 
American citizens and residents to act as lone wolves. There 
were two such attacks in just last year or 2, and it is very 
distressing that Americans seem to be playing an increasingly 
prominent role in al-Qaeda's movements.
    We know that individuals in the United States are engaging 
in self-radicalization, which is an alarming development. This 
process is often influenced by blogs and other on-line content 
advocating violent extremism. While there are methods to 
monitor some of this activity, it is simply impossible to know 
the inner thinking of every at-risk person. Thus, self-
radicalization poses, I believe, a grave threat to the United 
States.
    The National Security Preparedness Group will soon release 
a report with recommendations for improving our defenses to 
radicalization. That report has not yet been submitted to the 
full group, but it will be done soon, and I hope it will be 
helpful to you as you look at this problem.
    Because al-Qaeda and its affiliates will not give up, we 
cannot let our guard down. We will see new attempts and likely 
successful attacks. We must constantly assess our 
vulnerabilities and anticipate new lines of attack; not become 
complacent, but remain vigilant and resolute. We have done a 
lot. We have done much. We have had a great deal of progress. 
But there is an awful lot more to do.
    Thank you for inviting me to testify to this committee. 
Most importantly, thank you for the long-standing leadership of 
this committee on homeland security matters.
    Thank you.
    [The statement of Mr. Hamilton follows:]
                Prepared Statement of Hon. Lee Hamilton
                              May 25, 2011
                            i. introduction
    Mr. Chairman, Ranking Member Thompson, Members of the committee: I 
am pleased to have the opportunity to appear before you today. This 
committee has been at the center of defending the country from the 
terrorist threat we face. I am deeply grateful to you for your 
sustained support of the 9/11 Commission's recommendations and 
leadership in reforming our National security institutions. You have 
done a great deal to ensure we are taking the difficult steps necessary 
to confront this determined enemy and protect Americans, our allies, 
and people throughout the world.
    Today, I am appearing in my capacity as a co-chair of the 
Bipartisan Policy Center's National Security Preparedness Group (NSPG), 
a successor to the 9/11 Commission. Drawing on a strong roster of 
National security professionals, the NSPG works as an independent, 
bipartisan group to monitor the implementation of the 
9/11 Commission's recommendations and address other emerging National 
security issues.
    I join in testifying today with two National security experts who 
also happen to be members of the NSPG, Fran Townsend and Peter Bergen. 
In addition to them, the NSPG is composed of:
  <bullet> Governor Tom Kean: Former Governor of New Jersey; Chairman 
        of the 9/11 Commission; and Co-Chair of the National Security 
        Preparedness Group;
  <bullet> The Honorable E. Spencer Abraham: Former U.S. Secretary of 
        Energy and U.S. Senator from Michigan, The Abraham Group;
  <bullet> Dr. Stephen Flynn: President, Center for National Policy;
  <bullet> Dr. John Gannon: BAE Systems, former CIA Deputy Director for 
        Intelligence, Chairman of the National Intelligence Council, 
        and U.S. House Homeland Security Staff Director;
  <bullet> The Honorable Dan Glickman: Former Secretary of Agriculture 
        and U.S. Congressman;
  <bullet> Dr. Bruce Hoffman: Georgetown University terrorism 
        specialist;
  <bullet> The Honorable Dave McCurdy: Former Congressman from Oklahoma 
        and Chairman of the U.S. House Intelligence Committee, 
        President of the American Gas Association;
  <bullet> The Honorable Edwin Meese III: Former U.S. Attorney General, 
        Ronald Reagan Distinguished Fellow in Public Policy and 
        Chairman of the Center for Legal and Judicial Studies at The 
        Heritage Foundation;
  <bullet> The Honorable Tom Ridge: Former Governor of Pennsylvania and 
        U.S. Secretary of Homeland Security, Senior Advisor at Deloitte 
        Global LLP, Ridge Global;
  <bullet> The Honorable Richard L. Thornburgh: Former U.S. Attorney 
        General, Of Counsel at K&L Gates; and
  <bullet> The Honorable Jim Turner: Former Congressman from Texas and 
        Ranking Member of the U.S. House Homeland Security Committee, 
        Arnold and Porter, LLP.
    In recent months, our group has sponsored the following events:
  <bullet> BPC Domestic Intelligence Conference featuring FBI Director 
        Mueller and DNI Director Clapper--October 2010.
  <bullet> Bridge-Builder Breakfast: Addressing America's Intelligence 
        Challenges in a Bipartisan Way with House Intelligence 
        Committee Chairman Rogers and Ranking Member Ruppersberger--
        March 2011.
  <bullet> Press conference marking the release of the Bipartisan 
        Policy Center's National Security Preparedness Group report, 
        Assessing the Terrorist Threat--September 2010.
    We will soon release another report with recommendations for 
improving initiatives to prevent violent radicalization in the United 
States.
    We believe the depth of this group's experience on National 
security issues can be of assistance to you and the Executive branch 
and we look forward to continuing to work with you.
  ii. significant progress has been made in addressing threats to the 
      american homeland since 9/11, yet important 9/11 commission 
                   recommendations remain unfulfilled
Effect of the 9/11 Attacks
    The terrorist attacks of September 11, 2001 had a profoundly 
dramatic impact on Government, the private sector, and our daily lives. 
The suddenness of the attacks on American soil and the loss of so many 
lives, made us feel vulnerable in our homes and caused us to question 
whether our Government was properly organized to protect us from this 
lethal threat. The economic damage resulting from the attacks was 
severe. In short order, we shifted from a ``peace dividend'' at the end 
of the Cold War to the expenditure of massive amounts of taxpayer 
dollars on new security measures.
    The consequences of the attacks for the private sector have been 
striking. More than 80% of our Nation's critical infrastructure is 
owned by the private sector, and protecting it from terrorist 
operations has become an urgent priority. Working together, the 
Government and private sector have improved their information sharing 
and thus our security posture.
    Businesses in all sectors have adapted to this new reality. They 
have focused on how best to protect personnel and our food and water 
supplies; prepared continuity plans in preparation for possible 
disruptions; and altered how buildings are constructed, adopting 
innovative safety features. U.S. importers, working with the Department 
of Homeland Security, have pioneered new ways to ensure the integrity 
of shipping containers that bring goods into the country. The insurance 
industry's risk analysis has evolved to reflect new realities. These 
necessary innovations have increased the costs of doing business. 
Future innovations responding to the evolving threat may raise costs 
higher.
The Government's Response
    Over the past 10 years, our Government's response to the challenge 
of transnational terrorism has been equally dramatic. Legal, policy, 
and cultural barriers between agencies created serious impediments to 
information sharing before the 9/11 attacks. The 9/11 Commission made a 
number of specific recommendations to improve information sharing 
across our Government, and many of these have been accepted and 
implemented, in whole or in part.
    Information sharing within the Federal Government, and among 
Federal, State, local, and Tribal authorities, and with allies, while 
not perfect, has been considerably improved since 9/11. The level of 
cooperation among all levels of Government is higher than ever. The 
CIA, FBI, and the broader intelligence community have implemented 
significant reforms. In 2004, Congress created the Office of the 
Director of National Intelligence and the National Counterterrorism 
Center to ensure unity of effort in the intelligence community. This 
was a major step toward improved information sharing.
    State and local officials have a far greater understanding not only 
of the threat and how to respond to it, but also, their communities and 
those who may be at risk of radicalization. There are now 105 Joint 
Terrorism Task Forces throughout the Nation, and 72 Fusion Centers in 
which Federal, State, local, and Tribal authorities investigate 
terrorism leads and share information. Since 2004, DHS has provided 
more than $340 million in funding to the Fusion Centers. Information 
sharing with the private sector has also become routine and is an 
important part of our defenses.
    An enormous amount of intelligence information constantly pours 
into our National security system. And as evidence that there is still 
room for improvement in handling this information, we saw missed 
opportunities to stop the Christmas day bomber from boarding Northwest 
Flight 253, as well as opportunities to intervene before the Fort Hood 
shootings. But as a result of reforms in the last decade, many plots 
have been disrupted and many terrorist operatives, including Osama bin 
Laden, have been brought to justice.
Unfulfilled 9/11 Commission Recommendations
    Despite the progress in information sharing and in other areas, 
important 9/11 Commission recommendations remain unfulfilled. The 9/11 
attacks demonstrated that teamwork, collaboration, and effective 
communications at the site of a disaster are critical. Movement has 
been made toward establishing a unity of command with one person in 
charge of directing the efforts of multiple agencies. I have heard, 
however, from too many community leaders and first responders that many 
regions still have not solved the problem of having a unified command 
structure.
    There also has been inadequate progress in establishing 
interoperable communications for first responders. That is why it is 
vital that the Government allocate an additional 10 megahertz of radio 
spectrum to public safety that will enhance their ability to 
communicate during a disaster. I want to recognize the leadership that 
Chairman King and Ranking Member Thompson and many Members of this 
committee have shown in supporting a bill that will achieve this goal.
    There have been improvements in transportation security and border 
security. However, transportation security technology still lags in its 
capability to screen passengers and baggage for concealed weapons and 
explosives. And several attempted attacks over the past 2 years 
perpetrated by terrorists who could have been detected by the U.S. 
immigration system demonstrate that a more streamlined terrorist 
watchlisting capability and improved information sharing between 
intelligence agencies and immigration authorities must be implemented.
    One area of significant progress is the deployment of the biometric 
entry system known as US-VISIT. But a biometric exit component of US-
VISIT to determine which foreign nationals have left the United States 
has not yet been deployed. If law enforcement and intelligence 
officials had known for certain in August and September 2001 that two 
of the 9/11 hijackers remained in the United States, the search for 
them might have taken on greater urgency.
    With respect to intelligence reform, the Director of National 
Intelligence has made progress in several areas: Increased information 
sharing, better analysis of intelligence, improved cooperation among 
agencies, and sharpened collection priorities. But it still is not 
clear that the DNI is the driving force for intelligence community 
integration that the Commission envisioned. Some ambiguity appears to 
remain with respect to the DNI's authority over budget and personnel. 
Strengthening the DNI's position in these areas would advance the unity 
of effort in intelligence, whether through legislation or with repeated 
declarations from the President that the DNI is the unequivocal leader 
of the intelligence community.
    I also want to recognize that the FBI has gone through dramatic 
change and has had strong leadership under Director Mueller. It 
continues to move in a positive direction from a focus strictly on law 
enforcement to preventing terrorism. This is a significant cultural 
change that can be furthered by placing the status of intelligence 
analysts on par with special agents, who have traditionally risen to 
management at the Bureau.
    The CIA has improved its intelligence analysis and removed barriers 
between its analysts and operations officers. But recruiting well-
placed sources remains difficult and the CIA has had difficulty 
recruiting officers qualified with the language skills where there is 
the greatest need. Congress can help in the language area by supporting 
programs that teach young people proficiency in foreign languages.
    A major disappointment has been the failure of the administration 
to empanel the Privacy and Civil Liberties Oversight Board. This was a 
major 9/11 Commission recommendation that was strongly supported by all 
Commissioners. At this time, the President has only nominated two 
members to serve on the five-member Board, and neither of them has been 
confirmed by the Senate. I commend Ranking Member Thompson and other 
Members of the committee for the letter that they sent to the 
administration about the Board's vacancies and encourage this committee 
to continue to push the administration on this issue.
    Another disappointment is the failure of Congress to reform 
oversight of the intelligence community and the Department of Homeland 
Security. The Commission recommended that Congress create a Joint 
Committee for Intelligence or create House and Senate Committees with 
the combined authorizing and appropriation powers. While these changes 
have not been implemented, a positive step was the House Intelligence 
Committee Chairman's commitment to include three Members of the House 
Appropriations Committee in Intelligence Committee hearings and 
briefings.
    As this committee is well aware, oversight of the Department of 
Homeland Security remains fractured. In 2009 alone, DHS officials 
answered 11,680 letters, provided 2,058 briefings, and sent 232 
witnesses to 166 hearings. This amounted to about 66 work years 
responding to questions from Congress, at a cost to taxpayers of about 
$10 million. This is an inefficient allocation of limited resources 
needed to secure our Nation. Moreover, the massive Department will be 
better integrated if there is integrated oversight.
 iii. the capture of osama bin laden and the threat picture after his 
                                 death
The Bin Laden Operation
    The capture of Osama bin Laden is a significant achievement of the 
United States intelligence and military forces--the most significant 
achievement to date in our efforts to defeat al-Qaeda. The raid took 
hard work, cooperation, vigilance, and tenacity, over a period of 
years. It involved surveillance, analysis of many bits of information, 
interceptions, and the extraordinary skills of our Special Operations 
Forces. The CIA and the military worked together seamlessly. The raid 
was a culmination of intense and tireless efforts on the part of many 
dedicated National security personnel over a period of many years.
    It was a highly complex, innovative, and clandestine operation that 
led us to Osama bin Laden. We would get a bit of intelligence from one 
source, carefully analyze it, and then use it to drive further efforts 
and operations. A simple intercepted phone call proved critically 
important when the response to the caller said, ``I'm back with the 
people I was with before''--that is, he had returned to Osama bin 
Laden.
    It used the full range of our capabilities, both in collecting 
intelligence from human and technical sources, and subjecting it to 
very rigorous analysis by our Government's leading experts on bin Laden 
and his organization. There is no question that his capture came about 
as a result of reforms that have recently been enacted in the Federal 
Government that yielded much closer collaboration and sharing of 
information among intelligence components and the military. That 
cooperation paid dividends that assisted in locating bin Laden's hiding 
place.
    And we now have a major source of new information that the 
intelligence community will analyze in very great detail. The trove of 
information--the captured hard drive and documents--recovered from his 
compound may eventually be even more important than his death.
Bin Laden's Death
    Osama bin Laden was the most infamous terrorist of our time. He was 
also the most successful. He brought together terrorist elements under 
one movement, al-Qaeda. Most remarkably, as the mastermind of 9/11, he 
persuaded 19 young men to go to their deaths for a cause. He also 
directed the attacks on the American embassies in East Africa.
    There is some difference of opinion on his role at his death. My 
personal view is that for the last decade, Osama bin Laden has been a 
figurehead more than a mastermind. I do not think that a man without a 
telephone or access to the internet, relying on couriers, could have 
been a prime mover in more recent terrorist operations. There can be no 
doubt about his symbolic importance.
    The single act of his death does not change everything--nothing 
ever changes everything--it does not, for example, resolve two messy 
wars. We should receive some satisfaction from his death, but not 
exaltation. Men die, symbols do not. In his death, he can still inspire 
terrorist attacks. But it is worth noting that in the Middle East, news 
of his death was greeted with ambivalence, and even indifference.
Future of al-Qaeda
    Whether it is a turning point in our fight against terrorism 
remains to be seen. Although Osama bin Laden is dead, al-Qaeda is not--
it is a network, not a hierarchy. Over a period of years, al-Qaeda has 
been very adaptive and resilient. Bin Laden's death is certainly a 
setback for al-Qaeda but likely not its demise.
    Al-Qaeda will be searching for an effective leader. Its likely next 
leader, Ayman al-Zawahiri, will almost certainly struggle to keep al-
Qaeda relevant. He is likely to be the last man standing in the 
struggle for leadership. We should not underestimate Zawahiri. He is 
extremely pious, ruthless; he is not a lightweight; he has been 
instrumental in al-Qaeda's strategy, development, and evolution over a 
period of years.
    Al-Qaeda's capabilities to implement large-scale attacks are less 
formidable than they were 10 years ago, but al-Qaeda continues to have 
the intent and reach to kill dozens, or even hundreds, of Americans in 
a single attack. The war against terror is not won. The work is not 
done. It is not time to declare victory.
    Al-Qaeda and its affiliates will almost certainly attempt to avenge 
him. They will not necessarily attack soon. The threat from al-Qaeda is 
more diverse and more complex than ever--although less severe than the 
catastrophic proportions of the 
9/11 attacks. It continues to hope to inflict mass casualties in the 
United States
    Al-Qaeda has been marked by rapid decentralization. The most 
significant threats to American National security come from the 
affiliates of core al-Qaeda--like al-Qaeda in the Arabian Peninsula 
under U.S.-born Anwar al-Awlaki's leadership. Al-Qaeda's influence is 
also on the rise in South Asia and continues to extend into failing or 
failed states such as Yemen and Somalia.
    In assessing terrorist threats to the American homeland, senior 
U.S. counterterrorism officials now call attention to al-Qaeda's 
strategy of ``diversification''--mounting attacks involving a wide 
variety of perpetrators of different National and ethnic backgrounds 
that cannot easily be ``profiled'' as threats. Lone wolves, who are not 
connected to formal terrorist organizations, are the most difficult to 
detect, in part because they do not fit any particular ethnic, 
economic, educational, or social profile.
    Most troubling, we have seen a pattern of increasing terrorist 
recruitment of American citizens and residents. In 2009, there were two 
actual terrorist attacks on our soil. The Fort Hood shooting, claimed 
the lives of 13 people, and a U.S. military recruiter was killed in 
Little Rock, Arkansas. Indeed, many counterterrorism experts consider 
2010 the ``year of the homegrown terrorist.'' Last year, 10 Muslim-
Americans plotted against domestic targets, and 5 actually carried out 
their plots. Today, we know that Americans are playing increasingly 
prominent roles in al-Qaeda's movement. And Muslim-American youth are 
being recruited in Somali communities in Minneapolis and Portland, 
Oregon, in some respects moving the front lines to the interior of our 
country.
    Moreover, we know that individuals in the U.S. are engaging in 
``self-radicalization,'' which is an alarming development. This process 
is often influenced by blogs and other on-line content advocating 
violent Islamist extremism. While there are methods to monitor some of 
this activity, it is simply impossible to know the inner thinking of 
every at-risk person. Thus, self-radicalization poses a grave threat in 
the United States, and as I noted earlier, our National Security 
Preparedness Group will soon release a report with recommendations for 
improving our defenses to radicalization.
    Because al-Qaeda and its affiliates will not give up, we cannot let 
our guard down. We must not become complacent, but remain vigilant and 
resolute.
Evolving Mechanisms for Attacking the United States
    Our enemy continues to probe our vulnerabilities and design 
innovative ways to attack us. Such innovation is best exemplified by 
the discovery in October 2010 of explosives packed in toner cartridges, 
addressed to synagogues in Chicago, and shipped on Fed Ex and UPS cargo 
flights from Yemen. This plot constituted an assault on our 
international transportation and commerce delivery systems. And it was 
done without the terrorists ever having to set foot within the United 
States. Although it failed, terrorists will not abandon efforts to 
develop new ways to inflict great harm on us.
    Another way that terrorists can attack without ever physically 
crossing our borders is through a cyber attack. Successive DNIs have 
warned that the cyber threat to critical infrastructure systems--to 
electrical, financial, water, energy, food supply, military, and 
telecommunications networks--is grave. Earlier this month, senior DHS 
officials described a ``nightmare scenario'' of a terrorist group 
hacking into United States computer systems and disrupting our electric 
grid, shutting down power to large swathes of the country, perhaps for 
as long as several weeks. As the current crisis in Japan demonstrates, 
disruption of power grids and basic infrastructure can have devastating 
effects on society.
    This is not science fiction. It is possible to take down cyber 
systems and trigger cascading side effects. Defending the United States 
against such attacks must be an urgent priority.
                     iv. international implications
    The capture and removal of Osama bin Laden raises many urgent 
questions. Among them are the following:
    What is the future of the U.S.-Pakistan relationship? The discovery 
of bin Laden in a large compound adjacent to a Pakistani Army 
cantonment, just a 2-hour drive from the Pakistani capital, and about a 
mile from Pakistan's West Point--not in a remote area over which the 
government has limited control--requires answers from the Pakistani 
government about whether its intelligence service, military, or other 
officials were aware of bin Laden's whereabouts for some time, possibly 
even providing support. It is difficult to imagine that bin Laden would 
have chosen to live in Abbottabad unless he had some assurance of 
protection from Pakistan military and intelligence officials. There is 
intense debate over how hard to press Pakistan for answers about bin 
Laden and what Pakistani officials knew.
    While Pakistan has cooperated with U.S. counterterrorism efforts, 
relations with Pakistan have been strained in recent years. The United 
States has provided large amounts of aid to Pakistan in return for its 
assistance in hunting down al-Qaeda leaders, but Pakistan has been 
known to look both ways--helping the United States and the Taliban as 
well.
    Pakistan has been less than a full partner in our counterterrorism 
efforts and in Afghanistan. Pakistan's government has long been 
internally divided about terrorism. Parts of its government are 
sympathetic to terrorism, parts are unwilling to act aggressively 
against it, and other parts are either incompetent or playing a double 
game with and against terrorism. U.S. officials are now openly 
skeptical about Pakistan's commitment to countering terrorist activity 
within their borders, and they question whether Pakistan will be a 
better partner in identifying and apprehending terrorists in the 
future.
    For its part, Pakistan will likely continue to demand that the 
United States stop encroachments upon its sovereignty in 
counterterrorism operations. Thus, the death of Osama bin Laden may 
very well, in the short run, strengthen the extremists.
    This difficult and complex relationship with Pakistan must be 
managed, not dissolved, in order to advance our shared interests in 
countering terrorism and ending the war in Afghanistan. The U.S.-
Pakistan relationship is central to the interests of both countries. 
The United States needs cooperation with Pakistan in its fight against 
terrorism in Afghanistan and ending the war there. Pakistan provides a 
vital transit link for goods destined for U.S. forces in Afghanistan, 
and its collapse, with internal terrorist groups and nuclear weapons, 
could be catastrophic. This is already one of the most difficult 
bilateral relationships in the world, which has been made worse by 
recent events. We can only manage it, we cannot resolve all the 
tensions.
    After many demands to cut aid to Pakistan, extensive efforts are 
now underway to ease tensions between the two countries. In the end, 
the United States will need to be committed to working with Pakistan 
despite the lingering questions. Of this we can be sure: More tense 
times lie ahead in the U.S.-Pakistan relationship. Our focus must be on 
long-term interests, not short-term frustration. We need a healthy 
Pakistan that fights extremism and terror, and that means we should 
help democratic forces within Pakistan.
    Another question is Afghanistan. Osama bin Laden's death creates 
new opportunities to begin real negotiations to end the conflict. The 
situation there is not good. The United States can clear and hold any 
area--but only for as long as we stay there. The Taliban have been 
pushed back, but they are not close to being defeated. Our gains are 
fragile and reversible. And the corruption and incompetence of the 
Karzai government is well-known.
    With bin Laden's death, U.S. policymakers may be in a position to 
consider whether a political deal can be cut with the Taliban, which, 
from our view would require: (1) The Taliban to turn over al-Qaeda 
leaders, (2) maintaining progress that has been made in Afghanistan 
towards a more open society, and (3) bringing an end to the war. We can 
get to that deal by more fighting. Or we can get to a deal by 
negotiating a political settlement. Success in Afghanistan is not easy 
to define, but it includes establishing an Afghan government that, in 
time, can hold off the Taliban with a modest amount of American support 
and help.
    A third issue is whether and how recent events in the Middle East--
the so-called Arab Spring--may counter the violent extremist agenda of 
al-Qaeda and its affiliates. Al-Qaeda has been unsuccessful in its 
attempts to destabilize Arab governments and replace them with a Muslim 
Caliphate that stretches across the region. It has not been relevant to 
the revolutionary waves sweeping the Middle East. Where al-Qaeda 
failed, peaceful protesters have succeeded through their grassroots 
uprisings in achieving regime change and dramatic political reforms. 
What is erupting today in the Middle East is profoundly important--a 
quest for freedom, for personal dignity, for justice, for a better 
life. These demands are not going to fade away.
    But these revolutions are not without risks. It is by no means 
clear that they will succeed. If they falter and fail to destroy 
repressive governments and to build a new democratic world, al-Qaeda 
and other violent extremist groups could emerge again.
    In any event, we are headed for a more uncertain Arab world.
    Today Muslim people have a chance, with real elections, 
constitutions, and political parties. If the people want and demand 
democratic change and accountable governments, no government will be 
able to resist. None of us can predict the outcome, but we of course 
can hope for, and support, more democratic regimes.
    The United States must seize the opportunity provided by the Arab 
Spring, welcome the changes toward self-determination and opportunity, 
oppose violence and repression, promote reform toward democracy, and 
support economic development for the nations moving in a democratic 
direction.
    Public diplomacy (and nontraditional diplomacy more broadly) may 
also be a useful tool in facilitating the change sweeping through the 
region. We should seek to foster reform, forestall gross human rights 
violations, and work closely with the international community, while 
avoiding putting the American imprimatur on the protests.
    The key will be to engage pragmatically with the governments of the 
region to help them build stable institutions and provide immediate 
economic improvement to their people. We should support an agenda of 
opportunity for the Islamic world. People-to-people exchanges--between 
legislators, businesspeople, students, academics, civil servants, trade 
unions, lawyers, scientists, and other groups--could be very productive 
here. In the 9/11 Commission Report, we recommended that the United 
States ``rebuild the scholarship, exchange, and library programs that 
reach out to young people and offer them knowledge and hope.'' A 
significant exchange program for emerging Middle East and North Africa 
democracies should be a relatively easy lift for Congress, and would be 
a tangible way of signaling U.S. friendship to the new democracies, on 
the basis of mutual respect and without seeming to meddle or to seek 
control.
    The United States and European Union should also work together to 
use trade and aid policies to give a quick economic assist, in terms of 
market access, to the new democratic governments (once they emerge). 
Such an initiative would be much more effective if done in concert with 
the European Union.
                             v. conclusion
    Significant progress has been made since 9/11, and our country is 
undoubtedly safer and more secure. We have damaged our enemy, but the 
ideology of violent Islamist extremism is alive and attracting new 
adherents, including right here in our own country. Close cooperation 
with American Muslim communities is the key to preventing the domestic 
radicalization that has troubled some of our European allies. Positive 
outreach and efforts to foster mutual understanding are the best way to 
prevent radicalization and sustain collaborative relationships.
    Our terrorist adversaries and the tactics and techniques they 
employ are evolving rapidly. We will see new attempts, and likely 
successful attacks. One of our major deficiencies before the 9/11 
attacks was that our National security agencies were not changing at 
the accelerated rate required by a new and different kind of enemy. We 
must not make that mistake again.
    The terrorist threat will be with us far into the future, demanding 
that we be ever vigilant. Our National security departments require 
strong leadership and attentive management at every level to ensure 
that all parts are working well together, that there is innovation and 
imagination. Our agencies and their dedicated workforces have gone 
through much change and we commend them for their achievements in 
protecting the American people. But there is a tendency toward inertia 
in all bureaucracies. Vigorous Congressional oversight is imperative to 
ensure that they remain vigilant and continue to pursue needed reforms.
    Our task is difficult. We must constantly assess our 
vulnerabilities and anticipate new lines of attack. We have done much, 
but there is much more to do.
    Thank you for inviting me to testify, and for this committee's 
long-standing leadership on these critical issues.

    Chairman King. Thank you, Chairman Hamilton.
    Our next witness is a long-time friend, fellow New Yorker, 
whose mother is a constituent of mine. So I figured I would be 
very polite to you today, which I would be anyway, especially 
with your mother watching.
    Very seriously, Fran Townsend is a career Federal 
prosecutor with a very distinguished record in the field of 
counterterrorism in several administrations, not just in the 
Justice Department, but in the Coast Guard and in the White 
House as President George Bush's principal counterterrorism 
advisor. She is currently senior vice president at MacAndrews & 
Forbes Holdings, is a National security contributor and 
analyst, and she serves on the President's Intelligence 
Advisory Board.
    Fran, it is great to have you here today, and thank you for 
all your service. I certainly look forward to your testimony.

   STATEMENT OF FRANCES F. TOWNSEND, SENIOR VICE PRESIDENT, 
WORLDWIDE GOVERNMENT, LEGAL AND BUSINESS AFFAIRS, MACANDREWS & 
                     FORBES HOLDINGS, INC.

    Ms. Townsend. Thank you, Mr. Chairman, Ranking Member 
Thompson, and Members of the committee. Thank you very much for 
inviting me here today.
    Before I begin to address the topic at hand, it seems to me 
that though we are discussing today threats to the United 
States from terror, the impact of natural disasters like that 
in Missouri have captured our hearts and prayers. I know that 
we all, I think, pray for the victims, families, and the 
missing.
    I have to say it is a special privilege for me to be here 
with you all today. Like many who devoted a substantial part of 
their professional lives in the hunt for bin Laden and to bring 
him to justice, it is especially satisfying to be with you to 
consider now the threats we face in a world rid of him. In 
discussing the threat we face, we must consider the role bin 
Laden played. Bin Laden was at the heart of what 
counterterrorism professionals refer to as the al-Qaeda core. 
Bin Laden was the father, the founder, and ideological author. 
He was, as the name of the organization suggests, the base.
    Our understanding of bin Laden's role was imperfect and 
evolved over time. While he was always viewed as a charismatic 
inspirational figure, key to recruitment, fundraising, 
ideology, and leadership, the U.S. view of his operational role 
was unclear. Bin Laden inspired loyalty from affiliates like 
al-Qaeda in the Islamic Maghreb and al-Qaeda in the Arabian 
Peninsula, who swore allegiance, or bayat, to him. He had a 
direct hand in cases like the 1998 East Africa embassy bombings 
and September 11.
    For years after 9/11, it was believed he played a less 
active role until, of course, last year, when he seemed to have 
had a more direct role in the summer 2010 threat in Europe. 
Since the raid on the bin Laden compound in Abbottabad, public 
reports indicate bin Laden has played a more active operational 
role, encouraging attacks against the United States and 
targeting Americans world-wide. There have been warnings about 
attack plans against railways, reports of a potential attack 
against oil tankers, and we should expect more such warnings 
from the Government in the coming days.
    But we should understand many of these targets were 
aspirational. They were being considered. There had been past 
attacks against rail in London and Madrid, and, of course, the 
al-Qaeda attack against the MV Limburg, so that such plans were 
being considered and discussed is not surprising. That bin 
Laden played an active operational role makes his sudden 
absence from al-Qaeda more devastating for them. We know now 
that bin Laden was focused on attacking the United States, so 
his death is not only justice for the victims of September 11, 
the USS Cole, and East Africa bombings, America is safer 
because he is dead.
    So the question is, what remains? I break it down basically 
into two categories: Who is a threat to us; and, second, where 
does that threat emanate from?
    First, the who. There are three main categories, in my 
mind, of who directly threatens the United States. First, there 
are the remnants of the al-Qaeda core; second, the al-Qaeda 
affiliates; and then last, the other extremist groups.
    First, what remains of the al-Qaeda core? Ayman al-
Zawahiri, bin Laden's deputy; recently we have heard again of 
Saif al-Adel, who has resurfaced. But al-Qaeda has failed to 
name a new leader because there is an internal power struggle. 
There was no agreed-upon succession plan. There is no one of 
bin Laden's stature to inspire and guide operations and quell 
disputes. The al-Qaeda core without bin Laden is badly 
weakened. The chaos at the top of al-Qaeda is an important 
targeting opportunity for the United States.
    The second category of ``who'' is perhaps more immediately 
dangerous to the United States. The second ``who'' are the al-
Qaeda affiliates and, most importantly, al-Qaeda in the Arabian 
Peninsula, headed by the American-born cleric Anwar al-Awlaki. 
Intelligence and counterterrorism officials have rightly 
described al-Qaeda in the Arabian Peninsula, or AQAP, as the 
most immediate threat to the United States homeland. AQAP has 
both the intent to attack and had demonstrated some capability. 
AQAP was behind the Nidal Hasan Fort Hood event, the attempted 
Christmas day underwear bomber, and the recent computer 
cartridges attempt.
    Awlaki is a serious threat. Unlike Zawahiri, he is a 
charismatic and inspirational leader. He uses the internet and 
taped lectures to recruit and radicalize world-wide. There are 
other affiliates that I won't go into in depth, one in North 
Africa, those in Somalia, and Asia, but AQAP poses the most 
immediate threat.
    The third category of ``who'' are other extremist groups: 
The Pakistan Taliban, which was responsible for the training of 
the Times Square bomber. Mullah Omar and the Quetta Shura 
remain our enemy and a direct threat. We must be careful not to 
write off radical groups that appear only regionally or locally 
focused, as was the initial belief of the Pakistan Taliban. 
Lashkar-e-Taiba, LET, which was behind the Mumbai attack, is 
currently the subject of the trial in Chicago right now. The 
Haqqani network in the Pakistan tribal areas continues to 
target and kill coalition forces in Afghanistan.
    Last among these other groups, we must not forget 
Hezbollah. Although a Shiite extremist group, they remain 
bankrolled by Iran, and prior to September 11 were responsible 
for killing more Americans than any other terror group. They 
are armed, militarily capable, deployed world-wide, and remain 
a significant threat.
    The next category that I mentioned is the ``where'' the 
threat emanates from. Again, I will talk about three concerns: 
First, ungoverned or weakly governed states or places; threats 
inside the United States; and, third, complacency.
    First, ungoverned or weakly governed states and places. 
That was Afghanistan of the 1990s, where al-Qaeda planned and 
trained. Today we see hotspots in Somalia along the Mali-
Mauritania border, in Yemen, and in Pakistan. I know from my 
own experience both Yemen and Pakistan are frustrating and at 
times duplicitous partners, but events this week require that I 
raise a note of caution. The sophisticated Pakistan Taliban 
attack on the Karachi Naval Air Base suggests a weaker and more 
humiliated Pakistan military than was previously thought. We 
must remember that Pakistan has a nuclear arsenal, and, as both 
President Obama and President Bush have said, the greatest 
threat to our security is a terrorist group like the Pakistan 
Taliban with a nuclear weapon.
    While it is right that we reevaluate our bilateral 
relationship with Pakistan, especially given the testimony this 
week in the Chicago case that shows a link between the 
Pakistani Intelligence Service and the LET terror group, we 
must carefully consider what are the alternatives and 
consequences to the partnership with Pakistan.
    There is another weakly-governed space I must mention, 
though it is not a traditional geographic space. You cannot 
find it on a map. That is cyberspace and the internet. For all 
the enormous good of the internet, al-Qaeda and other terrorist 
groups have learned to use it to their advantage to recruit, to 
train, to radicalize, and to fundraise. Every plot we uncovered 
during my time in Government, computers were used. Just by way 
of example, al Awlaki communicated via the internet with the 
Fort Hood shooter, and bin Laden had the computers in his 
compound.
    The United States has tremendous capability, and a lot of 
important work has been done in this area across both the Bush 
and Obama administrations. Our soldiers and counterterrorism 
professionals know this is a new 21st-Century battlefield just 
as any other geography where we fight. It is important the 
Congress and the American people understand we are fighting 
there to.
    The second ``where'' is here inside the United States. As 
the United States has strengthened its border screening, al-
Qaeda has made it a priority to recruit Americans and permanent 
residents who more easily cross our borders. This threats 
manifests itself with single individuals who attempt attacks, 
again, like Fort Hood, Times Square, and Christmas day attacks, 
or in small groups like the Najibullah Zazi case against the 
New York City subway with backpack bombs.
    The last, ``where'' does the threat come from, doesn't fit 
easily into any of these categories, but it is equally 
pernicious and dangerous, and that is the threat of 
complacency. Killing bin Laden was a difficult and courageous 
decision by President Obama and an enormous success for the 
Nation, but the global war on terror is by no means over. 
Regardless of what you call it, the fight continues because our 
enemies continue. We won an important and decisive battle, but 
the threat remains. We have seized the momentum, but we must 
not think this means we can reduce the investments that 
produced this success. Our intelligence, military, and law 
enforcement agencies need the budget and legal authorities to 
succeed.
    There is an important vote today in the Senate extending 
the PATRIOT Act, and while I believe it should have been 
permanently extended, it must be extended for the next 4 years. 
The IDENT database should be properly funded. We must prevent 
terrorists from getting nuclear or other biological weapons, 
and that means we must ensure we have the ability to respond by 
maintaining the Strategic National Stockpile and our other 
unique operational capabilities.
    In this time of continued financial crisis, there will be 
pressure to find cuts. My caution to you is that all cuts are 
not equal. Capability is built over time. What we found in the 
immediate aftermath of 9/11 is that it cannot be quickly 
reacquired in a crisis. President Obama's courageous decision 
to authorize the bin Laden raid was enabled by an intelligence 
community whose budget and capability was doubled over the last 
decade, and this mission was executed by warriors better 
resourced and trained over the last 10 years. You get what you 
pay for, and to use the phrase from the MasterCard commercial, 
the killing of bin Laden was priceless. It was the 
accomplishment of a Nation and a moment of National pride. We 
unequivocally told the world: No matter how difficult the task 
nor how long the journey, we will never forget.
    Thank you, Mr. Chairman, for the privilege to testify 
today. I thank the American people for the privilege of serving 
them for more than 20 years.
    Chairman King. Thank you.
    Our next witness is Peter Bergen, who I assume is the only 
one in this room that has actually was face-to-face with bin 
Laden. I think you were the first Western broadcast journalist 
to interview him. You wrote the book ``The Osama bin Laden I 
Know'' and also ``The Longest War''. Obviously, you have a 
tremendous depth of insight, knowledge, and a career of 
expertise. I look forward to your testimony today, as always, 
and thank you for once again being back before the committee.

STATEMENT OF PETER BERGEN, DIRECTOR, NATIONAL SECURITY STUDIES 
                PROGRAM, NEW AMERICA FOUNDATION

    Mr. Bergen. Thank you, Chairman King, thank you, Ranking 
Member Thompson, thank you to the Members of the committee, for 
the privilege of testifying here.
    The death of Osama bin Laden is hard to undervalue, as 
Representative Hamilton and Fran Townsend have already made 
clear. But just to amplify what they said, when you join al-
Qaeda, you don't swear an oath of allegiance to al-Qaeda or al 
Qaedism. You swear a personal oath of allegiance to bin Laden 
himself.
    There are many differences between al-Qaeda and the Nazi 
Party, but there is one similarity. When you join the Nazi 
Party, you didn't swear an oath of allegiance to nazism. You 
swore a personal oath to Adolph Hitler. When Adolph Hitler 
died, nazism essentially died with him. Now, I am not going to 
make the claim that al-Qaeda is going to die with the death of 
bin Laden or al-Qaedism or bin Ladenism or whatever you want to 
call it, but you cannot underestimate how important this is.
    In 1988, bin Laden and about a dozen other guys founded al-
Qaeda. It was, of course, bin Laden's idea to attack the United 
States on 9/11. He has been the founder of this group 
throughout its history, he has been the leader of the group 
through its history, and he is the intellectual author of the 
9/11 attacks. It was, after all, against a lot of internal 
advice and dissent he pushed the idea of attacking the United 
States.
    We now know from documents recovered and from 
Representative Hamilton's work on the 9/11 Commission that 
there were plenty of people in al-Qaeda who said actually 
attacking the United States is going to be pretty 
counterproductive, and it turned out to be very 
counterproductive. Yet bin Laden, was able--because he enjoyed 
what Khalid Sheikh Mohammed, the operational commander of 9/11, 
called--in testimony he put in the Zacarias Moussaoui trial, he 
pointed out that when bin Laden decided something and 98 
percent of the Shura Council of al-Qaeda was against him, it 
was bin Laden's way or the highway. So take this guy out of the 
equation, this is very damaging for al-Qaeda core.
    Who can replace him? Representative King suggested we talk 
a little bit about that. Ayman al-Zawahiri, the No. 2, is, of 
course, his deputy. But as Fran Townsend pointed out, there is 
no official succession plan. According to reporting that I did 
for CNN, there is an interim leader of al-Qaeda--Fran also 
mentioned him--Saif al-Adel. He is a former colonel in the 
Egyptian Special Forces. Al-Qaeda recognizes that it is kind of 
embarrassing that they haven't appointed a succession leader, 
and so there was an interim person to take over, perhaps to 
grease the skids for Ayman al-Zawahiri, who is also an 
Egyptian, to take over the organization. But, in a way, the 
best thing that could happen for the United States and for the 
civilized world is for Ayman al-Zawahiri to take over al-Qaeda 
because he would run what remains of the organization into the 
ground.
    If you remember Abu Musab al-Zarqawi's death in 2006, the 
people who replaced him heading al-Qaeda in Iraq were nowhere 
near as potent in al-Qaeda in Iraq, which basically ceased 
being an effective insurgent organization while retaining some 
capabilities today.
    So the death of bin Laden, we just want to underline how 
important it is.
    A second point which hasn't been mentioned hitherto is in 
the Arab Spring, because if al-Qaeda was a huge nail in the 
coffin of al-Qaeda the organization, the Arab Spring is a 
massive nail in the coffin of al-Qaeda ideology. Al-Qaeda, the 
ideology, was already losing steam before the Arab Spring; 
support for bin Laden, al-Qaeda, and suicide bombings being 
cratering around the Muslim world for the very good reason that 
Muslims have noticed that most of the victims of al-Qaeda or 
allies have been Muslims themselves, which is not impressive 
for groups that position themselves as the defender of Islam. 
But the Arab Spring underlines this losing the war of ideas in 
the Muslim world that has been going on for some period of 
time.
    One very striking thing to me is we haven't seen a single 
picture of bin Laden carried by the protesters in Cairo or 
Benghazi or any other city in the Middle East. We haven't seen 
a single American flag burning, which was so pro forma in that 
part of the world. We haven't seen a single Israeli flag 
burning. Al-Qaeda's foot soldiers' ideas and their hope for 
outcomes are just not part of the conversation.
    That said--and these are all very, very good pieces of news 
that we shouldn't look the gift horse in the face, in a sense--
threats do remain. I think that Fran has already mentioned al-
Qaeda in the Arabian Peninsula. I am not going to go over that 
same territory. But I think the death of bin Laden doesn't 
really affect the operations of al-Qaeda in the Arabian 
Peninsula. I don't think it really affects the operations of al 
Shabab. I don't think it really affects the operations of al-
Qaeda in Iraq. I don't think it really affects the operations 
al-Qaeda in the Islamic Maghreb. These groups don't have--most 
of them, absent al-Qaeda in the Arabian Peninsula--don't have 
huge capabilities. Al Shabab has been able to attack in Uganda 
and also in Denmark, so it has shown some ability of outer 
barrier operations. Al-Qaeda in Iraq had some role, it looks 
like, in the Glasgow airport attack and also the attacks on the 
American-owned hotels in Jordan in 2005. But the point is these 
groups have been constrained in their ability to attack the 
American homeland.
    My final point, because I have run out of time, the New 
America Foundation and Maxwell School at Syracuse University 
have looked at the 180 jihadist terrorist attacks in the United 
States since 9/11, and there is some really strikingly good 
news and some bad news in this analysis. Only 17 Americans have 
been killed by a jihadist terrorist since 9/11, which is a 
pretty striking number, given the kind of fears we had after 9/
11. Not one of the cases we looked at involved chemical, 
biological, radiological, or nuclear weapons, also kind of a 
strikingly good finding, given the fears we had of that after 
9/11. That said, we have had some pretty serious near misses. 
The Chairman mentioned Najibullah Zazi. We had Faisal Shahzad. 
We had Abdulmutallab. So these groups retained some 
capabilities.
    One final point on all this. The cases we looked at really 
spiked in 2009 and 2010. We found 76 cases out of the 180. Just 
to end on a sort of optimistic note, in the first half of 2011, 
there has been a rather dramatic dip in the number of cases. So 
we have only had six this year. So the question before the 
committee and, in fact, before the Nation is: Was 2009 and 2010 
sort of an outlier, or was it part of a pattern? I think that 
is still very much an open question, but we have seen some good 
news this year.
    Thank you very much, Mr. Chairman.
    Chairman King. Thank you, Mr. Bergen.
    [The statement of Mr. Bergen follows:]
                   Prepared Statement of Peter Bergen
                              May 25, 2011
    Chairman King, Ranking Member Thompson, distinguished Members of 
the committee, thank you for the opportunity today to testify today 
about threats to the American homeland after the death of Osama bin 
Laden.
    The death of bin Laden is devastating to ``core'' al-Qaeda, but 
arguably just as important to undermining the terrorist organization is 
the large amount of information that was recovered at the compound 
where he was killed in northern Pakistan on May 2, 2011. That 
information is already being exploited for leads. Between the ``Arab 
Spring'' and the death of bin Laden, both al-Qaeda's ideology and 
organization are under assault. That said, jihadist terrorism isn't 
going away. Regional affiliates such as al-Qaeda in the Arabian 
Peninsula remain threatening and there is a continued low-level threat 
posed by ``homegrown'' jihadist militants inspired by bin Laden's 
ideas.
    Such militants might successfully carry out bombings against 
symbolic targets that would kill dozens, such as against subways in 
Manhattan, as was the plan in September 2009 of Najibullah Zazi, an 
Afghan-American al-Qaeda recruit, or they might blow up an American 
passenger jet, as was the intention 3 months later of the Nigerian Umar 
Farouq Abdulmutallab, who had been recruited by al-Qaeda in the Arabian 
Peninsula. Had that bombing attempt succeeded, it would have killed 
hundreds. This level of threat is likely to persist for years to come. 
However, al-Qaeda no longer poses a National security threat to the 
American homeland of the type that could result in a mass-casualty 
attack anywhere close to the scale of 
9/11.
    Indeed, a survey of the 180 individuals indicted or convicted in 
Islamist terrorism cases in the United States since the 9/11 attacks by 
the Maxwell School at Syracuse University and the New America 
Foundation found that none of the cases involved the use of chemical, 
biological, radiological, or nuclear weapons, while only four of the 
homegrown plots since 9/11 progressed to an actual attack in the United 
States, attacks that resulted in a total of 17 deaths. The most notable 
was the 2009 shootings at Ft. Hood, Texas by Maj. Nidal Malik Hasan, 
who killed 13. By way of comparison, according to the FBI, between 2001 
and 2009, 73 people were killed in hate crimes in the United States.
    The number of jihadist terrorism cases involving U.S. citizens or 
residents has markedly spiked in the past 2 years. In 2009 and 2010 
there were 76, almost half of the total since 9/11, but in the first 
half of 2011 the number of such cases has subsided rather dramatically. 
This year there have been a total of just six jihadist terrorism cases 
by the date of this hearing.
    American officials and the wider public should realize that by the 
law of averages al-Qaeda or an affiliate will succeed in getting some 
kind of attack through in the next years, and the best response to that 
would be to demonstrate that we as a society are resilient and are not 
be intimidated by such actions because our overreactions can play into 
the hands of the jihadist groups. When al-Qaeda or affiliated groups 
can provoke overwrought media coverage based on attacks that don't even 
succeed--such as the near-miss on Christmas day 2009 when Abdulmutallab 
tried to blow up Northwest Flight 253 over Detroit--we are doing their 
work for them. The person who best understood the benefits of American 
overreaction was bin Laden himself, who in 2004 said on a tape that 
aired on Al Jazeera: ``All that we have to do is to send two mujahedeen 
to the furthest point east to raise a piece of cloth on which is 
written al-Qaeda, in order to make generals race there to cause America 
to suffer human, economic, and political losses.''\1\ Let us not give 
bin Laden any more such victories now that he is dead.
---------------------------------------------------------------------------
    \1\ Osama bin Laden, tape released November 1, 2004, http://
articles.cnn.com/2004-11-01/world/binladen.tape_1_al-jazeera-qaeda-
bin?_s=PM:WORLD.
---------------------------------------------------------------------------
    This testimony focuses on the threat from al-Qaeda, its affiliates, 
and those motivated by its ideas, while recognizing that these are not 
the only sources of terrorism directed against the United States.
    The testimony will attempt to answer four questions:
  <bullet> What effect will the killing of bin Laden have on U.S. 
        security interests, and on core al-Qaeda's goals and 
        capabilities?
  <bullet> What threats emanate from Pakistan-based militant groups 
        other than al-Qaeda?
  <bullet> What threats emanate from al-Qaeda's regional affiliates?
  <bullet> What threats emanate from domestic militants motivated by 
        jihadist terrorist ideas?
1. What effect will the killing of bin Laden have on U.S. security 
        interests, and on core al-Qaeda's goals and capabilities?
    After the fall of the Taliban in the winter of 2001 bin Laden 
didn't, of course, continue to exert day-to-day control over al-Qaeda, 
but statements from him have always been the most reliable guide to the 
future actions of jihadist movements around the world and this remained 
the case even while he was on the run. In the past decade bin Laden 
issued more than 30 video- and audiotapes.\2\ Those messages reached 
untold millions worldwide via television, the internet, and newspapers. 
The tapes not only instructed al-Qaeda's followers to continue to kill 
Westerners and Jews; some also carried specific instructions that 
militant cells then acted on. In 2003, bin Laden called for attacks 
against members of the coalition in Iraq; subsequently terrorists 
bombed commuters on their way to work in Madrid and London. Bin Laden 
also called for attacks on the Pakistani state in 2007, which is one of 
the reasons that Pakistan had more than 50 suicide attacks that 
year.\3\ In March 2008 bin Laden denounced the publication of cartoons 
of the Prophet Mohammed in a Danish newspaper, which he said would soon 
be avenged. Three months later, an al-Qaeda suicide attacker bombed the 
Danish Embassy in Islamabad, killing six.
---------------------------------------------------------------------------
    \2\ IntelCenter, a U.S. Government contractor that tracks jihadist 
publications, says bin Laden released 33 tapes in the 8 years between 
9/11 and January 2010. IntelCenter Breakout of as-Sahab audio/video, 
2002-26 February 2010. Email from Ben Venzke, February 26, 2010.
    \3\ ``Istanbul rocked by double bombing,'' BBC News, November 20, 
2003, http://news.bbc.co.uk/2/hi/europe/3222608.stm; Craig Whitlock and 
Susan Glasser, ``On tape, bin Laden tries new approach,'' Washington 
Post, December 17, 2004. http://www.washingtonpost.com/wp-dyn/articles/
A3927-2004Dec16.html; Joel Roberts, ``Al-Qaeda threatens more oil 
attacks,'' CBS News, February 25, 2006, http://www.cbsnews.com/stories/
2006/02/27/world/main1346541_page2.shtml; ``Bin Laden tape encourages 
Pakistanis to rebel,'' Associated Press, September 20, 2007, http://
www.usatoday.com/news/world/2007-09-20-al-Qaeda-video_N.htm.
---------------------------------------------------------------------------
    Bin Laden exercised near-total control over al-Qaeda, whose members 
had to swear a religious oath personally to bin Laden, so ensuring 
blind loyalty to him. Khalid Sheikh Mohammed, the operational commander 
of the 9/11 attacks, outlined the dictatorial powers that bin Laden 
exercised over his organization: ``If the Shura council at al-Qaeda, 
the highest authority in the organization, had a majority of 98 percent 
on a resolution and it is opposed by bin Laden, he has the right to 
cancel the resolution.''\4\ Bin Laden's son Omar recalls that the men 
who worked for al-Qaeda had a habit of requesting permission before 
they spoke with their leader, saying, ``Dear prince: May I speak?''\5\
---------------------------------------------------------------------------
    \4\ Substitution for the testimony of KSM, trial of Zacarias 
Moussaoui, http://en.wikisource.org/wiki/
Substitution_for_the_Testimony_of_KSM.
    \5\ Jean Sasson and Omar and Najwa bin Laden, Growing Up Bin Laden 
(St. Martin's Press: New York, NY, 2009), p. 161 and 213.
---------------------------------------------------------------------------
    Materials recovered from the Abbottabad compound in northern 
Pakistan where bin Laden was killed paint a picture of a leader deeply 
involved in tactical, operational, and strategic planning for al-Qaeda, 
and in communication with other leaders of the group and even the 
organization's affiliates overseas.\6\ The death of bin Laden 
eliminates the founder of al-Qaeda, which has only enjoyed one leader 
since its founding in 1988, and it also eliminates the one man who 
provided broad, largely unquestioned strategic goals to the wider 
jihadist movement. Around the world, those who joined al-Qaeda in the 
past two decades have sworn baya, a religious oath of allegiance to bin 
Laden, rather than to the organization itself, in the same way that 
Nazi party members swore an oath of fealty to Hitler, rather than to 
Nazism. That baya must now be transferred to whomever the new leader of 
al-Qaeda is going to be.
---------------------------------------------------------------------------
    \6\ Mark Mazzetti and Scott Shane, ``Data show bin Laden plots,'' 
New York Times, May 5, 2011, http://www.nytimes.com/2011/05/06/world/
asia/06intel.html.
---------------------------------------------------------------------------
    Of course, even as the al-Qaeda organization withers there are 
pretenders to bin Laden's throne. The first is the dour Egyptian 
surgeon, Ayman al-Zawahiri, who is the deputy leader of al-Qaeda, and 
therefore technically bin Laden's successor. But Zawahiri is not 
regarded as a natural leader and even among his fellow Egyptian 
militants Zawahiri is seen as a divisive force and so he is unlikely to 
be able to step into the role of the paramount leader of al-Qaeda and 
of the global jihadist movement that was occupied by bin Laden.\7\ 
There is scant evidence that Zawahiri has the charisma of bin Laden, 
nor that he commands the respect bordering on love that was accorded to 
bin Laden by members of al-Qaeda.
---------------------------------------------------------------------------
    \7\ Jamal Ismail, interview by author, July 29, 2004, Islamabad, 
Pakistan.
---------------------------------------------------------------------------
    Another possible leader of al-Qaeda is Saif al-Adel, also an 
Egyptian, who has played a role as a military commander of the 
terrorist group, and since 9/11 has spent many years living in Iran 
under some form of house arrest. Adel has been appointed the 
``caretaker'' leader of the terrorist organization, according to Noman 
Benotman, a former leader of the Libyan Islamic Fighting Group, a 
militant organization that was once aligned with al-Qaeda, but has in 
recent years has renounced al-Qaeda's ideology.\8\
---------------------------------------------------------------------------
    \8\ Peter Bergen, ``Egyptian Saif al-Adel now acting leader of al-
Qaeda,'' CNN.com, May 17, 2011, http://articles.cnn.com/2011-05-17/
world/mideast.al.qaeda.appointee_1_al-adel-al-qaeda-libyan-islamic-
fighting-group?_s=PM:WORLD.
---------------------------------------------------------------------------
    Benotman, who has known the leaders of al-Qaeda for more than two 
decades and has long been a reliable source of information about the 
inner workings of the terrorist group, says that based on his personal 
communications with militants and discussions on jihadist forums, Adel 
has emerged as the interim leader of al-Qaeda as it reels from the 
death of its founder and eventually transitions, presumably, to the 
uncharismatic Zawahiri.
    A wild card is that one of bin Laden's dozen or so sons--endowed 
with an iconic family name--could eventually rise to take over the 
terrorist group. Already Saad bin Laden, one of the oldest sons, has 
played a middle management role in al-Qaeda.\9\
---------------------------------------------------------------------------
    \9\ Douglas Farah and Dana Priest, ``Bin Laden son plays key role 
in al-Qaeda,'' Washington Post, October 14, 2003, http://
www.washingtonpost.com/wp-dyn/content/article/2007/08/20/
AR2007082000980.html.
---------------------------------------------------------------------------
    One of the key issues that any future leader of al-Qaeda has to 
reckon with now is dealing with the fallout from the large quantities 
of sensitive information that were recovered by U.S. forces at the 
compound in Abbottabad where bin Laden was killed. That information is 
likely to prove quite damaging to al-Qaeda's operations.
    Jihadist terrorism will not, of course, disappear because of the 
death of bin Laden. Indeed, the Pakistan Taliban have already mounted 
attacks in Pakistan that they said were revenge for bin Laden's 
death,\10\ but it is hard to imagine two more final endings to the 
``War on Terror'' than the popular revolts against the authoritarian 
regimes in the Middle East and the death of bin Laden. No protestors in 
the streets of Cairo or Benghazi carried placards of bin Laden's face, 
and very few demanded the imposition of Taliban-like rule, al-Qaeda's 
preferred end-state for the countries in the region.
---------------------------------------------------------------------------
    \10\ Reza Sayah, ``Blasts kill at least 70 in northwest Pakistan,'' 
CNN.com, May 12, 2011, http://articles.cnn.com/2011-05-12/world/
pakistan.explosions_1_drone-strikes-north-waziristan-
militants?_s=PM:WORLD.
---------------------------------------------------------------------------
    If the Arab Spring was a large nail in the coffin of al-Qaeda's 
ideology, the death of bin Laden was an equally large nail in the 
coffin of al-Qaeda the organization.
    Media stories asserting that al-Qaeda has played no role in the 
revolts in the Middle East provoked a furious response from the Yemeni-
American cleric Anwar al-Awlaki, a leader of Al-Qaeda in the Arabian 
Peninsula. In his group's Inspire magazine, a slick Web-based 
publication, heavy on photographs and graphics that, unusually for a 
jihadist organ, is written in colloquial English, Awlaki penned an 
essay titled ``The Tsunami of Change.'' In the article, Awlaki made the 
uncontroversial point that the regimes based on fear were ending in the 
Arab world because of the revolutions and protests from Egypt to 
Bahrain. But he went on to assert that, contrary to commentators who 
had written that the Arab revolts represented a total repudiation of 
al-Qaeda's founding ideology, the world should ``know very well that 
the opposite is the case.''\11\
---------------------------------------------------------------------------
    \11\ Anwar al-Awlaki, ``Tsunami of change,'' Inspire, March 2011, 
http://info.publicintelligence.net/InspireMarch2011.pdf.
---------------------------------------------------------------------------
    Awlaki also turned to this analyst, writing, ``for a so-called 
`terrorism expert' such as Peter Bergen, it is interesting to see how 
even he doesn't get it right this time. For him to think that because a 
Taliban-style regime is not going to take over following the 
revolutions, is a too short-term way of viewing the unfolding events.'' 
In other words: Just you wait--Taliban-type theocracies will be coming 
to the Middle East as the revolutions there unfold further. Awlaki also 
wrote that it was wrong to say that al-Qaeda viewed the revolutions in 
the Middle East with ``despair.'' Instead, he claimed that ``the 
Mujahedeen (holy warriors) around the world are going through a moment 
of elation and I wonder whether the West is aware of the upsurge in 
Mujahedeen activity in Egypt, Tunisia, Libya, Yemen, Arabia, Algeria 
and Morocco?''
    We do not, of course, know the final outcome of the Arab 
revolutions, but there is very little chance that al-Qaeda or other 
extremist groups will be able to grab the reins of power as the 
authoritarian regimes of the Middle East crumble. But while al-Qaeda 
and its allies cannot take power anywhere in the Muslim world, these 
groups do thrive on chaos and civil war. And the whole point of 
revolutions is that they are inherently unpredictable even to the 
people who are leading them, so anything could happen in the coming 
years in Libya and Yemen, and much is unpredictable in Egypt, and even 
in Saudi Arabia.
2. What threats emanate from Pakistan-based militant groups other than 
        al-Qaeda?
    One of bin Laden's most toxic legacies is that even terrorist 
groups that don't call themselves ``al-Qaeda'' have adopted his 
ideology and a number of South Asian groups now threaten the West. 
According to Spanish prosecutors, the late leader of the Pakistani 
Taliban, Baitullah Mehsud sent a team of would-be suicide bombers to 
Barcelona to attack the subway system there in January 2008. A 
Pakistani Taliban spokesman confirmed this in a videotaped interview in 
which he said that those suicide bombers ``were under pledge to 
Baitullah Mehsud'' and were sent because of the Spanish military 
presence in Afghanistan.\12\
---------------------------------------------------------------------------
    \12\ Fernando Reinares, ``A case study of the January 2008 suicide 
bomb plot in Barcelona,'' Combating Terrorism Center Sentinel, January 
15, 2009, http://www.ctc.usma.edu/posts/a-case-study-of-the-january-
2008-suicide-bomb-plot-in-barcelona.
---------------------------------------------------------------------------
    In 2009 the Pakistani Taliban trained an American recruit for an 
attack in New York. Faisal Shahzad, who had once worked as a financial 
analyst in the accounting department at the Elizabeth Arden cosmetics 
company in Stamford, Connecticut, travelled to Pakistan where he 
received 5 days of bomb-making training from the Taliban in the tribal 
region of Waziristan. Armed with this training and $12,000 in cash, 
Shahzad returned to Connecticut where he purchased a Nissan Pathfinder. 
He placed a bomb in the SUV and detonated it in Times Square on May 1, 
2010 around 6 p.m. when the sidewalks were thick with tourists and 
theatergoers. The bomb, which was designed to act as a fuel-air 
explosive, luckily was a dud and Shahzad was arrested 2 days later as 
he tried to leave JFK airport for Dubai.\13\
---------------------------------------------------------------------------
    \13\ Benjamin Weiser and Colin Moynihan, ``Guilty plea in Times 
Square bomb plot,'' New York Times, June 21, 2010, http://
www.nytimes.com/2010/06/22/nyregion/22terror.html.
---------------------------------------------------------------------------
    Also based in the Pakistani tribal regions are a number of other 
jihadist groups allied to both the Taliban and al-Qaeda such as the 
such as the Islamic Movement of Uzbekistan and the Islamic Jihad Union 
that have trained dozens of Germans for attacks in Europe. Two Germans 
and a Turkish resident in Germany, for instance, trained in the tribal 
regions and then planned to bomb the massive U.S. Ramstein airbase in 
Germany in 2007.\14\ Before their arrests, the men had obtained 1,600 
pounds of industrial strength hydrogen peroxide, enough to make a 
number of large bombs.\15\
---------------------------------------------------------------------------
    \14\ Paul Cruickshank, ``The Militant Pipeline,'' New America 
Foundation, February 2010, http://counterterrorism.newamerica.net/
sites/newamerica.net/files/policydocs/cruickshank.pdf.
    \15\ ``Four jailed over plot to attack U.S. bases,'' Associated 
Press, March 4, 2010, http://www.msnbc.msn.com/id/35702791/ns/
world_news-europe/t/four-jailed-over-plot-attack-us-bases/.
---------------------------------------------------------------------------
    The Mumbai attacks of 2008 showed that bin Laden's ideas about 
attacking Western and Jewish targets had also spread to Pakistani 
militant groups such as Lashkar-e-Taiba (LeT), which had previously 
focused only on Indian targets. Over a 3-day period in late November 
2008 LeT carried out multiple attacks in Mumbai targeting five-star 
hotels housing Westerners and a Jewish-American community center. The 
Pakistani-American David Headley played a key role in LeT's massacre in 
Mumbai traveling to the Indian financial capital on five extended trips 
in the 2 years before the attacks. There Headley made videotapes of the 
key locations attacked by the ten LeT gunmen including the Taj Mahal 
and Oberoi hotels and Chabad House, the Jewish community center.\16\
---------------------------------------------------------------------------
    \16\ USA v. David Coleman Headley, U.S. District Court Northern 
District of Illinois Eastern Division Case No. 09 CR 830.
---------------------------------------------------------------------------
    Sometime in 2008, Headley hatched a plan to attack the Danish 
newspaper Jyllands-Posten, which 3 years earlier had published cartoons 
of the Prophet Mohammed that were deemed to be offensive by many 
Muslims. In January 2009 Headley traveled to Copenhagen, where he 
reconnoitered the Jyllands-Posten newspaper on the pretext that he ran 
an immigration business that was looking to place some advertising in 
the paper. Following his trip to Denmark, Headley met with Ilyas 
Kashmiri in the Pakistani tribal regions to brief him on his findings. 
Kashmiri ran a terrorist organization, Harakat-ul-Jihad Islami, closely 
tied to al-Qaeda. Headley returned to Chicago in mid-June 2009 and was 
arrested there 3 months later as he was preparing to leave for Pakistan 
again. He told investigators that he was planning to kill the Jyllands-
Posten's cultural editor who had first commissioned the cartoons as 
well as the cartoonist Kurt Westergaard who had drawn the cartoon he 
found most offensive; the Prophet Mohammed with a bomb concealed in his 
turban.\17\
---------------------------------------------------------------------------
    \17\ Sebastian Rotella, ``Pakistan's terror connections,'' 
ProPublica, http://www.propublica.org/topic/mumbai-terror-attacks/.
---------------------------------------------------------------------------
    The Pakistani Taliban, Lashkar-e-Taiba, Harakat-ul-Jihad Islami, 
the Islamic Jihad Union and the Islamic Movement of Uzbekistan are all 
based or have a significant presence in Pakistan's tribal regions and 
have track records of trying to attack Western and/or American targets 
and should therefore all be considered threats to American interests. 
The Pakistani Taliban, Lashkar-e-Taiba and Harakat-ul-Jihad Islami have 
also been able to attract American recruits. Already the Pakistani 
Taliban has carried out attacks in response to bin Laden's death.\18\
---------------------------------------------------------------------------
    \18\ Reza Sayah, ``Blasts kill at least 70 in northwest Pakistan,'' 
CNN.com, May 12, 2011, http://articles.cnn.com/2011-05-12/world/
pakistan.explosions_1_drone-strikes-north-waziristan-
militants?_s=PM:WORLD.
---------------------------------------------------------------------------
      3. what threats emanate from al-qaeda's regional affiliates?
Al-Qaeda in the Arabian Peninsula (AQAP)
    Anwar al-Awlaki, the American-born cleric living in Yemen has 
increasingly taken an operational role in ``al-Qaeda in the Arabian 
Peninsula,'' (AQAP) which was responsible for attempting to bring down 
Northwest Flight 253 over Detroit on Christmas day 2009 with a bomb 
secreted in the underwear of Umar Farouk Abdulmutallab, a Nigerian 
recruit. If Abdulmutallab had succeeded in bringing down the passenger 
jet, the bombing not only would have killed hundreds but would also 
have had a large effect on the U.S. economy already reeling from the 
effect of the worst recession since the Great Depression, and would 
have devastated the critical aviation and tourism businesses.
    President Obama regards Awlaki as so dangerous that he has 
authorized, seemingly for the first time in American history, the 
assassination of a U.S. citizen. Awlaki's command of English and 
internet savvy helped to radicalize militants such as Major Nidal Hasan 
who killed 13 of his fellow soldiers at Ft. Hood Texas in 2009. That 
attack happened after a series of email exchanges between Hasan and 
Awlaki in which the cleric said it was religiously sanctioned for Hasan 
to kill fellow soldiers.\19\
---------------------------------------------------------------------------
    \19\ Brian Ross, ``Major Hasan's email: `I can't wait to join you' 
in the afterlife,'' ABC, November 19, 2009, http://abcnews.go.com/
Blotter/major-hasans-mail-wait-join-afterlife/story?id=9130339.
---------------------------------------------------------------------------
    In October 2010 AQAP hid bombs in toner cartridges on planes bound 
for Chicago that were only discovered at the last moment at East 
Midlands Airport and in Dubai.\20\ The skillful AQAP bomb-maker who 
made those bombs is still at large, according to U.S. officials and 
will continue to attempt to smuggle hard-to-detect bombs on to American 
or other Western planes.
---------------------------------------------------------------------------
    \20\ Scott Shane, ``U.S. hunts for more suspicious packages,'' New 
York Times, October 30, 2010, http://www.nytimes.com/2010/10/31/us/
31plane.html.
---------------------------------------------------------------------------
    While carrying out bin Laden's overall strategy of attacking the 
United States, AQAP was operating largely independent of him and so 
will not be much affected by bin Laden's death.
Al Shabab
    In September 2009, the Somali Islamist insurgent group Al Shabab 
(``the youth'' in Arabic) formally pledged allegiance to bin Laden 
following a 2-year period in which it had recruited Somali-Americans 
and other U.S. Muslims to fight in the war in Somalia.\21\ Six months 
earlier bin Laden had given his imprimatur to the Somali jihad in an 
audiotape released titled ``Fight On, Champions of Somalia.''\22\ After 
it announced its fealty to bin Laden, Shabab was able to recruit larger 
numbers of foreign fighters, by one estimate up to 1,200 were working 
with the group by 2010. Today, Shabab controls much of southern 
Somalia.\23\ Worrisomely, Shabab has shown an ability to send its 
operatives outside of Somalia, killing dozens in suicide attacks in 
Uganda last year \24\ and dispatching an assassin to Denmark to kill 
Kurt Westergaard, the Danish cartoonist who had drawn the cartoons of 
the Prophet Mohamed that were deemed to be offensive. The cartoonist 
only survived the assault because he had taken the precaution of 
installing a safe room in his house.\25\
---------------------------------------------------------------------------
    \21\ Agence France Presse, ``Somalia's al-Shabab proclaims 
allegiance to al-Qaeda chief,'' September 23, 2009.
    \22\ Osama bin Laden, ``Fight on, champions of Somalia,'' March 19, 
2009, http://www.nefafoundation.org/miscellaneous/nefaubl0309-2.pdf.
    \23\ BBC News, ``Somalia: government captures al-Shabab militia 
bases,'' March 5, 2011, http://www.bbc.co.uk/news/world-africa-
12657466.
    \24\ Sudarsan Raghavan, ``Islamic militant group al-Shabab claims 
Uganda bombing,'' Washington Post, July 12, 2010, http://
www.washingtonpost.com/wp-dyn/content/article/2010/07/12/
AR2010071200476.html.
    \25\ BBC News, ``Danish police shoot intruder at cartoonist's 
home,'' January 2, 2010, http://news.bbc.co.uk/2/hi/8437433.stm.
---------------------------------------------------------------------------
    Shabab has managed to plant al-Qaeda-like ideas into the heads of 
even its American recruits. Shirwa Ahmed, an ethnic Somali, graduated 
from high school in Minneapolis in 2003, and then worked pushing 
passengers in wheelchairs at Minneapolis Airport. In late 2007 Ahmed 
traveled to Somalia and a year later, on October 29, 2008, Ahmed drove 
a truck loaded with explosives towards a government compound in 
Puntland, northern Somalia, blowing himself up and killing about 20 
people. The FBI matched Ahmed's finger, recovered at the scene of the 
bombing, to fingerprints already on file for him. Ahmed was the first 
American suicide attacker anywhere.\26\
---------------------------------------------------------------------------
    \26\ Spencer Hsu and Carrie Johnson, ``Somali Americans recruited 
by extremists,'' Washington Post, March 11, 2009, http://
www.washingtonpost.com/wp-dyn/content/article/2009/03/10/
AR2009031003901.html; ``Joining the fight in Somalia,'' New York Times, 
interactive timeline, July 12, 2009, http://www.nytimes.com/
interactive/2009/07/12/us/20090712-somalia-timeline.html.
---------------------------------------------------------------------------
    Given the high death rate for the Americans fighting in Somalia, as 
well as the considerable attention this group has received from the 
FBI, it is unlikely that the couple of dozen American veterans of the 
Somali war pose much of a threat to the United States itself. It is 
however, plausible now that Shabab had declared itself to be an al-
Qaeda affiliate, that U.S. citizens in the group might be recruited to 
engage in anti-American operations overseas.
    Shabab has operated independently of al-Qaeda ``core'' and so will 
not be much affected by bin Laden's death.
Al-Qaeda in Iraq (AQI)
    In 2008 there was a sense that al-Qaeda in Iraq (AQI) was on the 
verge of defeat. The American ambassador to Iraq, Ryan Crocker said, 
``You are not going to hear me say that al-Qaeda is defeated, but 
they've never been closer to defeat than they are now.''\27\ Certainly 
AQI has lost its ability to control large swaths of the country and a 
good chunk of the Sunni population as it did in 2006, but the group has 
proven surprisingly resilient as demonstrated by the fact that it 
pulled off large-scale bombings in central Baghdad in 2010 and 2011. 
AQI has also shown some ability to carry out operations outside Iraq as 
well: It attacked three American hotels in Amman, Jordan in 2005 \28\ 
and it had some sort of role in the attacks on Glasgow Airport 2 years 
later.\29\ As U.S. forces pull down in Iraq, AQI may be tempted to 
mount other out-of-country attacks against American or Western targets.
---------------------------------------------------------------------------
    \27\ Lee Keath, ``Al Qaeda is close to defeat in Iraq, U.S. 
ambassador says,'' Associated Press, May 25, 2008, http://
www.boston.com/news/world/articles/2008/05/25/
al_qaeda_is_close_to_defeat_in_iraq_us_ambassador_says/?comments=all.
    \28\ BBC News, ``Al-Qaeda claims Jordan attacks,'' November 10, 
2005, http://news.bbc.co.uk/2/hi/4423714.stm.
    \29\ Raymond Bonner, Jane Perlez, and Eric Schmitt, ``British 
inquiry of jailed plot points to Iraq's Qaeda group,'' New York Times, 
December 14, 2007, http://www.nytimes.com/2007/12/14/world/europe/
14london.html.
---------------------------------------------------------------------------
    The death of bin Laden is unlikely to affect AQI much.
Al-Qaeda in the Islamic Maghreb (AQIM)
    In September 2006 the Algerian Salafist Group for Preaching and 
Combat's leader Abu Musab Abdul Wadud, explained that al-Qaeda ``is the 
only organization qualified to gather together the mujahideen.'' 
Subsequently taking the name ``al-Qaeda in the Islamic Maghreb'' 
(AQIM), the group, which had traditionally focused only on Algerian 
targets, conducted a range of operations: Bombing the United Nations 
building in Algiers; attacking the Israeli embassy in Mauritania; and 
murdering French and British hostages. AQIM has hitherto not been able 
to carry out attacks in the West and is one of the weakest of al-
Qaeda's affiliates, only having the capacity for infrequent attacks in 
North Africa.\30\
---------------------------------------------------------------------------
    \31\ Quoted in Peter Bergen, ``Where you bin?'' The New Republic, 
January 29, 2006.
---------------------------------------------------------------------------
 4. what threats emanate from domestic militants motivated by jihadist 
                            terrorist ideas?
    The New America Foundation and Syracuse University's Maxwell School 
of Public Policy examined the 180 post-9/11 cases of Americans or U.S. 
residents convicted or charged of some form of jihadist terrorist 
activity directed against the United States, as well as the cases of 
those American citizens who have traveled overseas to join a jihadist 
terrorist group.\32\ None of the cases we investigated involved 
individuals plotting with chemical, biological, radiological, or 
nuclear weapons. Given all the post-9/11 concerns about terrorists 
armed with weapons of mass destruction this is one of our more positive 
findings.
---------------------------------------------------------------------------
    \32\ Peter Bergen, Andrew Lebovich, Matthew Reed, Laura Hohnsbeen, 
Nicole Salter, and Sophie Schmidt at the New America Foundation, and 
Professor William Banks, Alyssa Procopio, Jason Cherish, Joseph 
Robertson, Matthew Michaelis, Richard Lim, Laura Adams, and Drew 
Dickinson from the Maxwell School at Syracuse University all worked on 
creating this database, which is available at http://
homegrown.newamerica.net.
---------------------------------------------------------------------------
    The number of jihadist terrorism cases involving U.S. citizens or 
residents has spiked in the past 2 years.\33\ In 2009 and 2010 there 
were 76, almost half of the total since 9/11. This increase was driven, 
in part, by plots that could have killed dozens, such as the Pakistani-
American Faisal Shahzad's attempt to bomb Times Square in May 2010, but 
also by the 31 people who were charged with fundraising, recruiting, or 
traveling abroad to fight for the Somali terrorist group, Al-Shabab.
---------------------------------------------------------------------------
    \33\ Note: From our count we excluded post-9/11 cases in the United 
States involving either Hezbollah or Hamas as neither group has 
targeted Americans since 9/11. We did include groups allied to al-Qaeda 
such as the Somali group Al-Shabab, or that are influenced by al-
Qaeda's ideology such as the Pakistani group Lashkar-e-Taiba, which 
sought out and killed Americans in the Mumbai attacks of 2008. We also 
included individuals motivated by al-Qaeda's ideology of violence 
directed at the United States.
---------------------------------------------------------------------------
    In 2002 there were 16 jihadist terrorism cases, in 2003 there were 
23, in 2004 there were 8, in 2005 there were 12, in 2006 there were 18, 
in 2007 there were 16, in 2008 there were 5, in 2009 there were a 
record 43, in 2010 there were 33, and in 2011 the number of such cases 
has subsided rather dramatically: There were 6.
    The total number of deaths from jihadist-terrorist attacks in the 
United States after 9/11 totals 17. Maj. Nidal Malik Hasan is accused 
of opening fire at a readiness center at Fort Hood, Texas in 2009, 
killing 13; Hesham Mohamed Hadayat killed two people at the El Al 
counter at Los Angeles International Airport in 2002 before being shot 
dead by an El Al security guard; Naveed Haq was found guilty of killing 
one person at a Jewish center in Seattle in 2006; and Carlos Bledsoe 
(aka Abdulhakim Mujahid Muhammed) is accused of killing one soldier and 
wounding another at a U.S. Army recruiting center in Arkansas in 2009.
    The U.S. military, fighting wars of various kinds in five Muslim 
countries, is firmly in the crosshairs of homegrown jihadist militants. 
Around one in three of the cases examined by the Maxwell School and New 
America involved a U.S. military target, ranging from Quantico Marine 
Base in Virginia to American soldiers serving overseas. We found 57 
individuals who were targeting U.S. military facilities or personnel 
both at home and abroad; 35% of the cases. Bryant Neal Vinas, for 
instance, a Long Island native admitted in 2009 to taking part in a 
rocket attack on a U.S. base in Afghanistan, while in North Carolina 
Daniel Boyd, a charismatic convert to Islam who had fought in the jihad 
in Afghanistan against the Soviets, had some kind of plan to attack 
American soldiers. Boyd obtained maps of Quantico Marine Base in 
Virginia, which he cased for a possible attack on June 12, 2009.\34\
---------------------------------------------------------------------------
    \34\ USA v Daniel Patrick Boyd et al. Indictment in U.S. District 
Court for the Eastern District of North Carolina, filed 7/22/09 http://
www.investigativeproject.org/documents/case_docs/1029.pdf; and the 
superseding indictment in the same case dated September 24, 2009. 
http://www.investigativeproject.org/documents/case_docs/1075.pdf.
---------------------------------------------------------------------------
    Rather than being the uneducated, young Arab-American immigrants of 
popular imagination, the homegrown militants do not fit any particular 
socio-economic or ethnic profile. Their average age is 30. Of the cases 
for which ethnicity could be determined, only a quarter are of Arab 
descent, while 10% are African-American, 13% are Caucasian, 18% are 
South Asian, 20% are of Somali descent, and the rest are either mixed 
race or of other ethnicities. About half the cases involved a U.S-born 
American citizen, while another third were naturalized citizens. And of 
the 94 cases where education could be ascertained, two-thirds pursued 
at least some college courses, and 1 in 10 had completed a Masters, 
PhD, or doctoral equivalent.

    Chairman King. Our next witness is Evan Kohlmann. He has 
served as an expert witness on al-Qaeda for the Department of 
Defense in the military commission proceedings. He is an 
international terrorism consultant. He has authored ``Al 
Qaeda's Jihad in Europe''. He is the founder and senior partner 
at Flashpoint Global Partners, a New York-based security 
consulting firm, and appears on television as a terrorism 
analyst.
    Mr. Kohlmann, I welcome you to the committee for the first 
time and look forward to your testimony.

   STATEMENT OF EVAN F. KOHLMANN, FLASHPOINT GLOBAL PARTNERS

    Mr. Kohlmann. Thank you very much, Mr. Chairman. Thank you 
also, Ranking Member Thompson and the rest of the committee, 
for having me here today.
    I would like to start off with kind of beginning at the 
very beginning. Over the last decade, one of the central 
pillars of U.S. counterterrorism policy has been to 
aggressively target al-Qaeda leadership--as you can see right 
there--in their long-time sanctuary regions in Afghanistan and 
Pakistan. As President Obama explained on television in 2009, 
this is the heart of it. This is where bin Laden is. It is from 
here you see attacks launched not just against the United 
States, but against London, against Bali, against a whole host 
of countries.
    On May 1, that mission culminated in the now successful 
killing of bin Laden at a hideout in Abbottabad. Were we still 
stuck in October 2001, this might be the end of the narrative; 
however, much has changed in the world since those early days 
of the battle against al-Qaeda. The gaps in al-Qaeda's central 
leadership created by the deaths of former al-Qaeda military 
chief Abu Hafs al-Masri and other luminaries have been filled 
by new, younger figures.
    With the blessings of bin Laden and Ayman al-Zawahiri, 
regional al-Qaeda leaderships have emerged in critical 
locations such as Iraq, Saudi Arabia, Yemen, and North Africa. 
Meanwhile, a new generation of home-grown lone wolf-style 
jihadists has emerged, including many U.S. and European 
nationals who may lack the military skills to plan the next 9/
11, but whose passion for violence and bloodshed can 
nonetheless have deadly consequences.
    To understand what the future of al-Qaeda will now be, one 
must first assess the immediate reactions to the death of their 
revered former leader among its most diehard supporters, and 
what becomes obvious from the internal discussions taking place 
right now is that the sudden word of bin Laden's death came as 
a nasty shock to his followers. One of the most disturbing 
parts of all this was the wealth of intelligence that was 
recovered from bin Laden's compound in Abbottabad. One of the 
most credible and respected users on al-Qaeda's top-tier 
``Shamukh'' discussion forum, Yaman Mukhadab, posted a warning 
advising that these are ``the most dangerous 72 hours in the 
struggle of al-Qaeda with the Zionists and Crusaders in the 
history of the jihadi struggle.'' He cautioned, ``It is 
possible that America has infiltrated Mujahideen communications 
and will seek to unveil the masterminds behind big terrorist 
operations.''
    As far as I see it, any group of Mujahideen that are 
assigned to an operation should go forward and execute it 
without hesitation or delay and to avoid completely attempting 
to communicate with anyone.
    Unfortunately, the sense of melancholy and panic that was 
brewing in the hearts of al-Qaeda supporters and followers was 
soon swamped by a tidal wave of rage, especially after images 
of crowds of jubilant Americans were televised around the world 
as they celebrated at Ground Zero and outside of the White 
House.
    One user on another al-Qaeda web forum, Ta'er Muhajir, 
posted an open message addressed to ``You who danced in front 
of the White House, we, too, will start to dance the next time 
we hear about a massacre that befalls you, just as we danced 
when your corpses were spread across the Pentagon and the World 
Trade Center.''
    In another message titled, ``Advice and Guidance for the 
Lions Launching Attacks in the Land of America.'' Another user, 
Azmarai, explained, ``We aren't merely seeking to kill a 
soldier or an American civilian here or there, as this doesn't 
change anything. Our goal is bigger than that. Like our Sheikh 
Osama ordered us in his messages, it is critical to continue 
jihadi operations both against the United States military and 
economy. Their economic destruction is on-going, but it 
requires more attacks and for the young men to strike at the 
strategic points of the American economy.''
    I now turn to the issue of al-Qaeda's remaining central 
leadership figures. You will see a chart up there of those who 
are still left post the death of bin Laden. Of course, with bin 
Laden now gone, the question naturally turns to who will be 
selected to replace his now vacant position as the overall 
commander of al-Qaeda. Though the identity of that leader--that 
new leader--remains still uncertain, the far most likely 
candidate, as indicated on the chart here, is al-Qaeda's 
present deputy commander, Dr. Ayman al-Zawahiri. Al-Zawahiri, 
who merged his Egyptian Islamic Jihad faction with al-Qaeda in 
1998, has long stood alongside bin Laden as his closest 
adviser. Al-Zawahiri has both played a key role in 
operationally organizing and overseeing international terrorist 
attacks and has also simultaneously spearheaded al-Qaeda media 
efforts.
    As far as supporters chatting on top-tier al-Qaeda web 
forums, there simply has been no serious discussion of any 
potential bin Laden successors other than Dr. Ayman al-
Zawahiri. Al-Qaeda's on-line constituents are so taken with the 
idea that al-Zawahiri will be the next leader of al-Qaeda that 
they have taken to casually referring to the group as Jund 
Ayman, or the Soldiers of Ayman. Forum user Muheb Ruyat al-
Rahman insisted, our Sheikh Mohammad, may Allah have mercy on 
him, is our Sheikh Ayman. Our Sheikh Ayman is our Sheikh Osama.
    There is also the question of al-Qaeda's regional 
affiliates faced with the resounding defeat on the peaks of 
Tora Bora in late 2001. A group of high-ranking al-Qaeda 
commanders decided to embrace the development of a more diffuse 
and self-sufficient network of international operatives. Al-
Qaeda's beneficial website acknowledged that it was time for a 
new phase in evolution. ``The al-Qaeda organization has adopted 
a strategy in its war with the Americans based on expanding the 
battlefield and exhausting the enemy. The more diversified and 
distant the areas in which the operations take place, the more 
exhausting it becomes for the enemy, the more he needs to 
stretch his resources, and the more he becomes terrified.''
    By mid-2004, nascent al-Qaeda franchise organizations were 
already well ensconced in both Saudi Arabia and Iraq. Today 
similar al-Qaeda franchises have expanded their reach even 
farther, into Indonesia, Yemen, Algeria, Somalia, Lebanon, and 
the Palestinian territories. These upstart regional branches 
are capable of operating basically independently of al-Qaeda's 
central leadership in Afghanistan. The growing affiliate 
factions often have more expansive ambitions or just as 
grandiose as those of bin Laden himself.
    While al-Qaeda's regional efforts in Iraq and Saudi Arabia 
may have suffered debilitating setbacks in recent years, that 
is not the case in Yemen, where a growing al-Qaeda branch, 
known as al-Qaeda in the Arabian Peninsula, has demonstrated 
its ability to launch repeated and sophisticated attacks 
targeting U.S. soil.
    Perhaps the most disturbing aspects of launching attacks 
against the United States is their obsession with conceiving 
plots aimed at causing catastrophic damage to the American 
economy. In early 2008, AQAP published an approving interview 
with a most wanted al-Qaeda suspect, who endorsed the idea of 
striking at oil resources, petroleum resources. He explained if 
the enemy's interests in the Arabian Peninsula were stricken, 
and a supply of oil was cut off, and the oil refineries were 
out of order, this would cause the enemy to collapse, and he 
won't merely withdraw from Iraq and Afghanistan, but he would 
face total collapse. If he were struck hard from various 
places, then he would scatter and turn around and flee 
forlornly from the land of the Muslims.
    Given the high-profile role that AQAP has played in 
masterminding not only the underwear bomber, Omar 
Abdulmutallab, but also most recently a cargo bomb plot aimed 
at the United States, AQAP's passionate interest in launching 
strategic attacks aimed at devastating the U.S. economy can be 
ignored only at our own peril. It is also a telling reminder of 
how, thanks to the new affiliate network of global franchises, 
the underlying al-Qaeda terrorist threat to the U.S. homeland 
is in some ways unchanged by the death of Osama bin Laden.
    Thank you very much.
    [The statement of Mr. Kohlmann follows:]
       Prepared Statement of Evan F. Kohlmann with Laith Alkhouri
                              May 25, 2011
                            (i) introduction
    Over the last decade, one of the central pillars of U.S. 
counterterrorism policy has been to aggressively target al-Qaeda's 
senior leadership in their long-time sanctuary in regions in 
Afghanistan and Pakistan. The prevailing wisdom behind this strategy is 
quite simple: By mounting direct pressure on Osama bin Laden, Ayman al-
Zawahiri, and others within the highest echelons, al-Qaeda will 
presumably lack the time, resources, and opportunity to conceive 
complex international terrorist plots threatening U.S. homeland 
security. As President Obama explained in 2009 during a televised 
interview, ``This is the heart of it. This is where bin Laden is. This 
is where [his] allies are. It's from here that you see attacks launched 
not just against the United States, but against London, against Bali, 
against a whole host of countries.'' Indeed, the American government 
has invested billions of dollars and tens of thousands of U.S. soldiers 
in order to carry out this mission and deny al-Qaeda the use of a 
central base in South Asia. On May 1, the mission culminated in the 
successful killing of Osama bin Laden at a hideout in Abbottabad, 
Pakistan by a team of U.S. Navy SEALs. Evidence recovered by the SEALs 
reportedly shows that bin Laden continued to play a direct operational 
role in conceiving and micro-managing terrorist plots against the 
United States.
    Were we still stuck in October 2001, this might be the end of the 
narrative for bin Laden's jihadi movement. However, much has indeed 
changed in the world since those early days of the battle against al-
Qaeda. The gaps in al-Qaeda's central leadership created by the deaths 
of former luminaries like Abu Hafs al-Masri and Abu Laith al-Liby have 
been filled by new younger figures like Abu Yahya al-Liby. With the 
blessings of bin Laden and Ayman al-Zawahiri, regional al-Qaeda 
leaderships have emerged in critical locations such as Iraq, Saudi 
Arabia, Yemen, and North Africa. Meanwhile, a new generation of 
homegrown ``lone wolf''-style jihadists has emerged (including many 
U.S. and European nationals) who may lack the military skills to plan 
the next 9/11, but whose passion for violence and bloodshed can 
nonetheless have deadly consequences.
                (ii) reaction to the death of bin laden
    To understand what the future of al-Qaeda will now be, one must 
first assess the immediate reactions to the death of their revered 
former leader among its most diehard supporters. Late on the evening of 
May 1, al-Qaeda's on-line social networking forums were shaken awake in 
a spasm of activity as jihadi militants from around the globe rushed to 
log in and discover for themselves if reports of the killing of bin 
Laden were really true. With al-Qaeda's remaining leaders still hiding 
quietly out of sight for the time being, these on-line forums provide 
one of the most compelling available windows into the thinking of Bin 
Laden's cadre as they mourn his passing.
    At first, the response was largely one of chaotic disbelief. 
Stunned forum participants insisted that the announcement had to be 
part of a new scheme devised by the CIA to trick and demoralize bin 
Laden's diehard supporters. With their patience quickly exhausted by 
the deluge of anxious incoming inquiries, ill-tempered forum 
administrators began threatening to permanently ban anyone who even 
dared to express sorrow based on ``unverified crusader rumors'' of bin 
Laden's demise. Finally, on May 6, al-Qaeda's central leadership issued 
a formal communique acknowledging bin Laden's ``martyrdom.'' The 
message defiantly insisted, ``Shaykh Usama didn't build an organization 
to die with it and go away with it . . . The university of faith, 
Quran, and jihad that was founded by Sheikh Usama bin Laden has not and 
will not close its doors . . . those of us from the al-Qaedat ul-Jihad 
network vow to Allah to continue on the path of jihad taken by our 
leaders, headed by Sheikh Usama, without hesitation or question, and we 
will not deviate or lean from that.''\1\
---------------------------------------------------------------------------
    \1\ http://shamikh1.net/vb/showthread.php?t=108210. May 6, 2011.
---------------------------------------------------------------------------
    What first becomes obvious from the discussions taking place on al-
Qaeda's on-line chat forums is that--no matter what the organization's 
leadership may claim in retrospect--the sudden word of bin Laden's 
death came as a nasty shock to his followers, and was undoubtedly a 
staggering blow. In the hours immediately following news of bin Laden's 
violent demise, al-Qaeda forum users and administrators were also 
preoccupied with another gnawing concern: The state of their own 
personal security. By the morning after the raid, media sources were 
reporting that U.S. Navy SEALs had seized an intelligence jackpot of 
hard drives, flash data disks, and other records of electronic 
communications from the bin Laden compound in Abbottabad. One of the 
most credible and respected users on al-Qaeda's top-tier ``Shamukh'' 
web forum, ``Yaman Mukhadab'', posted a warning to fellow jihadists 
advising that these were ``the most dangerous 72 hours in the struggle 
of al-Qaeda with the Zionists and Crusaders . . . in the history of the 
jihad struggle.''\2\ He cautioned, ``it is possible that America has 
infiltrated mujahideen communications and will seek to unveil the 
masterminds behind big [terrorist] operations.'' He further urged, ``As 
far as I see it, any group of mujahideen that are assigned to an 
operation should go forward and execute it . . . without hesitation or 
delay, and to completely avoid trying to communicate with anyone . . . 
or to seek new orders . . . Stopping and delaying while awaiting 
something new will not achieve anything, and it won't change what has 
already taken place.''\3\
---------------------------------------------------------------------------
    \2\ http://shamikh1.net/vb/showthread.php?t=107305. May 3, 2011.
    \3\ http://shamikh1.net/vb/showthread.php?t=107305. May 3, 2011.
---------------------------------------------------------------------------
    The palpable sense of melancholy and panic brewing in the hearts of 
al-Qaeda's supporters on the web was soon swamped by a tidal wave of 
raw, unbridled rage, especially after televised images of crowds of 
jubilant Americans celebrating outside the White House and at Ground 
Zero were broadcast around the world. One user, ``Ta'er Muhajir'', 
posted an open message on al-Qaeda's web forums addressed to ``you who 
danced in front of the White House . . . We, too, will start to dance 
the next time we hear about a massacre that befalls you, just as we 
danced when your rotten corpses were spread across the Pentagon and the 
World Trade Center.''\4\ Another forum user, ``Mukhadab ad-Dima'' (a 
nickname which translates to ``Drenched in Blood''), pointed to the 
``big crowds in front of the White House'' and demanded, ``who will be 
the hero who will turn their night into day and their morning into 
hell, and who will renew the September glories--who will follow next in 
the list of our heroes: Arid Uka, Faisal Shahzad, Umar Farouk 
Abdulmutallab, Nidal Hassan . . . ?''\5\ Echoing this sentiment, jihadi 
forum user ``Jaish al-Islam'' scoffed, ``they are celebrating the 
martyrdom of Shaykh Usama, but what they don't realize is that we are 
all Usama.''\6\
---------------------------------------------------------------------------
    \4\ http://shamikh1.net/vb/showthread.php?t=107232. May 2, 2011.
    \5\ http://shamikh1.net/vb/showthread.php?t=107132. May 2, 2011.
    \6\ http://shamikh1.net/vb/showthread.php?t=107100&page=4. May 2, 
2011
---------------------------------------------------------------------------
    Even as he acknowledged his ``sadness over the loss of our Shaykh 
Usama Bin Laden'', jihadi forum user ``Abu al-Qassam al-Maqdisi'' vowed 
to ``continue on this path.'' Openly addressing U.S. President Barack 
Obama, he mocked, ``if you think that by killing Shaykh Abu Abdullah 
you have finished off al-Qaeda, then you are totally delusional . . . 
the martyrdom of Shaykh Usama didn't weaken us and didn't disappoint 
us--it just gave us more passion to stay steadfast on this path. And if 
you have killed Usama, then we are all Usama.''\7\ These repeated 
declarations of defiance inevitably turned to the question of how best 
to avenge the ``martyrdom'' of bin Laden. Another registered user, 
``Abu Musab al-Maqdisi'', complained, ``unfortunately, the only thing I 
see is men who are crying over nothing . . . It would have been better 
to see the knife of Zarqawi being sharpened to the point that I can 
behold its shine from here.''\8\ He urged fellow bin Laden supporters, 
``Beware, and get ready. And I don't know if there is time to say 
goodbye to your fathers, mothers, wives, children, brothers and 
neighbors, as time can't wait and the Shaykh can't wait, and now the 
battle has begun to eradicate the state of infidels, America, and 
anyone who stands alongside it from within the Muslim lands. It's only 
a matter of hours. Ohhh, hours are too many, just minutes, and even too 
much . . . secondssss . . . I'm now sharpening my sword so you should 
be sharpening yours.''\9\
---------------------------------------------------------------------------
    \7\ http://shamikh1.net/vb/showthread.php?t=107175. May 2, 2011.
    \8\ http://shamikh1.net/vb/showthread.php?t=107288. May 2, 2011.
    \9\ http://shamikh1.net/vb/showthread.php?t=107288. May 2, 2011.
---------------------------------------------------------------------------
    Jihadi forum users have also been tendering their own unsolicited 
suggestions and insights to al-Qaeda's remaining leadership. In a 
message titled ``Advice and Guidance for the Lions Launching Attacks in 
the Land of the Enemy, America'', user ``Azmarai'' addressed ``those 
who will be planning in the coming days, weeks, and months to carry out 
operations in the United States'': ``we aren't merely seeking to kill a 
soldier or an American civilian here or there, as this doesn't change 
anything . . . Our goal is bigger than that . . . Like our Shaykh Usama 
ordered us in his messages, it is critical to continue jihadi 
operations both against the U.S. military and economy . . . Their 
economic destruction is on-going, but it requires more attacks and for 
the young men to strike at the strategic points of the American 
economy.'' Towards the end of causing catastrophic damage to the U.S. 
economy, user ``Azmarai'' suggested a range of possible targets, 
including targeting hydroelectric dams, ``major electricity-producing 
plants'', nuclear power plants, oil refineries, ``Federal Reserve Banks 
and major financial centers'', and water-purification facilities. 
``Azmarai'' was equally insistent on the need for al-Qaeda and its 
supporters to specifically ``target the major companies that contribute 
technologically in supporting the U.S. army with information and 
technology, like the headquarters of DARPA . . . Killing America's 
scientists and those who participate in advancing military research is 
very important . . . Also target the headquarters of the big weapon 
manufacturing companies, and specifically targeting their main 
headquarters that include engineers and experts.''\10\
---------------------------------------------------------------------------
    \10\ http://shamikh1.net/vb/showthread.php?t=109881. May 13, 2011.
---------------------------------------------------------------------------
    Equally of note is a formal communique issued in response to bin 
Laden's death by the official team of on-line couriers responsible for 
distributing al-Qaeda's digital propaganda. The so-called ``Fajr Media 
Center'' included a direct ``Message to the American People'':

``We say to you: killing the Shaykh was a big mistake, and a great sin, 
and a deed that will bring catastrophes upon you that will sink your 
joy. Obama has sacrificed your blood to remain in his position of power 
. . . Obama is not different from his predecessor Bush in anything, as 
the wars Bush started Obama continued and he didn't do anything to stop 
them . . . Do not blame us after today; you elected him and you will 
pay the price! Armies may protect Obama, but who protects you from our 
reach?''\11\
---------------------------------------------------------------------------
    \11\ http://shamikh1.net/vb/showthread.php?t=109164. May 9, 2011.

    Fajr Media Center also offered their own message of advice ``for 
the Mujahideen'', urging al-Qaeda supporters to exact a heavy price in 
revenge for the ``martyrdom'' of bin Laden--``the kind of revenge that 
will make America forget her present euphoria and instead scream with 
pain.'' Echoing the popular sentiments among jihadi forum users, the 
group advocated ``every Muslim mujahid'' should ``focus on making 
suitable preparations for any operation against the infidels, and we 
encourage that the operations be unique, and terribly devastating to 
the enemy . . . If the chance comes up, do not waste it, and do not 
consult anyone in killing the Americans and destroying their economy. 
The land of Allah is wide and their interests are widespread . . . We 
encourage you to launch individual terrorist operations that reap major 
results but which require only basic preparations.''\12\
---------------------------------------------------------------------------
    \12\ http://shamikh1.net/vb/showthread.php?t=109164. May 9, 2011.
---------------------------------------------------------------------------
         (iii) al-qaeda's remaining central leadership figures
    It is perhaps inevitable that the killing of Osama bin Laden would 
serve as a rather dramatic blow to al-Qaeda popular morale. However, 
bin Laden's passing has been particularly difficult to accept for 
jihadi supporters in light of the litany of other losses the group has 
endured over the past 3 years. The list of top-tier casualties suffered 
by al-Qaeda includes, among others: Senior military field commander Abu 
Laith al-Liby, al-Qaeda Shura Council member Abu al-Hasan al-Masri, 
senior al-Qaeda explosives expert Abu Khabab al-Masri, senior al-Qaeda 
operational leader and spokesman Abu Mansour as-Shami, and al-Qaeda 
Shura Council member and presumed No. 3 in command of the group Mustafa 
Abu al-Yazid (a.k.a. Shaykh Saeed). Al-Yazid's death alone provoked the 
release of at least two different audio-recorded messages from al-
Qaeda, including a confession from Dr. Ayman al-Zawahiri that he was 
``deeply saddened at the loss.''\13\ The killing of bin Laden has only 
managed to create an even larger gaping hole in al-Qaeda's already 
unsteady central hierarchy. In the wake of initial news reports about 
bin Laden's passing, one jihadi chat forum user ``Abu Zubaydah'' posted 
a message offering his deepest respects ``to the family of the martyr . 
. . and also Shaykh Ayman Zawahiri, who in a single year lost Shaykh 
Saeed and now his other companion on the path . . . By Allah, it is a 
year of sorrow.''\14\
---------------------------------------------------------------------------
    \13\ http://www.al-faloja.info/vb/showthread.php?t=127650. July 30, 
2010.
    \14\ http://as-ansar.com/vb/showthread.php?t=37762. May 2, 2011.
---------------------------------------------------------------------------
    With bin Laden now gone, the question naturally turns to who will 
be selected to replace his now vacant position as the overall commander 
of al-Qaeda. Media speculation in recent days has ranged wildly--from 
fugitive Yemeni-American cleric Anwar al-Awlaki to a relatively obscure 
Pakistani jihadi militant named Mohammed Ilyas Kashmiri. Though the 
identity of al-Qaeda's new top leader still remains uncertain, the far 
most likely candidate is al-Qaeda's present Deputy Commander Dr. Ayman 
al-Zawahiri. Al-Zawahiri, who merged his own Egyptian Islamic Jihad 
faction with al-Qaeda in 1998, has long stood alongside Osama bin Laden 
as his closest advisor. The former Egyptian pediatrician has both 
played a key operational role in organizing and overseeing 
international terrorist attacks, and has also simultaneously 
spearheaded al-Qaeda media efforts--personally appearing in dozens of 
audio and video recordings released by al-Qaeda's official media wing 
(in fact, far more often than bin Laden himself). With bin Laden gone, 
Ayman al-Zawahiri is by far the most recognizable face from among al-
Qaeda's remaining central leadership. He is one of a dwindling number 
of commanders who can claim to be one of the original founders and 
Shura Council members of al-Qaeda. His essential credibility as an 
early pioneer of the jihadi movement in Egypt and Afghanistan would be 
quite difficult to match by any potential challenger vying for control 
of al-Qaeda.
    As far as supporters chatting on top-tier al-Qaeda web forums, 
there simply has been no serious discussion of any potential bin Laden 
successors other than Dr. Ayman al-Zawahiri. Al-Qaeda's on-line 
constituents are so taken with the idea that al-Zawahiri will be the 
next leader of al-Qaeda that they have taken to casually referring to 
the group as ``Jund Ayman'' (``The Soldiers of Ayman''). Forum users 
have also taken it upon themselves to vigorously contest snarky 
comments from al-Qaeda critics that ``Shaykh Usama made a mistake by 
merging al-Qaeda with Shaykh Ayman.''\15\ User ``Muheb Ruyat al-
Rahman'' dismissed these prevalent critiques as ``poison'' from those 
``pretending to be sympathizers'': ``Do you really think our Shaykh 
Usama couldn't distinguish the worthless from the valuable, or the 
beautiful from the ugly? Do you think . . . that he was somehow tricked 
by Shaykh Ayman? Do you really believe that [bin Laden] . . . who 
refused to surrender his faith in jihad would simply give up on what he 
judged to be truthful and correct merely in order to satisfy Shaykh 
Ayman?''\16\ Al-Rahman insisted, ``Our Shaykh Usama, may Allah have 
mercy on him, is our Shaykh Ayman, and our Shaykh Ayman is our Shaykh 
Usama.''\17\
---------------------------------------------------------------------------
    \15\ http://shamikh1.net/vb/showthread.php?t=110085. May 16, 2011.
    \16\ http://shamikh1.net/vb/showthread.php?t=110085. May 16, 2011.
    \17\ http://shamikh1.net/vb/showthread.php?t=110085. May 16, 2011.
---------------------------------------------------------------------------
    Nevertheless, this is not to say that the ascension of Dr. Ayman 
al-Zawahiri to the top of al-Qaeda's hierarchy is by any means 
guaranteed, nor is it necessarily a fortunate development for the 
organization. Since beginning his career as a jihadi activist in Egypt, 
al-Zawahiri has acquired a notorious reputation as arrogant, self-
serving, and unconscionably ruthless. As early as 1990, at al-Qaeda's 
own guesthouses in the Pakistani city of Peshawar, mujahideen fighters 
began to loudly grumble that too many Egyptians--primarily al-
Zawahiri's cronies--were being appointed to senior positions in al-
Qaeda. Accusations of preferential treatment and corruption began to 
fly back and forth. Former al-Qaeda lieutenant Jamal al-Fadl later 
recalled during testimony in U.S. Federal court when he finally 
confronted Osama bin Laden to complain that ``the camp was being run by 
Egyptian people and the guesthouse--the emir from the guesthouse--is 
Egyptian and everything [is] Egyptian people and [everyone is] from 
[the Egyptian] jihad group, and we have people from Nigeria, from 
Tunisia, from Siberia, [so] why is Egyptian people got more chance than 
other people run everything?''\18\ Some of the dissidents within al-
Qaeda felt too ``embarrassed'' to say this to bin Laden's face, while 
others--such as a Libyan fighter named Abu Tamim--were much more vocal 
with their concerns: ``He say, why everything run by Egyptian 
people?''\19\
---------------------------------------------------------------------------
    \18\ United States v. Usama bin Laden, et al. S(7) 98 Cr. 1023 
(LBS). United States District Court, Southern District of New York. 
Trial Transcript, February 6, 2001. Page 322.
    \19\ United States v. Usama bin Laden, et al. S(7) 98 Cr. 1023 
(LBS). United States District Court, Southern District of New York. 
Trial Transcript, February 6, 2001. Page 322.
---------------------------------------------------------------------------
    During an interview in 2007 with the London-based newspaper Al-
Hayat, Sayyid Imam al-Sharif (a.k.a. ``Dr. Fadl'')--once a ``leading 
figure'' in Dr. Ayman al-Zawahiri's Egyptian Islamic Jihad (EIJ) 
movement and a founding member of al-Qaeda's own governing Shura 
Council--personally accused al-Zawahiri of being a ``liar'', a 
``gangster'', and a ``bandit.'' According to al-Sharif, ``Ayman is a 
charlatan who used secrecy as a pretext . . .  I can't think of anyone 
in Islamic history who has committed such deceit, fraud, falsification, 
and betrayal of trust . . . no one before Ayman al-Zawahiri.''\20\ When 
I raised the subject of al-Zawahiri's status of authority within al-
Qaeda in a discussion with former Arab-Afghan mujahid Abdullah Anas, he 
sighed for a moment and chuckled to himself. ``Can you imagine a great 
religion represented by al-Zawahiri?'' he asked me. ``It's a 
catastrophe.''
---------------------------------------------------------------------------
    \20\ ``Interview with Sayyid Imam al-Sharif.'' Al-Hayat. December 
8-10, 2007.
---------------------------------------------------------------------------
    In light of al-Zawahiri's obvious shortcomings, and the likelihood 
that he will one day meet an end analogous to that of bin Laden, it 
behooves us to examine the other potential leadership candidates among 
the top tier of al-Qaeda's inner sanctum. Those candidates include:
Abu Yahya al-Liby (a.k.a. Hassan Qaid)
    Though he has undoubtedly far slimmer credentials than Dr. Ayman 
al-Zawahiri, Shaykh Abu Yahya al-Liby has nonetheless also become a 
strikingly influential figure in the international jihadist movement 
ever since his stunning escape in July 2005 from a high-security U.S. 
prison at Bagram air base (near Kabul). At the time of his initial 
capture in Karachi, Pakistan in the wake of the events of 9/11, Abu 
Yahya was at most a mid-ranking lieutenant within a faction of the 
Libyan Islamic Fighting Group (LIFG) directly allied with al-Qaeda. At 
the time, he was best known as an expert in computer media and Islamic 
jurisprudence. According to fellow former LIFG commander Noman 
Benotman, Abu Yahya ``was a member of the Shariah committee of the 
LIFG, and he was known within the framework of the LIFG, and joined it 
relatively early on . . . almost in 1991 . . . He was there at the end 
of the Afghan Jihad, meaning with the LIFG . . . But he wasn't from 
amongst the top leadership.''\21\
---------------------------------------------------------------------------
    \21\ ``Industry of Death: Abu Yahya al-Liby.'' Al-Arabiya. July 4, 
2009.
---------------------------------------------------------------------------
    However, the combination of Abu Yahya's public speaking abilities, 
his natural charisma, and the compelling personal credential of having 
brazenly slipped out of America's highest-security prison in 
Afghanistan proved to be a powerful cocktail. Less than 6 months after 
fleeing Bagram, Abu Yahya began to appear in video recordings produced 
by al-Qaeda's official ``As-Sahab Media Foundation''--so often, in 
fact, that his face has become virtually synonymous with As-Sahab. Over 
the last 5 years, Abu Yahya has been the principle featured spokesman 
for al-Qaeda in dozens of audio and video recordings released by As-
Sahab--appearing more often than either Osama bin Laden or Ayman al-
Zawahiri. Abu Yahya's recorded sermons are highly influential, and are 
recycled and often re-published by other likeminded terrorist 
organizations like Shabaab al-Mujahideen in Somalia. Though Abu Yahya 
has never been granted an official title in al-Qaeda's leadership to 
match that of bin Laden, al-Zawahiri, or Mustafa Abu al-Yazid, he is 
widely considered to be within the very top echelons of the 
organization--possibly even the new ``No. 3'' in the wake of al-Yazid's 
demise last year. Yet, as far as his former comrade Noman Benotman is 
concerned, Abu Yahya ``was never, and I doubt will ever be, a military 
commander.''\22\
---------------------------------------------------------------------------
    \22\ ``Industry of Death: Abu Yahya al-Liby.'' Al-Arabiya. July 4, 
2009.
---------------------------------------------------------------------------
Shaykh Atiyallah al-Liby (a.k.a. Atiyah Abd al-Rahman)
    Shaykh Atiyallah al-Liby is another Libyan national within the top 
ranks of al-Qaeda who hails from the now-besieged coastal town of 
Misrata. According to the U.S. State Department, Atiyallah first joined 
bin Laden in Afghanistan ``as a teenager in the 1980s. Since then, he 
has gained considerable stature in al-Qa'ida as an explosives expert 
and Islamic scholar.''\23\ While in Afghanistan during the late 1990s, 
the Libyan also forged a relationship with a young Abu Musab al-Zarqawi 
in the western Afghan city of Herat.\24\ He also joined bin Laden and 
his coterie of top aides as they fled under fire to the mountainous 
redoubt of Tora Bora late in the fall of 2001.\25\
---------------------------------------------------------------------------
    \23\ http://www.rewardsforjustice.net/english/
index.cfm?page=atiyah_abd.
    \24\ http://www.rewardsforjustice.net/english/
index.cfm?page=atiyah_abd.
    \25\ http://www.rewardsforjustice.net/english/
index.cfm?page=atiyah_abd.
---------------------------------------------------------------------------
    Following the battle of Tora Bora, Shaykh Atiyallah publicly 
emerged as a key ideologue and spokesman on behalf of al-Qaeda's senior 
leadership. As part of that role, according to the U.S. Government, 
Atiyallah ``recruits and facilitates talks with other Islamic groups to 
operate under al-Qaida'' and ``has been in regular contact with senior 
ranking al-Qaida leaders.''\26\ In fact, the Libyan al-Qaeda leader has 
been a major proponent of decentralizing al-Qaeda's network into an 
autonomous web of franchise affiliates. According to an essay written 
Atiyallah in 2004, the advantage of such a strategy is that 
``collective organized work is not affected by the loss of individuals, 
because individuals are easily replaced with others. The organization 
exists not on any individual; rather it operates as number of 
distributed responsibilities where the loss of individuals is 
redundant. This is one of the secrets of the effectiveness of al-Qaeda 
and their success in group operations.''\27\
---------------------------------------------------------------------------
    \26\ http://www.rewardsforjustice.net/english/
index.cfm?page=atiyah_abd.
    \27\ Atiyatullah, Louis. ``The Badr Al-Riyadh Tape: A Well 
Organized al-Qaeda's Media Strategy Revealed.'' The Global Islamic 
Media Front (GIMF). 2004. Page 2.
---------------------------------------------------------------------------
    Since the death of Mustafa Abu al-Yazid, Shaykh Atiyallah has been 
making an increasingly frequent number of cameos in al-Qaeda audio and 
video recordings released by the As-Sahab Media Foundation. In his last 
appearance in a video released on March 18, 2011, he urged Libyan 
rebels to adopt an Islamist methodology and ``avoid allying with the 
enemies of Allah.''\28\ He also sternly warned ``the enemies of Allah, 
whether America or others, to even think about acts of aggression or 
interference in the country [of Libya]. Otherwise, the Army of Allah 
and the chivalrous men of Islam will make them forget the tragedies 
they faced previously.''\29\
---------------------------------------------------------------------------
    \28\ http://shamikh1.net/vb/showthread.php?t=99893. March 18, 2011.
    \29\ http://shamikh1.net/vb/showthread.php?t=99893. March 18, 2011.
---------------------------------------------------------------------------
Abu Zaid al-Kuwaiti (a.k.a. Khaled al-Hussainan)
    Though Shaykh Khaled al-Hussainan is a relatively new arrival to 
the jihad in Afghanistan, he is far older than most of al-Qaeda's new 
up-and-coming generation of leaders. Likewise, while he has had no 
major military experiences to speak of, al-Hussainan has other 
credentials that offer him a leg up within al-Qaeda's hierarchy--
namely, that he was once a respected cleric at the Al-Albani mosque in 
Kuwait and a former state-sponsored lecturer at the Kuwaiti Ministry of 
Religious Endowments.\30\ Al-Hussainan also reportedly worked as a 
preacher at the Saad al-Abdullah Academy, which is responsible for 
training Kuwaiti military officers. By 1996, Khaled al-Hussainan 
encountered his first brush with the law when he faced criminal charges 
in Kuwait in connection with what became known the ``Desert Flogging'' 
Case. Though he was later found innocent, al-Hussainan had been accused 
of joining with a group of radical Islamists in forcibly abducting two 
women and assaulting them with a whip in a remote location as 
punishment for ``what they considered to be a shameful act.''\31\ In 
2007, without any warning, al-Hussainan suddenly disappeared from his 
pulpit in Kuwait and traveled to Afghanistan, reportedly by crossing 
through Iranian territory. Less than 2 years later, in August 2009, al-
Hussainan was first publicly identified by al-Qaeda's media wing as a 
prominent leader and spokesman for the group.\32\
---------------------------------------------------------------------------
    \30\ http://www.islamhouse.com/ip/288149. May 2011.
    \31\ ``Industry of Death: Who is Khalid al-Hussainan?'' Al-Arabiya. 
October 30, 2010.
    \32\ http://www.al-faloja.info/vb/showthread.php?t=77715. August 7, 
2009.
---------------------------------------------------------------------------
    That al-Hussainan is one of al-Qaeda's few remaining top-tier 
originally from the Arabian Peninsula (and a graduate of the Imam 
Muhammad bin Saud University in the Kingdom of Saudi Arabia) is hugely 
significant.\33\ First of all, al-Qaeda's traditional wealthy financial 
donors based in the Gulf region are generally predisposed towards 
channeling their generous assistance to mujahideen organizations with 
prominent Saudi or Kuwaiti leaders with whom they feel most 
comfortable. Second, in countries like Afghanistan and Pakistan, the 
fact that al-Hussainan can say that he is from the same sacred soil as 
the holy city of Mecca and the Prophet Mohammed plays uniquely well 
among local Islamists. In video messages released by al-Qaeda, al-
Hussainan has boasted of ``traveling in Afghanistan from village to 
village and from city to city and from province to province, and praise 
Allah, I speak in the mosques and encourage the Afghan people to 
perform Jihad and encourage them to stand by the Mujahideen and 
encourage them to expel the Crusaders who have corrupted the people and 
land.''\34\
---------------------------------------------------------------------------
    \33\ http://www.islamhouse.com/ip/288149.
    \34\ http://www.al-faloja.info/vb/showthread.php?t=82666. September 
7, 2009.
---------------------------------------------------------------------------
    Though his background is exclusively clerical, Khaled al-Hussainan 
has claimed to be participating in actual armed combat with Afghan and 
coalition military forces. In August 2009, he issued an open message to 
U.S. President Barack Obama, boasting, ``your soldiers besieged me. I 
was besieged by your soldiers for 10 hours. I was besieged by 30 tanks 
accompanied by helicopters and warplanes.''\35\ According to al-
Hussainan, ``We came to Afghanistan to be killed as martyrs in Allah's 
path. We came to Afghanistan for the hereafter. This is the fact which 
I want you to understand, Obama . . . We came to Afghanistan for Islam 
to dominate, not be dominated.''\36\
---------------------------------------------------------------------------
    \35\ http://www.al-faloja.info/vb/showthread.php?t=82666. September 
7, 2009.
    \36\ http://www.al-faloja.info/vb/showthread.php?t=82666. September 
7, 2009.
---------------------------------------------------------------------------
Saif al-Adel (a.k.a. Mohammed al-Makkawi)
    Saif al-Adel (sometimes also known as ``Mohammed al-Makkawi'') is a 
former Egyptian military officer who went on to become a top leader of 
the Egyptian Islamic Jihad, and a founding member of al-Qaeda's Shura 
Council. From early on, al-Adel served a critical role as al-Qaeda's 
security chief, and as a manager of its covert overseas operations. 
According to former al-Qaeda lieutenant Jamal al-Fadl, al-Adel earned a 
reputation as ``one of the members very good with explosives . . . He 
trained people for explosives.''\37\ By the late 1990s, al-Adel's 
nefarious activities were well-known to U.S. law enforcement and he was 
indicted along with Osama bin Laden in the Southern District of New 
York (SDNY) for his role in the August 1998 bombings of two U.S. 
embassies in East Africa.\38\ According to the mastermind of the 
September 11, 2001 terrorist attacks on the United States, Khalid 
Shaykh Mohammed, Saif al-Adel was also ``involved in the 9/11 attack'' 
and ``knew the identity of the pilots who had been chosen when the 
Hamburg cell was picked in early 2000.''\39\
---------------------------------------------------------------------------
    \37\ United States v. Osama bin Laden, et al. S(7) 98 Cr. 1023 
(LBS). United States District Court, Southern District of New York. 
Trial Transcript, February 6, 2001. Page 244.
    \38\ http://news.findlaw.com/cnn/docs/binladen/usbinladen-1a.pdf.
    \39\ ``Substitution for the Testimony of Khalid Sheikh Mohammed.'' 
United States v. Zacarias Moussaoui. Eastern District of Virginia 
(EDVA). Cr. No. 01-455-A. Defense Exhibit 941.
---------------------------------------------------------------------------
    Like other senior al-Qaeda leaders, in late 2001, al-Adel gathered 
his family and fled with bin Laden to their rallying point in the Tora 
Bora mountains. In a later treatise published by al-Qaeda, al-Adel 
recalled how the group had dwindled to ``at best'' 1,900 men, with at 
least 350 ``heroes'' lying dead on the battlefield. Facing potential 
annihilation, al-Qaeda divided their ranks: ``some of them returned to 
their countries, whereas the rest stayed to take revenge from Americans 
and their allies.''\40\ Despite the capture of his wife and children in 
Tora Bora, Saif al-Adel managed to escape and continue in his role 
overseeing operations targeting coalition forces in southern 
Afghanistan. After a battle with U.S. forces in Kandahar in 2002, al-
Adel insisted that ``the Americans are not up to ground battles . . . 
They will not consider another experience in Kandahar, especially that 
the military force based in Kandahar has, by the grace of Allah, a 
level of the expertise that will make the U.S. a running joke for 
centuries to come.''\41\
---------------------------------------------------------------------------
    \40\ http://www.bkufus.com/images/img/
indexe.php?subject=2&rec=14&tit=tit&pa=0. January 2003.
    \41\ http://www.bkufus.com/images/img/
indexe.php?subject=2&rec=15&tit=tit&pa=0. January 2003.
---------------------------------------------------------------------------
    Facing a renewed hunt by the U.S. military, Saif al-Adel allegedly 
fled once again--this time to neighboring Iran, where he was reportedly 
detailed and placed under house arrest. Al-Adel's exact status in Iran 
has always been somewhat murky. Though some reports paint him as under 
the strict custody of Iranian intelligence agents, other information 
suggests that al-Adel may have continued playing an operational role in 
al-Qaeda from the open sanctuary of Iran. In May 2003, U.S. National 
security officials accused al-Adel of ``giving the go-ahead'' for a 
dramatic wave of suicide bombing attacks in Riyadh, Saudi Arabia that 
killed at least 34 people. According to one ``senior administration'' 
source quoted by the Washington Post, ``there are some senior members 
of al Qaeda in Iran . . . who might have had a hand in this.''\42\
---------------------------------------------------------------------------
    \42\ Priest, Dana and Susan Schmidt. ``Al Qaeda Figure Tied To 
Riyadh Bombings; U.S. Officials Say Leader Is In Iran With Other 
Terrorists.'' Washington Post. May 18, 2003. Page A24.
---------------------------------------------------------------------------
    The controversial idea that a senior Sunni Muslim extremist like 
Saif al-Adel would choose to hide out in a fundamentalist Shiite state 
like Iran has not escaped the attention of al-Qaeda's sectarian 
followers. In 2008, when Dr. Ayman al-Zawahiri agreed to participate in 
an open Q&A session with al-Qaeda's supporters on the web, he was 
peppered with inquiries about Saif al-Adel. One questioner explained, 
``I want to be rid of this doubt: why is Shaykh Saif al-Adel present in 
Iran, which murders our sons, keeps our women prisoner, and has 
perverted our religion and Quran--and yet he suffers no harm from them? 
. . . His presence causes many question and exclamation marks. I ask 
you by Allah to clarify to us, O' our noble Shaykh.''\43\ Though al-
Zawahiri acknowledged receiving these numerous questions about al-Adel, 
he refused to give any further explanation. ``As for his question about 
the location of Saif al-Adel,'' al-Zawahiri replied dryly, ``it is 
something I am unable to tell him.''\44\
---------------------------------------------------------------------------
    \43\ http://myhesbah.com/v/showthread?t=174676. April 2, 2008.
    \44\ http://myhesbah.com/v/showthread?t=174676. April 2, 2008.
---------------------------------------------------------------------------
    Despite recent reports indicating that al-Adel has finally left 
Iran and has returned to the Pakistani-Afghan border region, there are 
compelling reasons to believe that he will not be appointed as bin 
Laden's replacement in charge of al-Qaeda. Al-Adel has never served a 
public role in al-Qaeda, and has deliberately avoided taking any sort 
of political role within the organization or even being shown on 
camera. In fact, al-Adel has based his entire career in al-Qaeda in 
serving critical but low-key roles within the upper echelon of bin 
Laden's operational arm. Assuming that al-Adel has indeed rejoined al-
Qaeda's central leadership in AFPAK, the question remains if someone 
with as many lingering question marks as Saif al-Adel could possibly 
jump the hierarchy of al-Qaeda and supersede others figures like Ayman 
al-Zawahiri or Abu Yahya al-Liby who already have much more established 
profiles among al-Qaeda's contemporary base.
Azzam al-Amriki (a.k.a. Adam Gadahn)
    Adam Yehiye Gadahn is a convert to Islam originally from northern 
California. Raised on an isolated goat farm, Gadahn eventually moved 
south to Los Angeles to live with his grandmother. While in Los 
Angeles, Gadahn came into contact with a cell of computer-savvy al-
Qaeda militants planning to aid Osama bin Laden in Afghanistan. In 
1998, Gadahn moved to Pakistan and married an Afghani refugee. Shortly 
thereafter, Gadahn was allegedly recruited by 9/11 mastermind Khalid 
Shaykh Mohammed to assist in al-Qaeda's on-going media efforts.\45\ In 
2001, Gadahn made his first public appearance on behalf of al-Qaeda, 
when he lent his voice to help narrate an English-subtitled version of 
al-Qaeda's first official propaganda video, ``The Destruction of the 
U.S.S. Cole.''\46\
---------------------------------------------------------------------------
    \45\ http://www.defenselink.mil/news/transcript_ISN10024.pdf. Page 
17.
    \46\ As-Sahab Media Foundation. ``The State of the Ummah'' (a.k.a. 
``The Destruction of the U.S.S. Cole''). Released: 2001.
---------------------------------------------------------------------------
    Since 2004, Adam Gadahn has appeared in dozens of video-recorded 
messages released by al-Qaeda. In 2005, in a video marking the fourth 
anniversary of 9/11, Gadahn explained in English the role of As-Sahab's 
multimedia in recruiting new al-Qaeda members:

``Allah is our witness that the numerous audio and videotapes issued by 
Shaykh Usama Bin Laden, Dr. Ayman al-Zawahiri, and other leaders of the 
jihad have not been released merely to dispel rumors of their death--
or, as the Americans once ridiculously claimed, to send coded messages 
to their followers. No, these communiques have been released to explain 
and propound the nature and goals of the worldwide jihad against 
America and the crusaders, and to convey our legitimate demands to 
friend and foe alike, so that the former may join us on this honorable 
and blessed path . . . ''.\47\
---------------------------------------------------------------------------
    \47\ As-Sahab Media Foundation. ``A Message to the People of the 
West from the fighting brother Azzam the American on the Fourth 
Anniversary of the Battles of New York and Washington.'' http://www.as-
sahaab.com. MPEG Video; 12 minutes in length. November 6, 2005.

    Fingering an automatic weapon, Gadahn also added the following 
comments, swearing revenge on his own former hometown: ``Yesterday, 
London and Madrid. Tomorrow, Los Angeles and Melbourne [Australia], 
God-willing . . . We love peace, but when the enemy violates that peace 
or prevents us from achieving it, then we love nothing better than the 
heat of battle, the echo of explosions, and [slitting] the throats of 
the infidels. When it comes to defending our religion, our freedom, and 
our brothers in faith, every one of us is Mohammed Atta. Every one of 
us is Jamal Lindsey, and every one of us is Mohammed Boieri.''\48\
---------------------------------------------------------------------------
    \48\ As-Sahab Media Foundation. ``A Message to the People of the 
West from the fighting brother Azzam the American on the Fourth 
Anniversary of the Battles of New York and Washington.'' http://www.as-
sahaab.com. MPEG Video; 12 minutes in length. November 6, 2005.
---------------------------------------------------------------------------
    Of all the individuals discussed herein, Adam Gadahn likely has the 
slimmest chance of ever ascending the ranks much farther beyond his 
current position as a spokesman and media advisor. He has no formal 
clerical or military credentials to speak of, and while his proficiency 
in speaking Arabic is improving, it is still quite poor. Like Ayman al-
Zawahiri, Gadahn appears to be obsessed with his own celebrity, spewing 
an endless train of childish threats for the benefit of television 
cameras. Even with his conversion to Islam and the dramatic destruction 
of his own U.S. passport, the fact that Gadahn is a Caucasian American 
with Jewish (and even Zionist) roots would be difficult for many 
Islamists to swallow. Gadahn may serve at times as a useful propaganda 
tool for al-Qaeda to harass the White House and the American public, 
but he hardly stands out as the most capable figure to actually lead a 
terrorist organization based in South Asia.
          (iv) the question of al-qaeda's regional affiliates
    Prior to 9/11, Osama bin Laden's principle obsession was on 
building a single armed force on a ``Solid Foundation'' with a 
centralized leadership under his control. According to founding al-
Qaeda Shura Council member Mamdouh Mahmud Salim (a.k.a. Abu Hajer al-
Iraqi), ``Abu Abdullah [bin Laden] had tendency to favor a policy of 
centralization . . . and felt obligated to assemble the Arabs in one 
location, train and prepare them to be a single mobilized fighting 
brigade.''\49\ However, bin Laden had apparently overestimated the 
importance of group centralization, neglecting the substantial benefits 
afforded by al-Qaeda's loose, amalgamated infrastructure. Already by 
the late 1980s, those around bin Laden warned him that their attempts 
to create strict administration and hierarchy within al-Qaeda were 
ending in disaster. Mamdouh Salim--appointed by bin Laden to assist him 
in the regimentation of the Arabs in Afghanistan--admitted in 
mujahideen memoirs, ``we tried our best to correct the brothers, but I 
should admit that . . . I was mistaken about the task of management. I 
thought of people what I had read about them in books--if you were to 
say to someone, `Fear Allah', then that's fine, he would fear Allah! . 
. . I believed that just like I could flip a switch to make a light 
turn on and off, I could also similarly handle people!''\50\
---------------------------------------------------------------------------
    \49\ Muhammad, Basil. Al-Ansaru l'Arab fi Afghanistan. The 
Committee for Islamic Benevolence Publications; 1991. Page 199.
    \50\ Muhammad, Basil. Al-Ansaru l'Arab fi Afghanistan. The 
Committee for Islamic Benevolence Publications; 1991. Page 196.
---------------------------------------------------------------------------
    For al-Qaeda, the real turning point came in December 2001, when 
groups of hardened al-Qaeda fighters attempted to make a dramatic last 
stand against U.S.-backed Afghan militiamen at a cave complex in the 
Tora Bora mountains, near the Pakistani border. The cream of al-Qaeda's 
leadership, including bin Laden himself, had gathered in Tora Bora for 
what seemed like a fool's errand: To fight a mismatched conventional 
military battle against an adversary with total air dominance and far 
more sophisticated battlefield weapons. U.S. tactical airstrikes 
smothered hundreds of fighters to dust: ``there was no difference 
between the night and the day: the sky was raining fire and the Earth 
was erupting volcanoes.''\51\ Abortive attempts at regrouping and 
retreating caused the deaths of possibly hundreds of fleeing al-Qaeda 
fighters caught underneath a hail of cluster bombs. As a result of the 
defeats at Tora Bora and 3 months later at Shah-i-Kot, ``almost all 
remaining al-Qaeda forces'' fled across the border with Pakistan 
seeking refuge in the remote, mountainous, and ``lightly governed'' 
frontier provinces.\52\
---------------------------------------------------------------------------
    \51\ Azzam, Abdullah. The Lofty Mountain. Azzam Publications. 
London; UK. 2003. Page 136.
    \52\ The 9/11 Commission Report. Final Report of the National 
Commission on Terrorist Attacks Upon the United States. July 22, 2004. 
Page 338.
---------------------------------------------------------------------------
    Faced with a resounding defeat on the peaks of Tora Bora, a group 
of high-ranking al-Qaeda commanders decided to fundamentally re-think 
Osama bin Laden's military campaign against the West and to embrace the 
development of a more diffuse and self-sufficient network of 
international operatives. In 2002 and 2003, al-Qaeda's shift in 
strategy became noticeable following a series of dramatic kamikaze 
bombing attacks targeting Westerners in a host of countries, from 
Indonesia to Morocco. Al-Qaeda's then-official website--the Al-Neda 
Center for Islamic Studies and Research--acknowledged that these 
attacks marked a new phase in evolution: ``the al-Qaeda Organization 
has adopted a strategy in its war with the Americans based on expanding 
the battlefield and exhausting the enemy, who spread his interests over 
the globe, with successive and varied blows . . . Expanding the 
battlefield has invaluable benefits. The enemy, who needed to protect 
his country only, realized that he needed to protect his huge interests 
in every country. The more diversified and distant the areas in which 
operations take place, the more exhausting it becomes for the enemy, 
the more he needs to stretch his resources, and the more he becomes 
terrified.''\53\ By mid-2004, nascent al-Qaeda franchise organizations 
were already well ensconced inside both Saudi Arabia and Iraq. Today, 
similar al-Qaeda franchises have expanded their reach even further into 
Indonesia, Yemen, Algeria, Somalia, Lebanon, and the Palestinian 
territories. These upstart regional branches are capable of operating 
independently of al-Qaeda's central leadership in Afghanistan--and 
though the immediate purpose of forming these branches was to ramp up 
local activity in particular countries of interest--the growing 
affiliate factions often have expansive ambitions just as grandiose as 
those of Osama bin Laden himself.
---------------------------------------------------------------------------
    \53\ Al-Neda Center for Islamic Studies and Research. ``The 
Operation of 11 Rabi al-Awwal: The East Riyadh Operation and Our War 
With the United States and its Agents.'' http://www.faroq.org/news/
news.php?id. August 2003.
---------------------------------------------------------------------------
    Al-Qaeda's decision to branch out and form semi-autonomous regional 
affiliates has not been without its drawbacks. In Iraq, even as al-
Qaeda's local leader Abu Musab al-Zarqawi drew international media 
attention (rivaling that paid to bin Laden) for his unrelenting 
campaign of suicide bombings and beheadings, al-Zarqawi's stubborn 
insistence on doing things in his own particular style caused countless 
problems for al-Qaeda and other Sunni insurgent groups. According to 
fellow insurgents (including some acknowledged former Zarqawi allies), 
al-Qaeda fighters are responsible for adopting arrogant, totalitarian 
measures in Iraq that have acutely undermined their popular image in 
the Islamic community as ``chivalrous knights'' working to safeguard 
justice and the innocent. In October 2007, one such estranged insurgent 
partner, the ``Iraqi Jihad Union'' (IJU), issued an open call to al-
Qaeda's leaders: ``What is happening out in the field is indeed a 
disaster and we hope that you have merely been misinformed about [these 
events]. However, it will be an even greater disaster if you are, in 
fact, well-informed about these matters.''\54\ The IJU fingered al-
Qaeda fighters as the guilty culprits behind the slaughter and 
mutilation of their own Sunni Muslim comrades: ``To make things worse, 
they dug up their bodies from the graves, further mutilated them, 
beheaded them, and showed them off from their vehicles while driving 
through the towns. They even killed our men's wives and children.''\55\ 
Yet another armed faction--``Hamas al-Iraq''--scoffed in a separate 
statement to its supporters, ``the al-Qaeda network has actually made 
people here think that the occupation forces are merciful and humane by 
comparison.''\56\
---------------------------------------------------------------------------
    \54\ http://www.alboraq.info/showthread?t=33995. October 5, 2007.
    \55\ http://www.alboraq.info/showthread?t=33995. October 5, 2007.
    \56\ http://www.alboraq.info/showthread?t=33728. October 2, 2007.
---------------------------------------------------------------------------
    Only 2 years after bragging that al-Qaeda had ``broken the back'' 
of America with a barrage of suicide bombings in Iraq, Dr. Ayman al-
Zawahiri was forced to reappear in April 2008 in order to defend 
Zarqawi's cruel methodology in the face of sharp criticism from fellow 
Muslims. During a public Arabic-language Q&A session sponsored by al-
Qaeda, one anonymous participant (who scornfully introduced himself as 
``Your Geography Teacher'') jeered at al-Zawahiri, ``Do you consider 
the killing of women and children to be Jihad? I challenge you and your 
organization to do that in Tel Aviv . . . Or is it easier to kill 
Muslims in the markets? Maybe it is necessary [for you] to take some 
geography lessons, because your maps only show the Muslims' 
states.''\57\ With a touch of anger building in his voice, Dr. al-
Zawahiri insisted, ``We haven't killed the innocents, not in Baghdad, 
nor in Morocco, nor in Algeria, nor anywhere else.'' After a moment of 
reflection, he added, ``And if there is any innocent who was killed in 
the Mujahideen's operations, then it was either an unintentional error, 
or out of necessity as in cases of . . . the taking of human shields by 
the enemy.''\58\
---------------------------------------------------------------------------
    \57\ http://myhesbah.com/v/showthread?t=174676. April 2, 2008.
    \58\ http://myhesbah.com/v/showthread?t=174676. April 2, 2008.
---------------------------------------------------------------------------
    Nor have things gone especially well for al-Qaeda in the Kingdom of 
Saudi Arabia, where the group's local leadership was forced to flee the 
country or else be wiped out in a dragnet by security forces. During a 
2006 interview in London, the prominent Saudi Islamist dissident Dr. 
Saad al-Faqih suggested that the problem stemmed from a critical 
shortage of locally-based skilled commanders following the death of the 
founder of the Saudi al-Qaeda branch, Yusuf al-Ayyiri: ``Al-Ayyiri . . 
. was appointed by Bin Laden . . . probably before [9/11]. He is 
capable, you know. You know that this man is capable, right? [Al-
Ayyiri] is a learned scholar, highly professional as a fighter, he is 
powerful in his articulation, has a dominating personality, he is a 
strategist. He knows what he is doing.''\59\ However, in the absence of 
al-Ayyiri, al-Qaeda's strategy in Saudi Arabia turned ``hopeless'': 
``Their strategy in Saudi Arabia is in shambles . . . I see it as, in 
their own standards, very stupid strategy . . . Bin Laden was not 
fortunate to have an intelligent, capable person after al-Ayyiri. All 
the persons who came after al-Ayyiri were good military leaders but 
very bad strategists, very bad tacticians.''\60\
---------------------------------------------------------------------------
    \59\ Author's interview with Dr. Saad al-Faqih at his residence in 
London; U.K. February 2006.
    \60\ Author's interview with Dr. Saad al-Faqih at his residence in 
London; U.K. February 2006.
---------------------------------------------------------------------------
    In listing their various shortcomings, Dr. al-Faqih particularly 
noted the inexplicable failure of Saudi al-Qaeda leaders to conduct 
their activities in a way that might possibly have some popular appeal 
among ordinary Saudis. Al-Faqih scoffed, ``when you confront them with 
the question, `why do you go to foreigners and leave [Prince] Nayif?', 
they can't answer. They answer very stupid answers. Sloganistic answers 
. . .  This is a very naive literal interpretation of the prophet's 
teaching.''\61\ As a result, not only has the ``cadre from before the 
Iraqi war been hit very hard by the regime'', but moreover, ``people 
who had some sort of intention to join al-Qaeda inside the country 
changed their mind. They also lost in terms of sympathy and 
understanding.''\62\ According to Dr. al-Faqih, ``al-Qaeda did not lose 
because of the technology of the Saudi government, did not lose because 
of the effective, the `effective' media, cultural, and security 
campaign, it did not lose because of the support from the Americans and 
others. It lost because of its own mistakes.''\63\ After a heavy sigh, 
he confessed, ``I cannot understand why they planned it this way.''\64\
---------------------------------------------------------------------------
    \61\ Author's interview with Dr. Saad al-Faqih at his residence in 
London; U.K. February 2006.
    \62\ Author's interview with Dr. Saad al-Faqih at his residence in 
London; U.K. February 2006.
    \63\ Author's interview with Dr. Saad al-Faqih at his residence in 
London; U.K. February 2006.
    \64\ Author's interview with Dr. Saad al-Faqih at his residence in 
London; U.K. February 2006.
---------------------------------------------------------------------------
    While al-Qaeda's regional efforts in Iraq and Saudi Arabia may have 
suffered debilitating setbacks in recent years, the picture could not 
be any more different in nearby Yemen--where a growing al-Qaeda branch 
(known simply as ``al-Qaeda in the Arabian Peninsula'') not only has 
threatened to undermine the stability of the central government in 
Sanaa, but moreover, has demonstrated its ability to launch repeated 
and sophisticated international terrorist attacks targeting the U.S. 
homeland. Without doubt, the defining event for al-Qaeda's network in 
Yemen came in 2008 with the unexpected arrival of numerous Saudi 
Arabian al-Qaeda operatives who had recently been freed after years of 
detention in Guantanamo Bay, Cuba. An influential partnership was 
formed between the remnants of al-Qaeda's Saudi branch and loyal Yemeni 
disciples of Osama bin Laden--including his former personal secretary, 
Abu Basir al-Wahishi, and a graduate of Bin Laden's notorious Al-Farouq 
training camp near Kandahar, Qassim al-Rimi. In total, at least 11 
former Gitmo detainees from Saudi Arabia returned to al-Qaeda, most of 
them by fleeing political rehabilitation centers and crossing the Saudi 
border into Yemen.
    Throughout 2009, a slew of latent warnings emerged indicating that 
AQAP was developing advanced bomb-making skills, including the ability 
to circumvent heightened security measures at airports and other 
sensitive installations. Over the space of several months, al-Qaeda's 
network in Yemen released successive video recordings showing the 
fabrication of elaborate explosive devices, including bombs carefully 
hidden in picture frames and video cassette boxes. Then, in August 
2009, AQAP claimed responsibility for its most sophisticated operation 
yet: The attempted assassination of the Saudi Deputy Interior Minister 
by a ``surrendering'' al-Qaeda member with a bomb hidden in his 
underwear. In an official communique released days later by AQAP, the 
group trumpeted the ``first-of-its-kind'' suicide operation by the 
baby-faced Abdullah Asseri who ``was able to enter the palace . . . get 
past his bodyguards, and ignited his explosive device . . . after he 
already managed to pass through all the security checkpoints at the 
airports in Najran and Jeddah.''\65\
---------------------------------------------------------------------------
    \65\ Al-Qaeda in the Arabian Peninsula (AQAP). ``Statement Claiming 
Responsibility for the Assassination Attempt on the Tyrant Mohammed bin 
Nayif al-Saud.'' August 29, 2009.
---------------------------------------------------------------------------
    In a video testimonial produced by AQAP and first broadcast in 
September 2009, Asseri bragged about the impressive technical 
innovations of locally-based al-Qaeda bombmakers:

``This is my ammunition . . . Allah has made this available to the 
mujahideen . . . The idol-worshipping tyrants of the Saudi family 
thought that they closed the doors on the face of the mujahideen, by 
banning all explosive substances from the markets. But Allah made 
available to us something they cannot handle . . . Allah willing, we 
will come to you with only 50, 100 or 200 grams. Allah willing, our 
brothers in the explosives department will release some instructive 
videos about how you can blow up the enemies of Allah with simple 
ingredients available to all which they cannot ban, except if they kill 
everyone or close all the stores. Sometimes you will be amazed that 
explosives can be made with things we even eat.''\66\
---------------------------------------------------------------------------
    \66\ Al-Malahem Media Wing; al-Qaeda in the Arabian Peninsula 
(AQAP). ``The Progeny of Mohammed bin Maslamah.'' Released on August 
29, 2009.

    On Christmas day 2009, Nigerian national Umar Farouk 
Abdulmutallab--armed with a remarkably similar explosive device 
provided to him by AQAP and concealed in his underwear--attempted to 
bring down a civilian airliner packed with holiday travelers en route 
from Amsterdam to Detroit.
    In the months since the failed airline bombing over Detroit, AQAP 
has expressed particular pride in the fact that their recruit Umar 
Abdulmutallab was so successful in evading strict international airline 
security procedures. During a propaganda video produced by al-Qaeda's 
network in Yemen, an unseen narrator smugly insists, ``security and 
military solutions won't help providing security for the Americans and 
their allies, as after 8 years of big and continuous spending for the 
cause of advancing the security abilities, the mujahideen were able, 
with the grace of Allah, to infiltrate all the boundaries; the brother 
Umar Farouk--may Allah release him--took off and passed through five 
international airports, including the Dutch airport in Amsterdam, and 
neither their technology nor machines were able to uncover the 
manufactured device.''\67\ The leadership of al-Qaeda even published an 
eye-catching article on this subject in the official AQAP on-line 
magazine, titled, ``Secrets of the Manufactured Device'':
---------------------------------------------------------------------------
    \67\ Al-Malahem Media Wing; al-Qaeda in the Arabian Peninsula 
(AQAP). ``America and the Final Trap.'' Released on May 26, 2010.

``Among the secrets of the device is that it included the study of the 
[currently] used scanning machines inside airports and other places, 
whether the security side or the technical side in America and Europe . 
. . studying all these gaps took place, and with the grace of Allah 
what we wished for has occurred; the intended martyr brother crossed 
four continents--Asia, then African, then Europe, then America--and he 
passed through four international airports that have strict procedures 
. . . The mujahideen have [also] acquired a highly-explosive material 
with power that exceeds the classic high explosives like `PETN' and 
`TNT' and `RDX' and others, and it is being prepared and tested.''\68\
---------------------------------------------------------------------------
    \68\ Al-Malahem Media Wing; al-Qaeda in the Arabian Peninsula 
(AQAP). ``Secrets of the Manufactured Device.'' Sada al-Malahem 
Magazine. Issue No. 12; Released on February 14, 2010.

    Until quite recently, the notion of such complex planning for 
transnational terrorist activities taking place outside the narrow 
confines of Osama bin Laden's inner circle in Afghanistan would have 
seemed baffling and radically controversial to most observers.
    The re-organized al-Qaeda network based in Yemen has also benefited 
from the contributions of Yemeni-American cleric Shaykh Anwar al-
Awlaki, a charismatic, English-speaking missionary who had evolved from 
a mainstream ``moderate'' voice into one of the most passionate global 
advocates for violent jihad in any language. On his internet blog--
popular among British, Canadian, and American Muslims--al-Awlaki openly 
applauded al-Qaeda attacks on Yemeni security forces: ``May this be the 
beginning of the greatest jihad, the jihad of the Arabian Peninsula 
that would free the heart of the Islamic world from the tyrants who are 
deceiving the Ummah and standing between us and victory.''\69\ Al-
Awlaki has been publicly fingered by U.S. officials as the responsible 
party in turning Umar Abdulmutallab towards al-Qaeda. Speaking in a 
video interview produced by AQAP, al-Awlaki enthused that the Christmas 
day airline bomb plot had ``accomplished goals for the mujahideen and 
it is considered a reply and terrorizing operation to the Americans, 
and this operation showed the gaps in the American security instruments 
whether it be intelligence-wise or in the security. In the American 
airports they spend more than 40 million dollars and yet the Mujahid 
Umar Farouk was able to pass these security instruments. And also the 
intelligence admits that it had put him under surveillance and in spite 
of that he was able to reach the heart of America to Detroit. So the 
operation accomplished great successes though it did not kill even one 
person, in spite of that it accomplished great successes.'' After a 
pause, al-Awlaki added, ``About the brother Umar Farouk, he is also 
from my students, and also I am very proud that the likes of Umar 
Farouk are from my students and I support what he did.''\70\
---------------------------------------------------------------------------
    \69\ Al-Awlaki, Anwar. ``The Army of Yemen Confronts the 
Mujahideen.'' August 1, 2009. Posted on: http://www.anwar-alawlaki.com.
    \70\ Al-Malahem Media Wing; al-Qaeda in the Arabian Peninsula 
(AQAP). ``A Premiere and Exclusive Interview with the Islamic Preacher 
Sheikh Anwar Al-Awlaki.'' Released on May 22, 2010.
---------------------------------------------------------------------------
    Perhaps the most disturbing aspect of AQAP's interest in launching 
international terrorist attacks on the United States is their long-
running obsession with conceiving plots aimed at causing 
``catastrophic'' damage to the American economy. In October 2002, 
following a suicide bomb attack on a French supertanker off the coast 
of Yemen, al-Qaeda's Politburo lost no time in formally praising the 
operation for ``revealing the true danger the mujahideen pose to the 
strategic, commercial, and military interests of the enemy'':

``If a boat that once cost us less than $1,000 managed to ruin a 
destroyer worth over $1 billion (its symbolic value beyond measure), 
and a similar boat managed to devastate an oil tanker of such great 
magnitude, imagine the extent of the danger that threatens the West's 
commercial lifeline which is petrol. This region sits on the largest 
[oil] reserves, owns the largest quantities and contains [the 
industry's] most important passages and lanes. The operation that 
struck the French oil tanker is not merely an attack against a tanker--
it is an attack against international oil transport lines and all its 
various connotations.''\71\
---------------------------------------------------------------------------
    \71\ Al-Neda Center for Islamic Studies and Research. ``Statement 
from the al-Qaeda Organization Regarding the Explosion Targeting the 
Christian Oil Tanker in Yemen.'' Al-neda.com. October 13, 2002.

    When it was still based in Saudi Arabia, AQAP published a treatise 
titled, ``Bin Laden and the Oil Weapon'', in which the affiliate group 
argued that because ``the United States will remain dependent on the 
Middle East in the near future, its oil will continue to be an easy 
target for all the enemies of the United States . . . It is imperative 
that we strike petroleum interests in all regions that the United 
States benefits from, and not only in the Middle East. The goal is to 
cut off its imports or reduce them by all means. The targeting of oil 
interests includes oil production wells, export pipelines, loading 
platforms, tankers--and anything else that will deprive the United 
States of oil, force it to make decisions that it has avoided having to 
make for a long time, disrupt and stifle its economy, and threaten its 
economic and political future.''\72\
---------------------------------------------------------------------------
    \72\ Al-Bassam, Adeeb. ``Bin Laden and the Oil Weapon.'' Sawt al-
Jihad (``Voice of Jihad'') Magazine; Issue No. 30. Al-Qaeda's Committee 
in the Arabian Peninsula (Saudi Arabia). Published: February 8, 2007.
---------------------------------------------------------------------------
    In early 2008, after al-Qaeda moved its local operations from Saudi 
Arabia to Yemen, the reconstituted AQAP published an approving 
interview with a most wanted Saudi al-Qaeda suspect Nayef Bin Mohammed 
al-Qahtani (a.k.a. Abu Humam al-Qahtani). Again endorsing the concept 
of striking at petroleum resources, al-Qahtani reasoned, ``if the 
enemy's interests in the Arabian Peninsula were stricken, and his 
supply of oil was cut off, and the oil refineries were out of order, 
this would cause the enemy to collapse--and he won't merely withdraw 
from Iraq and Afghanistan, but would face total collapse. If he were to 
be struck hard from various places, then he would scatter and turn 
around and flee forlornly from the land of the Muslims.''\73\
---------------------------------------------------------------------------
    \73\ ``A Meeting With One of the Most Wanted.'' Al-Malahem Media 
Wing; al-Qaeda in the Arabian Peninsula (AQAP). Sada al-Malahem 
Magazine. Issue No. 1; January 12, 2008.
---------------------------------------------------------------------------
    Given the high-profile role that AQAP has played in masterminding 
not only the ``Underwear'' bomber Abdulmutallab, but also more 
recently, a plot to smuggle explosive devices into U.S.-bound aircraft 
via UPS cargo shipments, AQAP's passionate interest in launching 
``strategic'' attacks aimed at devastating the U.S. economy can be 
ignored only at our own peril. It is also a telling reminder of how, 
thanks to the new affiliate network of global franchises, the 
underlying al-Qaeda terrorist threat to the U.S. homeland is, in some 
ways, unchanged by the death of Osama bin Laden.
            (v) the ``homegrowns'': al-qaeda as an ideology
    Even further beyond al-Qaeda's existence as an organization and 
then as a franchise model is al-Qaeda as a political ideology. Given 
his obsession with group centralization, for many years, bin Laden 
failed to fully grasp how the relative ``openness'' of his movement and 
the perceived lack of hierarchy appealed to young jihadist recruits. In 
the world of al-Qaeda and the Arab-Afghans, even the most junior of 
operatives could potentially gain high status within the movement by 
either demonstrating useful skills, or else by volunteering to 
sacrifice themselves on behalf of the mission. In other words, al-Qaeda 
offered an equal opportunity at fame and recognition to nearly any 
sympathetic soul willing to risk death or imprisonment. When agents 
from the U.S. Federal Bureau of Investigation (FBI) apprehended a 
junior al-Qaeda operative who helped build the suicide truck bombs used 
to attack two U.S. embassies in East Africa in 1998, he boasted of his 
own role in the plot and explained that he ``was attracted to Usama Bin 
Ladin and the group Al Qaeda because it did not matter what nationality 
you were'' and because al-Qaeda members did not explicitly follow 
``orders from a chain of command'' in the same way as more traditional 
terrorist organizations.\74\
---------------------------------------------------------------------------
    \74\ Government Exhibit GX-6 (Interview of Mohammed Sadiq Odeh by 
FBI Agent John Anticev). U.S. v. Usama Bin Laden, et al. S(7) 98 Cr. 
1023 (LBS). United States District Court, Southern District of New 
York.
---------------------------------------------------------------------------
    In retrospect, it now appears that it was not bin Laden, but rather 
his younger and more web-savvy lieutenants who truly championed the 
idea of spreading al-Qaeda as an ideology, including among homegrown 
extremists living in non-Muslim countries. One of those lieutenants was 
the founder of al-Qaeda's franchise affiliate in Saudi Arabia, Yusuf 
al-Ayyiri. Addressing those who had criticized al-Qaeda for killing 
innocent Arab civilians during the May 2003 attacks in Riyadh, al-
Ayyiri scoffed, ``Whoever asks why in [Saudi Arabia] should ask 
himself--if he was honest--why in Chechnya, why in Kabul, why in 
Jerusalem, why in Bali, and why in Mombassa. These countries are ruled 
by agent Karzai-type rulers and occupied by Americans or Jews who are 
considered infidels and untrustworthy in Allah's book.'' Moreover, 
according to al-Ayyiri, ``this war is based on a strategy to widen the 
battlefield. The entire world has become a battlefield in practice and 
not in theory.''\75\
---------------------------------------------------------------------------
    \75\ Al-Neda Center for Islamic Studies and Research. ``The 
Operation of 11 Rabi al-Awwal: The East Riyadh Operation and Our War 
With the United States and its Agents.'' http://www.faroq.org/news/
news.php?id. August 2003.
---------------------------------------------------------------------------
    Al-Ayyiri's strategy for developing a global ``homegrown'' 
terrorist movement has had an astonishing impact in motivating new 
faces to try and join al-Qaeda's cause--if not directly, then 
indirectly. Among both Arabic and English-speaking al-Qaeda supporters, 
one of al-Ayyiri's books has been particularly popular and enduring: 
``Constants on the Path of Jihad'' (``Thawabit ala Darb al-Jihad''). 
The book attracted so much attention that fugitive AQAP cleric Shaykh 
Anwar al-Awlaki dedicated an entire lecture series to explaining al-
Ayyiri's underlying message in ``Constants on the Path of Jihad'' to an 
English-speaking audience:

``Jihad does not end with the disappearance of a person. Jihad must 
continue regardless because it does not depend on any particular leader 
or individual . . . Jihad does not depend on any particular land. It is 
global. When the Muslim is in his land, he performs jihad . . . No 
borders or barriers stop it. The message cannot be conveyed without 
jihad. If a particular people or nation is classified as . . . `the 
people of war' in the Shariah, that classification applies to them all 
over the earth. Islam cannot be customized to suit the conditions where 
you are, for instance Europe.''\76\
---------------------------------------------------------------------------
    \76\ Shaykh Anwar Al Awlaki. ``Constants on the Path of Jihad'' 
(``Thawaabit Ala' Darb Al-Jihad.'') Audio recording transcribed at 
http://sabiluna.sitesled.com/
Constants%20on%20The%20Path%20of%20Jihad.pdf.

    According to Awlaki, al-Ayyiri also instructed that ``victory'' 
cannot be limited to mere ``military victories'' alone, and should also 
include ``sacrifice. The Mujahid sacrificing `his self' and his wealth 
is victory. Victory of your idea, your religion. If you die for your 
religion, your death will spread the da`wa . . . Allah chooses Shuhada 
(martyrs) from amongst the believers. This is a victory.''\77\
---------------------------------------------------------------------------
    \77\ Shaykh Anwar Al Awlaki. ``Constants on the Path of Jihad'' 
(``Thawaabit Ala' Darb Al-Jihad.'') Audio recording transcribed at 
http://sabiluna.sitesled.com/
Constants%20on%20The%20Path%20of%20Jihad.pdf.
---------------------------------------------------------------------------
    By early 2003, jihadi recruiters in Europe who had previously 
encouraged others to travel to training camps in Afghanistan, Bosnia-
Herzegovina, and Chechnya began radically changing their message. Just 
as with al-Ayyiri and al-Awlaki, their new philosophy emphasized the 
individual nature and responsibility of jihad. At a conference in 
Leicester organized by the radical Al-Muhajiroun faction in October 
2002, Abu Hamza al-Masri (a.k.a. Mustafa Kamel) admonished his 
audience, ``We need to resist, we need to fight, even alone. And you 
can't go now to learn in Afghanistan or Eritrea as before. Now, a war 
zone is a war zone. There is no need for camping, there is no 
facilities for camping . . . A lot of the skills you need for the 
frontline, you can learn from here . . . Where are you? What can you do 
in your area?''\78\ Al-Muhajiroun leader Shaykh Omar Bakri Mohammed 
echoed these comments and added, ``the Ummah [should] know it is 
obligatory upon them to engage in . . . preparation and to engage in 
the jihad. And each one must find their own way. There is no need 
yourself to contact somebody here or there. You find your own way! 
Sincerely, you will get it. You do not want to put someone else in 
trouble. You, look for yourself! . . . Seek it! You will get it!''\79\
---------------------------------------------------------------------------
    \78\ Speech given at ``Iraq Today Mecca Tomorrow.'' National 
Conference held in Leicester, United Kingdom; organized by Al-
Muhajiroun, P.O. Box 349 London N9 7RR. October 27, 2002.
    \79\ Speech given at ``Iraq Today Mecca Tomorrow.'' National 
Conference held in Leicester, United Kingdom; organized by Al-
Muhajiroun, P.O. Box 349 London N9 7RR. October 27, 2002.
---------------------------------------------------------------------------
    Surprisingly, rather than al-Qaeda's central leadership, it is 
arguably al-Qaeda's local affiliate in Yemen that has actually expended 
the greatest amount of entrepreneurial efforts in trying to mobilize 
homegrown jihadists and inciting them into action. Six months after the 
botched ``Underwear'' bomb plot involving Umar Abdulmutallab, AQAP 
released the first issue of a new English-language propaganda magazine 
titled ``Inspire.'' An article from the first issue, ``Make a Bomb in 
the Kitchen of Your Mom'', explains:

``There are many Muslims who have the zeal to defend the ummah but 
their vision is unclear. They believe that in order to defend the ummah 
they need to travel and join the mujahideen elsewhere and they must 
train in their camps. But we tell the Muslims in America and Europe: 
There is a better choice and easier one to give support to your ummah. 
That is individual work inside the West such as the operations of [Fort 
Hood shooter] Nidal Hassan and [failed Times Square bomber] Faisal 
Shahzad . . . My Muslim brother, who wants to support the religion of 
Allah: do not make too many calculations and forecasting of the results 
and consequences. It is true that Umar Farouk and his brothers Nidal 
Hassan and Shahzad were imprisoned, but they have become heroes and 
icons that are examples to be followed . . . My Muslim brother: we are 
conveying to you our military training right into your kitchen to 
relieve you of the difficulty of traveling to us. If you are sincere in 
your intentions to serve the religion of Allah, then all what you have 
to do is enter your kitchen and make an explosive device that would 
damage the enemy.''\80\
---------------------------------------------------------------------------
    \80\ ``Make a Bomb in the Kitchen of Your Mom.'' Inspire Magazine. 
Al-Malahem Media Wing; al-Qaeda in the Arabian Peninsula (AQAP). Issue 
No. 1; Released on July 11, 2010.

    The second issue of AQAP's ``Inspire'' Magazine once again returned 
to the subject of individual jihad. Suggested tips included in the 
magazine urged would-be al-Qaeda recruits ``coming from the West'', 
``you might be asked by the mujahidin why you didn't partake in the 
jihad inside your country . . . Many will tell you that attacking the 
enemy in their backyard is one of the best ways to help the jihad . . . 
Put yourself in the shoes of the leadership for a moment. They have 
with them an individual who is not wanted by the intelligence services 
and they could use that person to further the Islamic cause. That 
person is you. I strongly recommend all the brothers and sisters coming 
from the West to consider attacking the West in its own backyard . . . 
These types of individual attacks are nearly impossible for them to 
contain.''\81\ The same magazine also featured plans for ``the ultimate 
mowing machine'', an ``idea to use a pickup truck as a mowing machine, 
not to mow grass but mow down the enemies of Allah.''\82\ Above all, 
however, the magazine urged that ``the best operation . . . is the one 
where you come up with an innovative idea that the authorities have not 
yet turned their attention to, and that leads to maximum casualties 
or--equally important--maximum economic losses.''\83\
---------------------------------------------------------------------------
    \81\ Inspire Magazine. Al-Malahem Media Wing; al-Qaeda in the 
Arabian Peninsula (AQAP). Issue No. 2; Released on October 11, 2010. 
Page 24.
    \82\ Inspire Magazine. Al-Malahem Media Wing; al-Qaeda in the 
Arabian Peninsula (AQAP). Issue No. 2; Released on October 11, 2010. 
Page 24.
    \83\ Inspire Magazine. Al-Malahem Media Wing; al-Qaeda in the 
Arabian Peninsula (AQAP). Issue No. 2; Released on October 11, 2010. 
Page 24.
---------------------------------------------------------------------------
    The identity of the reputed ``genius'' behind AQAP's latest 
propaganda coup is symbolic of the evolving terrorist threat posed by 
self-selecting ``lone wolf'' extremists. U.S. law enforcement and 
intelligence agencies believe that ``Inspire'' Magazine was created on 
behalf of AQAP by an American citizen and former resident of Charlotte, 
North Carolina, Samir Khan. In 2004, at the age of 18, Khan acquired a 
widespread reputation for his brash militancy on his well-traveled 
English-language blog, ``InshallahShaheed'' (Martyrdom God-willing). 
The blog routinely extolled the virtues of bin Laden and other al-Qaeda 
leaders, along with terrorist attacks in Iraq and elsewhere. Yet, for 
all his threats and internet tough talk, in real life, Khan looked far 
more the part of hapless computer nerd than deadly assassin. 
Nonetheless, in October 2009, 2 months before Umar Abdulmutallab 
boarded a flight headed to the United States, the aspiring suburban 
warrior Samir Khan left his own home in America and traveled to Yemen, 
where he promptly disappeared and presumably joined al-Qaeda.\84\ In a 
letter published recently in ``Inspire'', Khan has since confessed his 
surprise at being allowed by U.S. Federal authorities to join AQAP 
unhindered: ``I was quite open about my beliefs on-line and it didn't 
take a rocket scientist to figure out that I was al Qaeda to the 
core.''\85\
---------------------------------------------------------------------------
    \84\ Gendar, Alison. ``Former New Yorker Samir Khan behind graphics 
of new Al Qaeda recruiting magazine.'' New York Daily News. July 18, 
2010.
    \85\ ``The Ultimate Mowing Machine.'' Inspire Magazine. Al-Malahem 
Media Wing; al-Qaeda in the Arabian Peninsula (AQAP). Issue No. 2; 
Released on October 11, 2010.
---------------------------------------------------------------------------
    Nor is Samir Khan alone. Internet chat forums run by al-Qaeda and 
likeminded jihadi movements have become beacons for a variety of 
extremists searching for a path to infamy in the guiding hands of al-
Qaeda. In April 2010, when the Pakistani Taliban claimed responsibility 
for an attempted bomb plot in New York's Times Square, they chose to 
release their claim via an exclusive English-language al-Qaeda chat 
forum. One of the forum administrators--a mysterious ``lone wolf'' 
militant calling himself ``Asadullah al-Shishani'' (``the Lion of Allah 
from Chechnya'')--immediately replied congratulating the Pakistani 
Taliban on their operation, and further offering to provide ``help'' in 
distributing their on-line propaganda.\86\
---------------------------------------------------------------------------
    \86\ http://www.ansar1.info/showthread.php?t=21859. May 3, 2010.
---------------------------------------------------------------------------
    Two months later, user ``Asadullah al-Shishani'' posted his own 
homemade song on al-Qaeda's top-tier forums in honor of al-Qaeda's 
slain ``No. 3'' leader Mustafa Abu al-Yazid. The lyrics to the English-
language song included the lines, ``You are a real hero, O' Mustafa Abu 
Yazid. You spent your whole life fighting, Until you fell down Shaheed. 
You are a real terror, Against America. You sent their soldiers 
running, With shots of your Pee-Ka . . . Asadullah Alshishani salutes 
you. And he prays for the day, That he meets you in Jannah And is 
killed as a Fidaye. And I pray for the day, O that day, When I'm killed 
as a Fidaye.''\87\ This was quickly followed by the web release of yet 
another song performed in English by al-Shishani titled, ``When the 
Jew's Blood Reds my Knife, then my Life is Free from Strife'':
---------------------------------------------------------------------------
    \87\ http://www.alqimmah.net/showthread.php?p=17492. June 1, 2010.

``Hiding behind rocks and trees, I'll find them with greatest ease. 
Make them get down on their knees, Slaughter them despite their pleas. 
Throw them in the ovens hot, Soap and lampshades sold and bought, Made 
of the Jews that we shot. Mercy's something I have not. With the bomb 
and machinegun, Blast at them and watch them run. We will have a lot of 
fun, Shoot and kill Jews one by one.''\88\
---------------------------------------------------------------------------
    \88\ http://www.ansar1.info/showthread.php?t=22963. June 3, 2010.

    Given the picture that emerges of ``Asadullah al-Shishani''--a 
hardcore fanatic volunteering as a manager on elite jihadi web forums, 
who seeks to assist the Pakistani Taliban in launching attacks on the 
United States, and who sings gaily about murdering innocent people--one 
might imagine his real identity is that of a high-ranking al-Qaeda 
terrorist in Iraq or Afghanistan. In fact, nothing could be further 
from the case--``Asadullah al-Shishani'' is actually 21-year old Penn 
State college student Emerson Begolly, a native of Pittsburgh. In 
January 2011, FBI agents finally moved in on Begolly as he sat in a 
vehicle outside a fast food restaurant in New Bethlehem. When he 
noticed agents approaching him, Begolly attempted to resist arrest and 
``allegedly bit the agents, drawing blood.'' Upon subduing and 
searching their suspect, the agents recovered a loaded 9mm handgun.\89\ 
Further searches at Begolly's primary residence turned up homemade 
video recordings of Begolly dressed in camouflage and jihadi gear, 
armed to the teeth, and apparently practicing would-be military 
maneuvers.\90\
---------------------------------------------------------------------------
    \89\ ``Natrona Heights man accused of biting FBI agents.'' 
Pittsburgh Tribune-Review. January 6, 2011.
    \90\ http://www.youtube.com/watch?v=7yiHkuud8Yw. May 2011.
---------------------------------------------------------------------------
    Curiously, Begolly is neither Chechen, nor did he ever actually 
visit local mosques or Islamic centers in Pennsylvania. In fact, as far 
as the Muslim community in Pittsburgh is concerned, Emerson Begolly 
never existed. His entire indoctrination and radicalization process 
evidently took place on-line, exclusively via al-Qaeda social 
networking forums. No amount of eavesdropping or inside sources 
recruited from within a mosque would have led investigators to 
Begolly--only his violent ramblings posted on the internet. This is the 
biggest challenge facing U.S. law enforcement in the coming years. 
While Begolly might not be capable of launching the next 9/11 all by 
himself, al-Qaeda doesn't need to achieve that level of success in 
order to stay relevant. Rather, as pointed out to me by jihadi veteran 
Abdullah Anas, ``in order to spoil things and to stay on the front page 
of the news and the satellite channels, they don't need much. Just one, 
from one thousand. If you have one in the list to wear the jacket with 
the TNT, that is enough.''
                            (vi) conclusions
    Looking back on the tumultuous career of the late Osama bin Laden, 
it is truly striking how far al-Qaeda has evolved from its humble 
origins as a tightly-knit cabal largely based in Pashtun regions of 
Afghanistan into a multi-national enterprise with associate branches 
across the Muslim world--not to mention a blossoming ideological appeal 
which propels seemingly-random individuals into taking this battle upon 
themselves in their own backyard. The killing of Osama bin Laden 
delivered a striking blow to the morale of this al-Qaeda enterprise, 
and it has provided perhaps a brief interruption in their operational 
planning. The substantial intelligence gathered from bin Laden's 
compound in Abbottabad may yet lead us to the hideouts of further high-
ranking al-Qaeda leaders. Moreover, bin Laden's successor--be it Ayman 
al-Zawahiri or someone else--could prove to be a far less capable 
leader than Osama. But, ultimately, the terrorist threat faced by 
America today is multi-faceted and no longer the exclusive product of 
bin Laden and a handful of dusty terrorist training camps perched along 
the Afghan-Pakistani border. Thus, whether we speak of al-Qaeda as a 
centralized organization, a globally-franchised web of affiliates, or 
simply as an organizing principle guiding homespun radical extremists, 
it seems quite clear that al-Qaeda will continue to present a serious 
and undeniable threat to the U.S. homeland for the foreseeable future. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman King. I thank all the witnesses for their 
testimony.
    I will start off the questioning, I guess Mr. Bergen and 
Mr. Kohlmann first. Both of you have mentioned al-Qaeda in the 
Arabian Peninsula. They are the one franchise which has shown 
the most interest in attacking the United States, attacking the 
homeland. We also have al Shabab, which has recruited at least 
three dozen Americans. I have heard reports, and can you 
confirm it at all, that the possibility of a linkup between 
AQAP and al Shabab and using those combined facilities to 
attack the mainland, attack the homeland.
    Mr. Kohlmann. Yes. We do have evidence that both al-Qaeda 
in the Arabian Peninsula and Shabab al-Mujahideen in Somalia 
are in communication with each other. The communications in 
fact are not necessarily even secret. About a year and a half 
ago, Sheik Anwar al-Awlaki, the infamous fugitive Yemeni 
American cleric who is serving as a spiritual adviser to AQAP-
engaged in an open exchange of letters over the web with Shabab 
al-Mujahideen endorsing their struggle, offering advice and 
support.
    The other thing is that if you pay attention to propaganda 
put out by AQAP in Yemen, you will notice that a disturbing 
number of articles and interviews published in their magazine, 
be it in English or Arabic or other languages, are actually 
about Somalia, are about Shabab, are about the need to link up. 
What they have discussed is the idea of actually taking control 
of the straits leading into the Red Sea, controlling the 
straits on the Horn of Africa side in the hands of Shabab, and 
the other side controlled by AQAP, and shutting off shipping 
through the channel. That may be a grandiose objective, but it 
gives you an idea of them working together in a partnership in 
the future.
    Chairman King. The fact that you would have American 
citizens in al Shabab, it would also give them, I believe, more 
of an entree to the United States.
    Mr. Kohlmann. That is correct. There are numerous Americans 
now in both groups. There is Samir Khan, a former resident of 
Charlotte, North Carolina, and of New York, New York, who is 
currently serving as a media advisor to al-Qaeda in Yemen, who 
is the editor behind their infamous Inspire magazine. In 
Somalia, you have individuals such as Omar Hammami, the former 
Alabama native who has gone over and not only is providing 
advice to Shabab, but is actually a leader of Shabab; in fact, 
appeared on camera in the past few days at a Shabab really 
entitled ``We Are All Osama,'' giving a speech in English 
indicating that Shabab would be at the forefront of trying to 
carry out vengeance attacks in the name of bin Laden against 
the United States.
    Chairman King. Mr. Bergen.
    Mr. Bergen. I would give a minor caveat to that. The 
Americans who have gone to Somalia to fight, a lot of them have 
died. It is very dangerous over there.
    Second, they are very well-known to the American 
Government, and some of the gentlemen that Mr. Kohlmann just 
mentioned are very well-known. I think it is quite unlikely 
that they come to the United States.
    What is much more plausible is they might mount an 
operation on an American target overseas, say, in Kenya. A lot 
easier to do. You don't have the same set of problems of their 
coming in the no-fly list and all the other things you face in 
this country.
    Chairman King. A question for Congressman Hamilton and also 
Ms. Townsend. On the treasure trove of intelligence that has 
been gathered, we are an instant gratification society, and 
virtually the day after the intelligence was found, people were 
asking, what did we find, what did we learn?
    Based your experience at the 9/11 Commission and, Fran, 
your experience in the White House, how long do you think it 
will take us to have a real analysis of the intelligence that 
was gathered, considering I think it is well over a million 
pieces? How long that will it take to get a real analysis of 
that, and where would that lead?
    Ms. Townsend. Mr. Chairman, first you have got to look at 
what is the total amount of material. Let us take out any 
analysis related to the pornography that was found. By the way, 
not a surprising find, not unique to seizures against raids of 
Taliban and al-Qaeda hideouts in Afghanistan. So it was not at 
all shocking to me, but it will take up a lot of space in terms 
of the material.
    When you look at then what is remaining, they have got a 
24/7, my understanding, capability of sort of triaging it, if 
you will. You are already seeing some of the things. What they 
are going to look for are, first and foremost, potential plots, 
and they will act against those immediately, not waiting to 
complete the analysis; second, locational data for high-value 
targets to take advantage of what may be in there, but 
perishable; and then sort of a broader understanding of the 
organization, how they communicate and how they operate.
    This is going to be an on-going process. I think the one 
thing we ought to take confidence in is they won't wait to 
complete it to act on it. They will act on it as they reveal 
the material.
    Chairman King. Chairman Hamilton.
    Mr. Hamilton. I think by all odds the most important thing 
is to identify imminent threats to the United States and our 
allies. So you want to go through the material quickly to see 
if you can identify immediate threats. I suspect that process 
has been pretty well completed.
    Beyond that, of course, intelligence is a very tedious 
business, and you look for bits of information from thousands 
of sources and try to put that information together. That does 
take time; not just a matter of hours or days, but it takes 
months and even years to do it. So it is an extremely difficult 
process, and, of course, all of this is in foreign language and 
all the rest of it.
    I can't predict for you how long it will be before we get 
benefits from the information that we have. You have to keep in 
mind that all of the information you want is never in a single 
source; that is, you have to take this information and compare 
it with information from other sources, and that takes time, 
too.
    So it is a trove. It is an enormous treasure for us. Will 
it benefit us? Almost certainly the answer to that is yes. How 
quickly? I have no idea how quickly it would be. But I think it 
is a great find and kind of a benefit that perhaps we did not 
anticipate when we went in to get Osama bin Laden.
    Chairman King. Thank you, Chairman Hamilton.
    I recognize the Ranking Member Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I would like unanimous consent to enter into the record the 
2011 Grant Program Funding Summary for the House Homeland 
Security Committee.
    Chairman King. Without objection, so ordered.
    [The information follows:]
   Information Submitted for the Record by Ranking Member Bennie G. 
                                Thompson
             fiscal year 2011 grant program funding summary
    Below is a summary of the funding allocations for each program 
which is compared to fiscal year 2010 funding levels.
  <bullet> $526 million--State Homeland Security Grant Program (SHSG) 
        will receive a cut of $315 million, which would result in 
        reduced funding for highest risk States due to the mandatory 
        minimums for States in Sec. 2004 of the 9/11 Commission Act of 
        2007. Each State or territory allocation will be cut between 22 
        to 50% and the new minimum allocation reduced to $5.1 million, 
        down from $6.6 million in fiscal year 2010.
    Additional ``carve-outs'' within the SHSG program received the 
        following allotments:
    <bullet> Metropolitan Medical Response System (MMRS).--$39.3 
            million--a cut of $4.4 million for fiscal year 2010.
    <bullet> Citizen Corp Program (CCP).--$12.4 million--a cut of $2.5 
            million.
    <bullet> Operation Stonegarden (OPSG).--$60 million--a cut of $5.1 
            million.
    <bullet> Driver's License Security Grant Program (DLSGP).--$48 
            million--a cut of $3 million.
  <bullet> $10 million--Tribal Homeland Security Grant Program (THSGP) 
        was the only grant program not cut from fiscal year 2010 
        allocations:
  <bullet> $681 million--Urban Area Security Initiative (UASI) would 
        receive a cut of $169 million, which would reduce the number of 
        Tier 2 urban areas receiving funding under the UASI program 
        from 64 in fiscal year 2010 to 31 in fiscal year 2011. Tier 1 
        urban areas represent the top 11 at-risk and will receive level 
        funding from fiscal year 2010. San Diego was moved up to Tier 
        1. Please see Appendix B for the list of localities funded and 
        those eliminated from the UASI program.
    One additional ``carve-out'' is within the UASI program:
    <bullet> UASI Nonprofit Security Grant Program (NGSP).--$19 
            million--a cut of $38,000 from fiscal year 2010.
  <bullet> $14.1 million--Emergency Operations Center (EOC) Grant 
        Program receives a 75% cut from its fiscal year 2010 allotment 
        of $57.6 million;
  <bullet> $14.1 million--Regional Catastrophic Preparedness Grant 
        Program (RCPGP) would receive a cut of $19.4 million;
  <bullet> $329 million--Emergency Management Performance Grant Program 
        (EMPG) receives on [sic] minor cut of 0.2% or $659,000 for its 
        fiscal year 2010 enacted levels;
  <bullet> $235 million--Transit Security Grant Program (TSGP) would 
        receive a cut of $32.9 million;
    Additional ``carve-outs'' within the TSGP program received the 
        following allotments:
    <bullet> Freight Rail Security Grant Program (FRGSP).--$10 
            million--a cut of $4.5 million.
    <bullet> Intercity Passenger Rail (Amtrak).--$19.9 million--a minor 
            cut of $40,000.
    <bullet> Intercity Bus Security Grant Program (IBSGP).--$4.9 
            million--a $6.5 million reduction. IBSGP is a new carve-out 
            in fiscal year 2011.
  <bullet> $235 million--Port Security Grant Program would receive a 
        cut of $52.9 million.
    Please Note.--The Buffer Zone Protection Plan (BZPP) grant which 
assists State and locals to build security and risk-management 
capabilities and Interoperable Emergency Communications Grant Programs 
were defunded.
 Appropriations Committee Releases Fiscal Year 2012 Homeland Security 
                          Appropriations Bill
                              May 12, 2011
    Washington, DC.--The House Appropriations Committee today released 
its proposed fiscal year 2012 Department of Homeland Security (DHS) 
Appropriations bill. The legislation will be marked-up in subcommittee 
tomorrow, and is among the first Appropriations bills to move to 
subcommittee this year.
    Given the importance of providing adequate funding for the safety 
and security of the Nation, as well as the urgent need to reduce 
spending to rein in the Nation's unprecedented deficits and debt, the 
legislation makes serious strides to focus funding in areas where it's 
most needed, while significantly trimming spending elsewhere. Overall, 
the fiscal year 2012 Homeland Security Appropriations bill provides 
$40.6 billion in total non-emergency funding for the various programs 
and agencies within DHS. This is a decrease of $1.1 billion--or 2.6%--
below last year's level and $3 billion--or 7%--below the President's 
request.
    Appropriations Chairman Hal Rogers made the following statement on 
the legislation:

    ``To address our historic deficit crisis, we must make the most of 
our limited resources and rein in unnecessary and wasteful spending in 
virtually every area of Government--including homeland security. The 
Department's budget has grown at a rapid rate--over 42% since 9/11--and 
while it is critical that we maintain crucial measures to keep our 
Nation safe, we must also protect our country from the very real 
dangers of uncontrolled deficits and debt. This legislation will 
prioritize funding for frontline operations and programs to uphold the 
highest level of National security, while trimming back budgets in less 
essential areas,'' Chairman Rogers said.

    Homeland Security Subcommittee Chairman Robert Aderholt also 
commented on his bill:

    ``Homeland security and fiscal discipline are National priorities 
and the fiscal year 2012 Department of Homeland Security Appropriations 
bill addresses both,'' said Chairman Aderholt. ``The recent storms that 
swept the Southeast and the death of Osama bin Laden serve as sobering 
reminders of our Nation's continued need for robust National security 
and disaster recovery. The bill recognizes the critical importance of 
the homeland security mission--fully funding all intelligence and watch 
listing functions, as well as all frontline personnel. The bill also 
reflects the unquestioned need for fiscal restraint, reduces spending 
wherever possible, and prioritizes taxpayers' limited dollars toward 
the vital security programs that will have an immediate impact on our 
Nation's safety and security.''

Bill Highlights
    Savings and Oversight.--The misleading and inadequate budget 
request from the President for DHS overtly underfunded known disaster 
relief costs of more than $4.9 billion (requesting only $1.8 billion), 
relied on $650 million in increased revenue from fees that Congress has 
not approved, and included undefined and unspecified ``administrative 
savings'' of more than $803 million. In contrast, the committee's 
legislation ignores these accounting gimmicks and provides real budget 
savings, better efficiency, and stringent oversight of DHS spending 
while prioritizing disaster response and the frontline operations that 
most directly and immediately enhance our National security.
    The legislation includes major cuts to programs that have 
underperformed, been ill-managed, or not proven beneficial for the 
cost. Also, the bill requires numerous expenditure plans from DHS in 
order to improve its budget justifications and better align funding to 
tangible security results.
    FEMA State and Local Grant Reform.--The bill includes long-overdue 
reform of the State and Local Grant program under the Federal Emergency 
Management Agency (FEMA), which has been plagued by inefficiency and 
has been unable to demonstrate a measurable return on taxpayer 
investments. These grants often remain in Federal coffers for many 
years--including a current backlog of over $13 billion in unspent 
funds. To address these challenges, the bill reduces the total grant 
funding by $2.1 billion, requires increased measurement, reporting, and 
oversight of existing funds, and permits the Secretary of DHS to issue 
grants in a competitive, merit-based process to prioritize areas with 
the highest risk and greatest need--getting the most out of each and 
every tax dollar.
    Critical Security Operations and Programs.--The committee's 
legislation prioritizes funding for frontline security operations, 
including personnel, intelligence activities, and the acquisition of 
selected essential tactical resources. This includes increasing 
staffing levels of the Border Patrol, Customs and Border Protection 
(CBP) field operations, Immigration and Customs Enforcement (ICE), 
Coast Guard, Secret Service, and other essential security personnel. In 
addition, the bill fully funds all requested increases for intelligence 
gathering activities, including ``watch listing'' and threat 
identification.
    Earmarks.--This bill contains no earmarks, as defined by clause 
9(e) of Rule XXI of the House Rules.
    U.S. Customs and Border Protection.--The bill contains $11.8 
billion for Customs and Border Protection (CBP)--an increase of $443 
million over last year's level. This funding provides for a total of 
21,370 border patrol agents and 21,186 CBP officers, additional 
training and canine units at ports of entry, $149 million for 
Inspection and Detection Technology, and $500 million for Air and 
Marine operations and procurement. The bill increases funding for CBP's 
targeting systems by $15 million to enhance the identification of known 
and suspected terrorists and criminals, and contains a total of $500 
million for border security fencing, infrastructure, and technology.
    Immigration and Customs Enforcement.--The bill provides $5.8 
billion for Immigration and Customs Enforcement (ICE), which is $35 
million above last year's level. This includes $1.7 billion for 
domestic investigation programs, $147 million for international 
enforcement programs, $81 million for the Office of Intelligence, $32.5 
million for the Visa Security Program, and an additional $64 million 
for continued expansion of the Secure Communities program. In addition, 
the legislation includes $2.7 billion--an increase of $27 million above 
the President's request--for ICE detention bed spaces, raising the 
total number of beds to 34,000, the largest detention capacity in ICE's 
history.
    Transportation Security Administration (TSA).--The bill includes 
$7.8 billion for the TSA, an increase of $125 million over last year's 
level, and $293 million below the President's request. These funds will 
be used to sustain the current cap level of 46,000 full-time screening 
personnel, and for explosive detection systems, security enforcement, 
cargo inspections, Federal Air Marshals, and other TSA activities. The 
bill also includes an additional $10 million to address air cargo 
threats. However, the bill does not provide $76 million requested by 
the President for 275 additional advanced inspection technology (AIT) 
scanners nor the 535 staff requested to operate them.
    Coast Guard.--The bill contains $10 billion for the U.S. Coast 
Guard, which is $196 million below last year's level, and provides 
funding for maritime safety and security activities, counternarcotics 
enforcement, facilities and equipment maintenance, and overseas 
contingency operations including operations in the Persian Gulf. Within 
the total, the legislation fully sustains military pay and allowances, 
and provides targeted increases above the budget request for 
communications, tactical training, and acquisition of critical 
operations assets such as small boats and replacement helicopters.
    Secret Service.--The bill includes $1.7 billion for the U.S. Secret 
Service--an increase of $155 million over last year's level. This 
includes $113 million for protective activities related to the 2012 
Presidential Election, and $43 million for information technology 
improvements including cybersecurity and threat assessment 
capabilities.
    Federal Emergency Management Agency.--The bill includes $5.3 
billion for FEMA--a decrease of $1.9 billion from last year's level. 
This total includes a cut of $2.1 billion to State and Local grants (as 
noted above), and an increase of $850 million to the Disaster Relief 
Fund (DRF). The bill provides $1 billion for FEMA's State and Local 
Programs, and includes increased oversight, better prioritization of 
funding to address critical needs and high-risk areas, and a report on 
the expenditure of the current $13 billion in backlogged, unexpended 
grant funds leftover from previous years. The bill fully funds 
Emergency Management Performance Grants at $350 million and provides 
$350 million for firefighting grants. To better address the costs of 
both known and expected disasters, the legislation also includes a 
total of $2.65 billion for the DRF.
    Guantanamo Bay Detention Facility and Detainees.--The legislation 
includes a provision prohibiting funds to transfer, release, or assist 
in the transfer or release of Guantanamo detainees to or within the 
United States or its territories. The provision also prohibits 
immigration benefits to Khalid Sheikh Mohammed or any other detainee.

    Mr. Thompson. Again, we have tremendous experience. I would 
like to kind of put a softball question on you and see how you 
come back with it.
    Given what you know about the threat we face since the 
death of bin Laden, as well as before, are there some things 
that you think we as Members of Congress ought to do that we 
are not doing to keep the threat to the homeland to a minimum?
    I will start with you, Congressman.
    Mr. Hamilton. You always have to be careful when somebody 
says they are throwing you a softball question. It almost 
invariably means it is going to be hard to answer.
    Well, I go back to the basics here. I don't think the 
homeland security agenda is radically changed because of Osama 
bin Laden's death. We still have items that we know we must 
deal with in homeland security that we have not dealt with, and 
they have been on the agenda for 10 years. I have mentioned the 
radio spectrum issue, the ability to communicate, and the 
ability to have unity of command.
    But Congress has to get its act together in both 
intelligence and homeland security. You folks are part of the 
problem because you haven't put your act together with regard 
to homeland security oversight and with your intelligence 
oversight.
    So rather than looking far away at a lot of things and 
trying to come up with new ideas as a result of this dramatic 
success, I think you have to kind of go back to the basics that 
have been on the agenda for quite a long period of time. I 
think what the Chairman said in his opening statement, and I 
think several of the witnesses mentioned, for 10 years now 
after 9/11, the American people have moved on to all kinds of 
other interests and focuses, and so there is a kind of 
complacency and lack of urgency that sets in.
    What can Members of Congress do? I think Members of 
Congress can emphasize to their constituents again and again 
that this is still a very serious threat to the United States, 
and we must not become complacent. These people will find a way 
to attack us. I have very little doubt that we will be attacked 
again in the future. We hope not. We have been very fortunate; 
maybe more than fortunate. We have been very good protecting 
ourselves. But the threat is still there. So what can you do? 
You can keep people reminded of the fact that this threat is 
still alive.
    Mr. Thompson. Thank you.
    Ms. Townsend.
    Ms. Townsend. Congressman, I appreciate the question, and I 
am going to give you three specific things that I think are 
available for you all to really help with. They are not new, 
but we haven't adequately addressed them.
    What do we know about al-Qaeda's targeting? They are 
obsessed with the transportation sector of our infrastructure. 
We have not done enough when it comes to rail security. We 
still don't have 100 percent of cargo screening despite this 
threat with the computer cartridges. So renewed emphasis and 
investment on transportation security, including rail and cargo 
and infrastructure generally, is very important.
    Second, it is about technology. You heard me talk about the 
need for both the Government investigators and intelligence to 
have the resources, the capability that they need to not to 
keep up with the bad guys, but to be ahead of them. Oftentimes, 
even when they have the technology, the legal authority to 
actually use it effectively lags behind. Of course, Congress 
can help with that. I would reemphasize, Congressman Hamilton, 
the need for bandwith for first responders.
    Last is the only people who can really effectively address 
what we call the low-probability, high-consequence event--
radiological, nuclear, biological--is the Federal Government. I 
worry, because we have talked about it but not seen an attack, 
that we haven't done enough. This is one of these we don't want 
to think about it because of the horrible consequences, but, in 
fact, we know from their own statements they are committed to 
an anthrax capability, they are committed to obtaining nuclear. 
I worry 10 years after 
9/11 that the resources and commitment, whether it is the 
Strategic National Stockpile or other such programs that help 
prevent, detect, or respond to such things, are inadequate.
    Mr. Bergen. I would just say that I think it is important 
for the committee to communicate to the American people that 
the threat is not just coming from al-Qaeda. When I say the 
threat, I mean the threat to the domestic American homeland. 
Pakistani Taliban recruited and trained Faisal Shehzad. The 
Islamic Jihad unit, which is sort of an Uzbek group, recruited 
guys to attack Ramstein Air Force Base in 2007. They 
accumulated 1,600 pounds of hydrogen. That are now operating in 
an al-Qaeda-like manner.
    Mr. Kohlmann. Thank you, sir. I think that law enforcement 
in this country has made tremendous leaps and bounds in terms 
of their evolution since 9/11. But the FBI and Department of 
Justice are still grappling with some issues relating to 
virtual sanctuaries. We have gone after al-Qaeda in their 
physical sanctuaries in places like Afghanistan and Pakistan, 
but right now there are virtual sanctuaries for al-Qaeda on the 
internet where al-Qaeda is able to put bomb-making 
instructions, recruit people, communicate with each other out 
of the view of the American public.
    What most people wouldn't realize is that top-tier al-Qaeda 
members in Afghanistan on the frontline are chatting with each 
other over social networking forums that are hosted in western 
countries by major corporations. That can't go on. So I think 
one of the roles that the U.S. Congress can play is, No. 1, to 
put pressure on law enforcement to continue to reform itself, 
to continue to acquire high-tech tools, which will put the FBI 
one step ahead of cyber jihadists. I think also, very 
importantly, is to put pressure on the private corporations 
that are serving as the unwitting hosts for this material. 
Obviously, YouTube and Facebook don't want to have anything to 
do with al-Qaeda. But I think it is time that both of these 
companies, along with hosts of others that are responsible for 
hosting al-Qaeda material, make more of an effort than simply 
try to rely on volunteer efforts by people who are opposed to 
the message of al-Qaeda, which is what they are doing right 
now. It is time that these companies take the responsibility of 
making sure that their resources are not being misused to 
recruit people like Faisal Shahzad, like Umar Abdulmutallab and 
push them to join al-Qaeda.
    Mr. Thompson. Thank you very much. You hit the softball.
    I would like, Mr. Chairman, unanimous consent that Mr. 
Green, former Member of the committee, be allowed to sit for 
this hearing.
    Chairman King. Mr. Thompson, obviously I will not object. 
But we are considering charging Mr. Green rent for all the time 
he spends with us.
    Recognize the gentleman from Texas, the Chairman of the 
Subcommittee on Oversight, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. I would like to first 
take this moment just to publicly commend the Navy SEALs, the 
intelligence community, particularly the analysts in both NSA 
and CIA for a job well done in bringing him to justice. They 
are really the unsung heroes whose names and faces the American 
people may never know.
    With that, this hearing that for us is the impact of al-
Qaeda after the killing of Osama bin Laden. There was a debate 
going on as to where he was located. Was he in a cave? Was he 
operational? Was he just a figurehead? Most people thought he 
was more of an inspirational figurehead. From what I have seen, 
that debate may be changing somewhat.
    There were 27 terror plots over the last 2 years. I think 
my first question is, of those 27, how many of those do you 
believe may have been inspired by those like al-Awlaki who 
inspired Major Hasan just north of my district in Fort Hood, 
and other franchise operations, versus the bin Laden operation? 
We know with the predator drones that the command and control 
structure was greatly decentralized and damaged.
    So with that, to me, that goes to the core of the question: 
If you analyze the last 2-year terror plots, how many of those 
do you believe were actually inspired or motivated by Osama bin 
Laden?
    Mr. Kohlmann. I would just say this: I work as a consultant 
on behalf of the FBI, and I evaluate evidence and I serve as an 
expert witness in terrorism trials here in the United States. I 
have yet to see a single homegrown terrorism case in the United 
States that did not include at least some material by Anwar al-
Awlaki. His recordings pop up in basically every single 
homegrown terrorism case that is litigated by the Department of 
Justice in this country; and, frankly, it appears in every 
single case outside of this country as well.
    That doesn't mean that bin Laden isn't influential, either. 
His materials show up, too. The difference between bin Laden 
and al-Awlaki is that al-Awlaki may not have military 
credentials, but he speaks fluent English, he is extremely 
charismatic, he is a good speaker, and he has religious 
credentials which I guess take the place of the military ones. 
He won't ever replace bin Laden, but he is a tremendously 
influential figure. There is absolutely no doubt that he 
continues to radicalize people. People right now, at this very 
moment, are being arrested in the United States with 
connections to al-Awlaki, have tried reaching out to al-Awlaki. 
Very dangerous people.
    Mr. McCaul. Most of these were homegrown radicalization 
cases inspired by al-Awlaki. Does anybody else on the panel 
have any comments on that?
    Mr. Bergen. In the U.S. military, there is a document 
called Commander's Intent, which means that General Petraeus 
doesn't have to tell a soldier in Kandahar what to do, and bin 
Laden was in charge of Commander's Intent. So al-Awlaki, the 
reason he is important in these cases is because he speaks 
English. It is that simple. If he was speaking in Arabic, he 
wouldn't be that important. It is not that he is a significant 
religious figure, or as Mr. Kohlmann said, a significant 
military figure. It is that he is communicating in colloquial 
English.
    Al-Awlaki is no Osama bin Laden. He can't change the 
strategic intent of al-Qaeda. At the end of the day, al-Qaeda 
in the Arabian Peninsula is a branch of al-Qaeda Central, 
operating to fulfill bin Laden's strategic guidance.
    If the new leader of al-Qaeda came along and said we are 
not going to attack the United States anymore, you know, al-
Awlaki would still be out there and he may take a different 
view. But at the end of the day, al-Awlaki is not in charge of 
this movement. He is a number--you know, not insignificant 
leader of a branch of the larger mother ship.
    Mr. McCaul. I agree with that assessment. I always said the 
death of bin Laden marked the beginning of the end. Because we 
couldn't truly win the war on terror until we killed bin Laden. 
So that is why I believe this is so significant.
    Mr. Hamilton. Mr. McCaul, if I may say so. I don't have a 
detailed analysis of the 27 that you mentioned, but my answer 
to the question of how many were inspired by Osama bin Laden 
would be all of them. He was a symbolic figure, he was an icon, 
and he had enormous influence here. I can't imagine any of 
these terrorists striking without paying some homage and 
allegiance to him. This man was extraordinarily charismatic.
    Sitting in the 9/11 Commission listening to testimony, I 
kept asking myself, how in the world could a man persuade 19 
young men to go to their deaths? Now, you talk about persuasive 
powers. That is persuasive power. I know it is a different 
environment, a different religion and all the rest of it, but 
the instinct for self-preservation is pretty strong. He 
persuaded 19 people to kill themselves. That is the kind of 
authority and charisma he had, in a very evil way of course. He 
inspired all of them.
    Chairman King. I will go to another gentleman from Texas, 
Mr. Cuellar.
    Mr. Cuellar. Thank you very much, Mr. Chairman. I want to 
thank the witnesses for being here with us.
    You know, when somebody comes into the United States, 
Border Patrol will classify them as Mexicans or OTMs. That is, 
other than Mexicans. The large number of folks who are coming 
into the United States are Mexicans coming in for economic 
reasons. Then after that you have Central Americans, and then 
you have other folks. Traditionally, that is what the numbers 
have been with the Border Patrol.
    There was a CRS report that said that--and I am quoting: 
``The sheer increase of non-Mexicans, the OTMs, coming across 
the border makes it more difficult for United States Border 
Patrol agents to readily identify and process each OTM, thereby 
increasing the chance that a potential terrorist could slip 
into the system. Moreover, there is no reliable data concerning 
how many OTMs may evade apprehension and successfully enter the 
country legally across the country.''
    Then CRS raises a couple of potential issues. One potential 
issue for Congress is whether to increase in OTM apprehensions 
poses a threat to National security. Then another potential 
threat, according to the CRS, for Congress, is the indication 
that hundreds of people that come from countries known to 
harbor terrorists or to promote terrorism are caught trying to 
enter into the United States illegally across the land border.
    If you look at the handout out there, and this is OTMs, the 
OTM members, you should have a handout before you. This is not 
Mexicans. This is OTMs. The large number of them are coming in 
from Central America, 22,360. This is for fiscal year 2011. 
Then you have India, and then you have South America. By South 
America, you are talking about all the countries of South 
America. Then China. Then Romania.
    The second handout deals with just focusing not on the 
Mexicans or the Central Americans, but this is the rest of the 
OTMs. India in the fiscal year 2011 had 1,662, more than the 
1,660, which includes all of South America. Every country put 
together came in from there. Then you have China, and then you 
have Romania.
    Now, my question is, what sort of issues does this bring 
up?
    Keep in mind, I think you might be familiar, India and 
Guatemala, I think it was back in 2009, entered into some sort 
of agreement where they have a non-visa, or waiver of visas, 
going into Guatemala. So maybe that is a pipeline that just 
gets them coming in, like Brazil did some years ago.
    But my question is, when you have folks coming in from, 
let's say, India and the area that they come, what sort of 
potential issues does this bring when we talk about threats to 
the United States, if any? To any of the panelists.
    Ms. Townsend. Seeing no one else step up to this one. 
Congressman, this has been, as I am sure you know, during my 
time in the Bush administration, I was a vocal advocate for 
comprehensive immigration reform. I view comprehensive 
immigration reform as a necessary, fundamentally necessary 
thing to protect our National security.
    During my time in the Government, there had been some 
intelligence to suggest that al-Qaeda looked at this pipeline 
coming across the U.S.-Mexican border. I will leave the 
politics to those of you for whom it is a profession, and say 
to you that I believe that the lack of comprehensive 
immigration reform is a vulnerability. I would prefer to see, 
as it was true in my time in Government, to have the Border 
Patrol and the Immigration Service focus their resources on 
people who are going to do us harm.
    That does not mean I think we don't have to address the 
phenomenon of illegal immigration in a fundamentally fair and 
basic dignified way, but I believe that we need comprehensive 
reform.
    Mr. Hamilton. May I just add my word in support of 
comprehensive immigration reform. We have to begin to look at 
immigration through the prisms of both the National economy. We 
need a lot of people at the top of the skill level and at the 
bottom. We have to begin to look at immigration as a National 
security matter as well. That means quite a change of 
perspective on immigration for what we have had in years past.
    At the border, you would know more than I, but I think we 
have increased our manpower doubling it over a period of a few 
years, the number of Border Patrol agents. I think we have made 
substantial progress in letting illegal people into the 
country. Obviously, we have to continue that for a long time to 
come. We have still got to deploy a lot better technology. We 
have got to get better on this US-VISIT exit system that I 
mentioned in my testimony today. So there are a lot of things 
that I think still need to be done.
    But I very much agree with Fran's observation about 
comprehensive reform. You cannot deal with immigration on a 
piecemeal basis. You cannot do it.
    Chairman King. The time of the gentleman expired. Would the 
gentleman ask unanimous consent to have his exhibits placed 
into the record?
    Mr. Cuellar. Yes, I do. Thank you.
    Chairman King. Without objection.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman King. Also, before I recognize the next 
questioner, I think we ought to acknowledge the fact that Mr. 
Long is not here today; that he represents Joplin, Missouri, 
where they lost so many lives and so much property. So all of 
our thoughts and prayers are with Congressman Long today.
    With that, I recognize for 5 minutes the distinguished 
gentleman, Dr. Broun, from Georgia.
    Mr. Broun. Thank you, Mr. Chairman.
    This morning on ``Washington Journal'' on C-SPAN, I had 
referred to this hearing as a huddle between decisionmakers and 
the experts so that we can come up with a game plan of where we 
go from here. I appreciate you all being here. I appreciate 
your valuable testimony. I agree with the Chairman, it is 
absolutely essential that the American public not become 
complacent. I think we have, Mr. Chairman, become complacent in 
very many ways.
    I had a number of callers talk about various things that 
and even just dismissed the potential of al-Qaeda or other 
entities being a danger to this country. I think it is 
absolutely critical that the American public understand that we 
have a clear and present danger. So I appreciate you all being 
here to talk about that.
    Now, I worry about the line of succession that the 
elimination of bin Laden has put in place. Also, the current 
climate within al-Qaeda poses numerous concerns, most regarding 
the internal power struggle not only within al-Qaeda, but the 
associated groups.
    Mr. Kohlmann talked about some of the al-Qaeda central 
people and al-Zawahiri as possibly being the successor to bin 
Laden. I would like to hear from the other members of the panel 
about who you all think might replace bin Laden as being the 
central figure, and also whether the associated groups, AQAP 
and the leadership there and the other entities, how do you all 
see this sorting out? What can we do as Members of Congress and 
what can Government do as we see this power struggle within the 
al-Qaeda and al-Qaeda AP and other associated groups?
    Mr. Hamilton. Dr. Broun, I believe that al-Qaeda is now 
searching for another leader. I think the most likely leader, 
so far as I know, and I yield to other members of the panel 
here who may know more about it than I. But I think the most 
likely is Zawahiri is probably going to be the last man 
standing in the struggle. I think there are internal 
differences within al-Qaeda. I don't think we should 
underestimate him. He is ruthless, he is a religious zealot 
much like Osama bin Laden. He is not a lightweight. He has been 
instrumental in al-Qaeda's strategy, its development, its 
evolution over a period of time. I think it would be a very 
grave mistake to think that, with the removal of Osama bin 
Laden, they will be led by a feckless leader.
    So I think if the American intelligence community now will 
be spending an enormous time trying to answer your question as 
to who emerges. But from where I sit, he is the most likely guy 
to emerge, and we must not underestimate him.
    Ms. Townsend. Congressman, I agree with that. I think one 
of the key things to watch, there has always been a tension 
about leadership residing with the Egyptians because of just 
historical differences that I will leave to Peter to discuss. 
But the fact that Zawahiri and Saif al-Adel, the interim 
leaders, are both Egyptians suggests that there will continue 
to be this tension, this struggle between the Egyptian members 
and the Gulf Arab members. So what that posits is continuing 
tension between, or some increasing tension, between al-Qaeda 
central and their affiliates, the strongest of which you have 
heard us talk about today, al-Qaeda in the Arabian Peninsula.
    It reminds me of the tension we saw between al-Qaeda core 
when that was bin Laden, and another affiliate, al-Qaeda in 
Iraq, which was Zarqawi. Intelligence was replete with examples 
of an on-going tension about vision. Zarqawi was a very strong 
personality. He pushed back on al-Qaeda central. It was a 
bonanza of targeting opportunity, and we all know Zarqawi wound 
up targeted and killed as a result of it.
    One would hope that al-Awlaki, feeling an opportunity here 
to push back, that there will be this increasing tension 
between Zawahiri and what remains of the al-Qaeda core and the 
affiliate al-Qaeda in the Arabian Peninsula. Because if that 
tension increases, it provides a tremendous opportunity for the 
U.S. Government.
    Mr. Bergen. I totally agree with what Representative 
Hamilton and Fran Townsend have just said, and I would add one 
minor additional note.
    Bin Laden was from Saudi Arabia. As you know, his family is 
from Yemen. For religiously zealot people inside of al-Qaeda, 
that is very significant because of the Holy Land, and they 
want--the reason it is controversial to have an Egyptian is not 
simply because there are disputes about strategy and targeting; 
at the end of the day, the Egyptians really want to just have 
kind of a Taliban-style government in Egypt. They are less 
interested in attacking the United States. It is also about the 
idea of having somebody from the Holy Land.
    So I think there actually, as Fran has outlined, some real 
opportunities for the intelligence community and the U.S. 
Government to kind of be aware of the fractures that are going 
to develop, and perhaps even exploit them if there are 
opportunities.
    Mr. Kohlmann. If I might quickly add. Towards your second 
question about AQAP, about what can be done about AQAP, I think 
the answer to that goes back to a comment that was made by 
Anwar al-Awlaki, of all people, recently.
    Al-Awlaki pointed to the current wave of instability in 
Yemen. He laughed and he said, of course this is going to 
accrue to our benefit. Of course this is going to accrue to al-
Qaeda's benefit.
    I think that gives you the answer, which is that if you 
want to damage AQAP, the answer is not just drone strikes, it 
is not just U.S. special forces operations. A large part of 
this is contingent upon stability returning to Yemen. Political 
stability and stability that involves the tribes. Because right 
now it is the tribes that are providing protection to people 
like Anwar al-Awlaki, Qassim al-Rimi, the leaders of AQAP. They 
are being hidden by Yemenis, and you have got to convince them 
that it is not in their interests to work with al-Qaeda. Right 
now there are large swaths of central Yemen that are outside of 
government control. It is the exact nightmare scenario that we 
have been trying to avoid in Afghanistan and Pakistan, and it 
is writ-large in the heart of the Middle East.
    Mr. Broun. Thank you, Mr. Chairman. I will yield back.
    Chairman King. I would advise the Members, I understand 
that Chairman Hamilton will have to leave at 11:45 and Ms. 
Townsend at 12 noon. So I would ask Members to try to keep it 
within 5 minutes or phrase their question in a way that allows 
for a 5-minute answer.
    The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. To all 
of the witnesses, let me thank you for your service. I might 
want to join you, Ms. Townsend, in offering our deepest 
sympathy to our friends and neighbors and fellow Americans. It 
seems that it is an unending attack of tornados in the Midwest. 
But our deepest sympathy to them.
    Again, in Homeland Security, thank all of you for 
confirming the significance of the demise of Osama bin Laden as 
well as the intelligence.
    I want to thank my Chairman, and I hope that will allow me 
to be able to get 2 or 3 or 4 or 5 minutes after the red light 
comes on.
    Chairman King. As much as I would love to do that.
    Ms. Jackson Lee. I want to thank him. He has been 
consistent, along with my Ranking Member, on the focus, Mr. 
Hamilton, Chairman Hamilton, as that you said. We have got to 
get our act together. We have got to synergize, integrate the 
oversight of Homeland Security with all the other agencies that 
are doing so.
    So I might mention to my Chairman that I have introduced 
H.R. 1900, the Surface Transportation and Mass Transit Security 
Act. We did it last year with bipartisan support. I frankly, if 
I might, I was getting ready to say, I might, stay up nights 
because I serve as the Ranking Member on the Transportation 
Security about the vulnerabilities of our rail system, Federal 
air marshals and utilization of them on many of our flights, 
and the whole issue of air traffic controllers, though they may 
have challenges sleeping, if you will, that is part of our 
security. Many people don't remember how air traffic 
controllers were so intimately involved on 9/11.
    So let me just pose these questions which are related but 
yet not. That is, help us understand this fascination with 
transportation, but also rail. In fact, I just want to stick on 
rail. Most of the times we hear our communities saying I don't 
want hazardous materials coming through, their fear of various 
incidents that may impact them, explosions, et cetera. But our 
rail system, both what it transports along with people I 
believe is a serious concern. I would appreciate comment about 
us really focusing on rail security as the 9/11 Commission 
suggested.
    Then finally, my second question is, I co-chair the 
Pakistan Caucus, have gone to Pakistan on a number of 
occasions. Pierce into the Taliban, the Taliban of Afghanistan, 
the Taliban of Pakistan. Do they leap to the United States? Do 
they continue to terrorize the Pakistani people? You are right, 
I am amazed at the attack on police and the ability to get on 
rank-and-file but as well the hierarchy of the Pakistani 
military. Do we give them the money? Do we give them the social 
justice money? Where will they take their terror? Will it come 
to the United States? Chairman Hamilton, if you can go down. 
Hopefully I will get to all of you.
    Thank you, Mr. Chairman.
    Mr. Hamilton. Well, I think on the first point the 
fascination with rail transportation goes back to the 
fundamental intent of al-Qaeda.
    Look, they are very sophisticated people. They understand 
symbolic targets. They understand where Americans congregate. 
They understand how best to disrupt. The transportation of the 
United States has enormous vulnerabilities. Rail, certainly. 
But other forms, too.
    So I attribute their fascination with it to, No. 1, their 
skill, I guess, in analyzing our vulnerabilities; and, No. 2, 
their desire to kill as many Americans as possible and to 
disrupt American life as much as possible.
    On the second question, you were raising the question about 
Pakistan?
    Ms. Jackson Lee. Well, do the Taliban translate to attack 
on the United States?
    Mr. Hamilton. I think I will yield to the others on that 
question.
    Ms. Townsend. Yes, ma'am. Look, the obsession with 
transportation, as you pointed out, is writ-large. We saw the 
tragedy of using aircraft. But trains represent a real 
opportunity for them. By the way, also ferries. I mention that, 
because as the Chairman knows, ferries are very big in terms of 
transportation into Manhattan in the morning at rush hour.
    But back to rail. We saw the attacks in London and Madrid. 
We know that they continue, if nothing else, because of the 
Zazi Najibullah case against the New York City subways. They 
are not going to stop. It represents, because it is an open 
system--of course, if you close it, it loses its effectiveness 
in a place like an urban area like New York. But its open 
system represents its vulnerability. The New York City Police 
Department has done a tremendous job with sort of unpredictable 
presence in different subways. None of that is 100 percent. But 
I really think this goes back to when we talk about the grant 
program--and I have not always been a huge fan of the Homeland 
Security grant program. But this is a place where we can 
actually incentivize State and local authorities to take 
ownership of this issue and spend their money in a place that 
really matters not just in the locality but writ-large.
    Evan Kohlmann mentioned the priority of attacking our 
economy. What better way than to attack our transportation 
system?
    The Pakistan Taliban does represent a direct threat to the 
United States. We saw the Times Square attempted bombing, and 
they made threats. I think we have got to learn to take these 
terrorist groups at face value. They may not have tremendous 
capability, but they have enough to come here and kill 
Americans.
    Mr. Bergen. Just to add to that point. A canary in the mine 
on the Pakistani Taliban is they sent suicide bombers to 
Barcelona in January 2008, and that is according to both 
themselves and Spanish prosecutors. We should have taken, as 
Fran--sometimes when people say that, we should take these 
threats seriously. They, of course, also did a joint operation 
in Khost that killed the 7 CIA employees and contractors.
    What to do about Pakistan is obviously an enormous question 
before many of the Members here. It is a very complex 
relationship, and it would be very tempting perhaps to say, 
well, we are just going to cut off aid. This would be 
psychologically satisfying for about a week. At the end of the 
day, they are the fifth-largest country in the world, about to 
be, with nuclear weapons, headquarters of al-Qaeda and the 
Taliban, and we need them.
    Just one final point on this. More Pakistani soldiers have 
died fighting the Taliban than U.S. and NATO soldiers combined, 
and this is just something that is very important for us to 
recognize and understand when we talk to them and when we think 
about how to deal with them.
    Mr. Hamilton. I might just add that if you are getting into 
the U.S.-Pakistan relationship, this is already one of the most 
difficult bilateral relationships in the world. We are not 
going to solve the problems in this relationship. We just have 
to manage them. There are so many voices I have heard coming 
out of Capitol Hill to cut aid to Pakistan. I would be very, 
very careful about that.
    We have enormous interests in Pakistan. We have referred to 
them already here this morning: The nuclear weapons. We use 
Pakistan to transit much of our materials and people going into 
Afghanistan. The nuclear weapons, of course, are huge.
    In the end, we have to focus on the long-term interests of 
the United States and not our short-term frustration. There are 
plenty of reasons to be frustrated with the relationship now, 
but that long-term relationship remains very valuable to us. I 
think it remains valuable to the Pakistanis as well. All kinds 
of problems in it, all kinds of questions arise. Sometimes I 
think Admiral Mullen, the chairman of the Chief of Staff, has 
been commuting to Pakistan. He goes over there so frequently to 
try to work out these problems. It just indicates the delicate 
nature of the relationship. It is a very difficult one, but we 
have got to work through it.
    Mr. Kohlmann. If I can just very quickly comment about the 
Pakistani Taliban. My company has an office in Pakistan. One of 
the subjects we spend most time on is the Pakistani Taliban. We 
have been interviewing them in recent days. We have been 
polling them in their opinions.
    I can tell you this: No. 1, the Pakistani Taliban is far 
more sophisticated than people give them credit for. They are 
recruiting people right now, Americans, using YouTube. They 
have not done this once, they have done this multiple times. 
They are recruiting people using Facebook. They are 
deliberately trying to come up with terrorist plots targeting 
the United States. They are aggressively trying to target the 
United States. Perhaps most disturbingly, unlike the Afghan 
Taliban, the Pakistani Taliban are forging very close 
relationships with al-Qaeda, with Arab Afghan al-Qaeda 
militants, to the point where as has just been suggested by 
Peter Bergen and I believe others, that the Camp Chapman attack 
that took place in 2009, there is a substantial degree of 
evidence indicating both the Pakistani Taliban and the Haqqani 
network played a direct role in that attack.
    It raises a lot of questions. It raises questions both 
about the Pakistani Taliban and their reach into the United 
States. It also reaches the inevitable question about what is 
the relationship between the Pakistani Taliban, the Haqqani 
network, and the ISI, the Pakistani Intelligence Service. Those 
questions have yet to be fully resolved. But as long as you 
have terrorist attacks being directed at U.S. targets, 
including U.S. civilians, by a group that might have ties to 
the Pakistani Intelligence Service, I think it is worthy to 
look into those questions and resolve them. Because as much as 
Pakistan is a critical partner, I don't think we can allow 
terrorist groups to establish bases with the say-so of the ISI.
    Chairman King. The gentleman from Minnesota, Mr. Cravaack, 
is recognized for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman. Thank you very much 
for being here today. This has been quite enlightening. So 
thank you for your comments.
    First off, being a retired Navy captain, if you focus on 
the current war, you are missing it altogether. We need to 
focus on the next war. What we are seeing now, as Mr. 
Kohlmann--cyber jihadists, I truly feel the previous notion of 
asymmetric warfare, we have gone way beyond that into 
something, a new realm, a new difference of what we are 
actually seeing today.
    Ms. Townsend, also we are at a war without borders, and I 
very much appreciate your comments regarding the lone wolf. In 
quickly reviewing your background, I would like you to comment 
a little bit on that, because one of the votes we will be 
taking very soon is regarding three components of the PATRIOT 
Act. I was wondering if you could comment on that, if you 
believe that these are necessary vehicles to make sure that we 
can protect Americans within the United States without 
jeopardizing any Constitutional rights that American citizens 
would have.
    Ms. Townsend. As you know, Congressman, the lone wolf 
represents the greatest challenge to Federal investigators and 
local authorities. It is unpredictable, it is difficult to 
identify in advance, unlike an organization where people have 
got to talk to one another and plan. So I believe that those 
provisions in the Patriot Act are essential to the FBI's 
continued ability to effectively do these investigations and 
identify the threats.
    To the extent--I can tell you during my time in the White 
House when there was the initial renewal of the PATRIOT Act. To 
the extent there are concerns, there are procedural mechanisms 
for oversight and reporting that ought to give people the 
confidence and the courage to vote to extend the PATRIOT Act.
    Mr. Cravaack. Mr. Hamilton.
    Mr. Hamilton. I support the provisions in the PATRIOT Act 
as well, and I think they should be extended. Now, obviously, 
what has happened since 9/11 is the power of the Government has 
expanded dramatically in terms of intrusion into the lives of 
people. For necessary reasons, I think all of us have supported 
that expansion of power. These provisions, I think, Fran, I am 
correct in saying, just kind of bring you up to date in terms 
of your ability to keep track of these bad guys.
    Having said all of that, may I also put in a plug for the 
Privacy and Oversight Board, because I think that what you have 
had over the period of the last decade is this environment in 
which the security people win every argument, and for obvious 
reasons, because we are very deeply concerned about our 
security. But there is not a sufficient pushback on the side of 
the civil liberties and privacy. That voice needs to be 
strengthened, I think, within Government across the board, and 
especially with regard to the intelligence agencies.
    So I want a strong PATRIOT Act, but I also want a 
counterbalance to that with a Privacy and Oversight Board, and 
I want the President to get that thing up and moving.
    Mr. Cravaack. Thank you, sir. I appreciate it.
    Mr. Bergen, in your testimony, you stated that Pakistan 
Taliban in the tribal regions has been successful in attempts 
to attract Western and American recruits and poses a threat to 
Americans. Obviously, how much cooperation of the Pakistani ISI 
are you seeing? Do you think that the relationships can be 
salvaged moving forward?
    Mr. Bergen. I think, Representative Hamilton, I was 
surprised when he said one of the wisest things possible about 
this, which is: We are not going to solve our relationship with 
Pakistan; we are going to have to manage it.
    As a point of information, four ISI buildings have been 
attacked by the Taliban. So the ISI has a very complex 
relationship with the Taliban.
    Are we getting what we want from them? No. Is the Pakistan 
government doing quite a lot? Yes. Serious military operation 
in Southern Waziristan in 2009 unlike previous operations, 
serious operation in SWAT in 2009 as well.
    So the enemy of the perfect is not the reasonably okay. 
What we are seeing right now is I think overall reasonably 
okay. Could it be better? Yes. Will it get better? I am not 
sure.
    Mr. Cravaack. I appreciate your comments and the amount of 
soldiers that have been killed in action against the Taliban. 
That was quite telling.
    Sir, I have 21 seconds left. So I yield back.
    Chairman King. I thank the gentleman for his prudence. With 
that, I am pleased to recognize the gentleman from Michigan, 
Mr. Clarke.
    Mr. Clarke of Michigan. I appreciate all of your collective 
testimony. It is apparent that Osama bin Laden was a key figure 
in global terrorism. His death has dealt a severe blow to al-
Qaeda. But the terrorist threat to our country still remains, 
but it increasingly is coming from within the United States.
    I represent metropolitan Detroit, the Detroit sector 
border. Many times our first responders, local police, and fire 
still can't communicate with their Federal counterparts or 
their Canadian counterparts. Many of you have mentioned the 
issue of interoperable communications and how that is going to 
be important for us to be able to help address this terrorist 
threat. We currently have a situation where our radios can't 
talk to each other.
    Now, I do thank the Department for releasing prior 
allocated money, $4 million to Wayne County recently. That will 
help us upgrade our radio system. But even still, our State and 
local authorities don't have the revenue to provide their 
resources and equipment for our first responders. Even in the 
proposed 2012 budget for this very Department, it is the 
Homeland Security grants that have been proposed to be cut by, 
I believe, $2.1 billion compared to 2011 levels.
    So all of this begs this question then: How do we best 
prepare ourselves to deal with the threat of terrorism that 
comes from within the United States? Where do we get the money? 
Many have raised that the death of bin Laden poses the 
opportunity to reassess our National security goals. My point 
and my question is this: That the assessment could also involve 
reevaluating our mission in Afghanistan to redirect a part of 
our military aid that is currently going to Afghanistan, a 
total of over $100 billion this current year, and to redirect 
some of that back to the United States to homeland security to 
protect ourselves from the threat that is increasingly coming 
from within the United States. If any of you have any comments 
on how we can best do that. Reassess our mission in 
Afghanistan. Use some of the money that we are, I was going to 
say spending, but it is more accurate that we are borrowing, to 
invest in the military operations in Afghanistan, and to better 
invest a small portion of that to this budget, the homeland 
security budget, as a way of better protecting the American 
people at home by investing those funds right here at home.
    Mr. Hamilton. Congressman, I believe your priority is the 
correct one. That is to say, we have got to get the ability to 
communicate at the scene of the disaster. That is so 
fundamental and so basic. I don't see how it can be argued 
against.
    Now, your question relates to, where do you get the money 
to do it? I am not an expert on the Federal budget. It involves 
a lot of questions, what money is in the pipeline that is not 
being used, for example, that might be available.
    You raised the question of Afghanistan. My own personal 
view with regard to that is that the American people are 
putting Afghanistan and Iraq in the rearview mirror, and they 
have already made up their mind pretty much that the United 
States should begin to withdraw. I don't think the question 
today is whether or not you should pack up and leave. That is 
not going to happen nor should it. I don't think the question 
is whether you are going to achieve victory in Afghanistan. 
Victory is very hard to define and I don't think that is in the 
cards. I think American policy increasingly will focus on the 
question of: What pace do we withdraw from Afghanistan? That 
will create some funds obviously there. But it is not clear 
that you can take those funds and immediately put it in some 
domestic priority.
    The question also is that as we withdraw our forces there--
this may sound contradictory, but I don't think it is--how can 
we continue to help Afghanistan to achieve some of the goals 
that we have a stable Afghanistan obviously is more in our 
interest than one that is chaotic.
    So I think there is a renewed interest in this, and I think 
the operational question on policy is really the pace of 
withdrawal at this point. Will it create some funds? Yes, I 
think it will. That is probably a good thing. But that doesn't 
necessarily mean you can take those funds and put it into the 
question of communication.
    The question of communication at the scene of the disaster 
is a highest priority. If you cannot communicate at the scene 
of the disaster, people lose their lives as happened in New 
York, as happened in Katrina. This is a priority concern. This 
is money that has to be found in order to solve this problem. 
It is frustrating to me beyond measure that 10 years after 9/11 
this obvious priority has not been fully met. I know some 
progress has been made, I know some money has been made 
available. But we are still not at the point where you can get 
a seamless communication at the scene of the disaster, which is 
absolutely what is necessary.
    Ms. Townsend. Let me only add, I agree wholeheartedly and 
enthusiastically with what Congressman Hamilton said. 
Certainly, if he is not an expert in the Federal budget, I am 
far behind him.
    So, one, I think we can precipitously withdraw from 
Afghanistan, as the Congressman said. I think as we begin to 
withdraw down, you are going to find there are additional funds 
available.
    Let me make what I think is an unpopular observation. The 
responsibility, while heavy on the Federal Government, to solve 
this problem, and as the Congressman said, it should have been 
solved by now, it is not unique to the Federal Government. My 
concern--I mentioned earlier about grant programs. My concern 
about grant programs is that what happens is the States then 
abrogate their own responsibility to set aside funds, to make 
investments in these sorts of things because they rely heavily 
on the Federal Government.
    Frankly, it is clear across the country during this time of 
fiscal stress that States have not responsibly managed their 
own budgets. Frankly, I do think that this has got to be a 
priority not only for the Federal Government but with governors 
when they are looking at their own State budgets.
    Mr. Hamilton. The homeland security program ought not to be 
a revenue-sharing program. We recommend that you are not just 
handing out money to State and local governments. They need 
money for all kinds of things, some of which are valid and some 
of which are not. But I think one of the positive things is 
that in the appropriators' bill, they award grants without 
regard to the minimum allocations to lower-risk areas. In other 
words, they followed through on one of the recommendations of 
the 9/11 Commission, which is to allocate funds on the basis of 
risk, not just hand out the money everywhere. There are certain 
areas of the country. New York City is one, but there are 
others, that are far--Detroit, far higher risk than rural 
Indiana where I come from. So you have got to make sure that 
there is enough discretion in the Federal to allocate funds on 
the basis of risk. This is not a revenue-sharing program.
    Chairman King. The time of the gentleman is expired. I now 
recognize the gentleman from Pennsylvania, former United States 
Attorney, Mr. Meehan.
    Mr. Meehan. I thank you, Mr. Chairman. Thank you to this 
very distinguished panel for your preparation and your 
testimony here today.
    I am going to ask Ms. Townsend and Mr. Bergen, both of you 
had commented on something I would like to follow up a little 
bit on. Ms. Townsend, my experience as a former Federal 
prosecutor, there is almost a counterintuitive sense that when 
you take down an organization, either organized crime or even a 
violent drug gang, it is in the aftermath of that that you see 
some of the greatest--it is not just a succession thing, but 
some of the greatest disarray as they reassemble themselves 
often in terms of violence. You both looked at this as almost a 
point of opportunity.
    What should we be looking for and what opportunities do 
they actually present in the aftermath of the taking down of 
Osama bin Laden and the subsequent attempts to try to 
reorganize?
    Ms. Townsend. This is a critical time. I mentioned in my 
testimony the targeting opportunities. While we won't know 
publicly what was in the compound, this is a time when they 
will have to talk to one another. There was reports in the 
Pakistani media about this meeting that led to the interim 
leader being appointed the head of the Taliban, Saif al-Adel. 
How can such a meeting take place when our Pakistani allies are 
not providing us with targeting information? That would have 
been a gold mine opportunity to have taken advantage of. But 
that is what our military and intelligence community are 
focused on right now.
    They are in disarray. They will have to have discussions, 
meetings in order to resolve their chaos. So all those 
represent tremendous opportunities, and that is where you want 
to focus your immediate military resources.
    Now, it will be interesting to see whether or not this 
chaos then permeates out into the affiliates, because right now 
they represent, as far as I am concerned, the most immediate 
deadly threat to us, particularly al-Qaeda in the Arabian 
Peninsula. But we need strong allies. Make no mistake. We have 
a world-class intelligence community and military capability, 
but they need real partners. We have not had very good 
partners--a real partner in Yemen in President Saleh, and we 
have a very uncertain partner in Pakistan.
    We need to look at ways to how do we--you know, the 
Congressman said manage the Pakistan relationship. That is 
right. But they need to produce. It is not that we can walk 
away from them. They need to produce like a partner produces in 
terms of targeting capability.
    Mr. Meehan. Mr. Bergen.
    Mr. Bergen. I don't have anything to add to that.
    Mr. Meehan. Thank you. Congressman Hamilton, I, as many in 
this Nation, am tremendously appreciative for the work that you 
have put into this effort since September 11. You have looked 
at a lot of different elements. But I noticed twice today in 
your testimony you focused on this issue of the VISIT exit 
system. Can you tell me a little bit more about why that is 
important to you and why you think that is relevant to our 
protection of the homeland?
    Mr. Hamilton. You just have to keep track of these people 
when they come into the country. I think the easy thing to do--
we lose track of it. It is a difficult thing to do. Seeking a 
biometric exit system I understand is expensive and has a lot 
of problems in it, but I think we have just put it off far too 
long.
    It is not just a question of catching these people and 
stopping it at the border. Some of these people are going to 
get in. Once you have people in here illegally, or even legally 
under restricted time limits, you have to be able to keep track 
of them. That is why you need an exit system as well as an 
entry system. So it is a real vulnerability in our system to 
say, okay, we are going to catch these people at the border. 
Everybody is for that. We don't want the bad guys coming in; 
but if they do get in just forget about them. You can't do 
that. You have got to keep track of them. That is what the exit 
system is all about.
    Mr. Meehan. Mr. Kohlmann, thank you for your testimony. You 
identified the world on the internet and the communications 
that are taking place there. In a free society, it is difficult 
to try to limit activity on that, but you have given some 
thought to this. How can we take advantage? In light of both 
Ms. Townsend testified to about the current moment in which 
wouldn't we want to be able to have them operating in such a 
way that we would be able to at least have access to the 
platform that they are using for communications as a means to 
have a potential ability to influence their activities?
    Mr. Kohlmann. Yes. I have often said that terrorist 
websites are like the spy satellite that we never launched. If 
we are diligent about it, these websites, these forums allow us 
to monitor the communications taking place at a ground level 
amongst both al-Qaeda's lieutenants, its supporters, its would-
be supporters, people in the West. Increasingly we are seeing 
individuals who are popping up who were not recruited by any 
individual or any individual cleric or any individual mosque. 
They are being motivated purely by what they see on the web. I 
think, though, I think you are right. I think part of it is we 
have to keep our eyes on this.
    The concern right now is that we are allowing these 
websites to operate. It is not entirely clear that all elements 
of our law enforcement and intelligence agencies are aware of 
what is going on in there. I can tell you only this through 
personal experience and through the fact that we have an 
instance where we can point to directly, Fort Hood, where we 
had a known individual who was infamous as being a recruiter 
for al-Qaeda and extremist groups, Sheikh Anwar al-Awlaki, who 
was in open communication with an individual who was a U.S. 
military serviceman. Those communications, from what I 
understand, were not entirely innocent or benign.
    That is a warning sign. It is a warning sign that as much 
as this information can provide tremendous clues, if we allow 
this to proliferate unmonitored, we are giving these folks 
virtual sanctuary to do whatever the hell they want. That is 
very worrying.
    So it is fine to keep these websites and these forums on-
line as long as we are closely monitoring them and tracking the 
people that are using them, obviously without violating freedom 
of speech. But the folks that are on the there are dangerous. 
It is not just computer nerds. The people that are on these 
forums include bomb makers, include top-ranking Yemeni al-Qaeda 
operatives, include recruiters for Pakistani Taliban. So we 
really have to make sure that the FBI and other Government 
agencies are really watching what is taking place.
    Chairman King. The time of the gentleman has expired. The 
gentlelady from New York, Ms. Clarke, is recognized for 5 
minutes.
    Ms. Clarke of Michigan. Thank you very much, Mr. Chairman, 
and thank you Ranking Member Thompson. To the panelists, great 
insight and illumination of the challenges we face.
    I am pleased with the discourse of this hearing, because it 
is important to point out that we must harden our posture of 
vigilance in keeping our Nation safe in the fight against al-
Qaeda and other declared and undeclared terrorist organizations 
and individuals.
    On behalf of the people of the 11th Congressional District 
of New York, we are really grateful to the Obama 
administration's leadership, the U.S. military, the CIA 
intelligence and counterterrorism professionals who carried out 
that heroic operation to get bin Laden. I would like to say 
that, as a Member of the committee, it is important to point 
out that we must continue to remain vigilant. As New Yorkers, I 
think, unlike maybe other parts of the Nation, are very 
sensitive, extremely sensitive. I think we are doing very well 
in terms of our posture of vigilance and awareness in the 
public. But I think that perhaps one of the things that we can 
do is get some public service announcements rolling that is 
aired Nationally, to get people into the understanding of see 
something, say something, which is something we live with in 
New York City. So again, I want to thank you for your 
insightful discussion today.
    Bin Laden was an iconic figure of global terrorism. He has 
inspired militants across the world to commit acts of violence. 
I wanted to ask, just generally speaking, there is some concern 
that perhaps at the end of the 40-day mourning period, that 
many or some Muslims practice that maybe we might see an 
uptick.
    Is there any indication of that? Does 40 days mean 
anything? I think it is important that if there is mythology 
out there, we try to get so many plain understanding. I believe 
we can be hit at any moment. But for those out there who are 
looking for an indication, would you shed some light on that?
    Ms. Townsend. I am happy to take the first shot at this.
    Congresswoman, let's be clear. As you know, al-Qaeda and 
those who subscribe to the ideology are not observant Muslims. 
These are not real Muslims. So we have already seen what have 
been called retribution attacks inside Pakistan, whether it is 
against their military, their police. So those people in the 
Pakistan Taliban, for example, are not observing any 40-day 
mourning period.
    This is my experience with al-Qaeda, has been they attack 
when they have the capability and they are positioned to do it, 
and they will not be, I suspect, constrained by any religious 
observance.
    Mr. Kohlmann. I would echo. I think it is mythology. I 
think al-Qaeda will strike when they have the capability to do 
so. I believe they will try to carry out some kind of revenge 
attack for the death of bin Laden. But I think it is more 
likely in the short term that we see something like that 
against U.S. interests in Pakistan as opposed to inside the 
United States.
    Ms. Clarke of Michigan. I am glad that you pointed that 
out. I don't want people to have a false sense of, well, 
timing. Right? It is important that we are vigilant every 
moment of every day.
    Mr. Kohlmann, I wanted to ask you about threats to water 
facilities. You know, last Congress the House approved 
legislation to regulate water and wastewater facilities for 
security. In your testimony, you described the on-line chatter 
of various extremists after bin Laden's death and how some of 
them openly discuss targeted hydroelectric dams, nuclear water 
plants, and water purification facilities to cause damage to 
the U.S. economy. Can you elaborate on the threat to critical 
infrastructure? More specifically, can you articulate what 
concerns, if any, you have about the terrorist threat to U.S. 
water facilities, especially given how essential these 
facilities are to our communities?
    Mr. Kohlmann. In fact, the particular section that you are 
referring to in my report, the individual specified saying it 
is not even necessary to poison the water supplies because 
potentially there are other Islamists out there who might drink 
this and die. The idea is to create panic, to create terror, to 
create an urban environment where people are afraid to consume 
water whether or not there is actually anything wrong with it.
    That is the point here, is al-Qaeda is not looking just--
again, they are not looking just to kill one American here or 
there. That is fine to keep them in the headlines. Ultimately, 
these folks, whether you are talking about the central 
leadership, the affiliates or the homegrown guys, they are 
looking for very simple tactics where they can cause mass panic 
and mass terror and upset the U.S. economy. Now, the weak 
points they are looking at are major U.S. cities and 
infrastructure. Whether that is rail, airports, water 
facilities, hydroelectric trends, anything that will stun the 
U.S. economy.
    They perceive right now that we are under the gun in terms 
of economic pressures, and that any small push in the wrong 
direction will cause catastrophe for us. That is their game 
plan. They are trying to push the United States out of the 
Middle East. They are trying to create a new world order. You 
don't do that by killing a few soldiers at Fort Hood. You don't 
do that by shooting a few soldiers outside an airport in 
Germany. You do that by creating mass panic in a city like New 
York or Los Angeles or Detroit. That is what they are gunning 
for. They may not achieve it, but that is what they are gunning 
for.
    Chairman King. The time of the gentlelady has expired. The 
gentleman from South Carolina.
    Mr. Duncan. Let me thank you for your diligence on keeping 
our homeland security safe. This is one of the most informative 
hearings that we have had. I thank the panelists for providing 
their testimony today. I want to thank Congressman Hamilton for 
your service to this Nation and also the 9/11 Commission. 
Interesting, I have been one that has talked about this 
numerous times, but the 9/11 Commission detailed a lot of 
different terms that seem to have disappeared from the lexicon 
of the intelligence agencies, whether FBI, counterterrorism, 
National intelligence strategy, even the report protecting the 
force lessons from Fort Hood.
    In the 9/11 Commission report, they mentioned jihad 126 
times. They mention the Muslim Brotherhood five times. They 
mention Hamas, Hezbollah, al-Qaeda numerous times, but now that 
seems to have disappeared. I am very alarmed that our 
administration is not identifying who our enemy is. I think you 
have clearly got to identify and focus on the threat to this 
country, and you guys have very articulately expressed those 
threats today.
    One thing about being a junior Member of this committee, 
freshman Member, is all the great questions got asked before it 
gets to me. So what I would like to do is just delve into 
something that is interesting to me, and that is the threats on 
our Southern border. I understand that al-Qaeda and Hezbollah 
and al Shabab have a presence and influence in Latin America, 
particularly the tri-border region.
    So I am going to address this to Mr. Kohlmann. Do you 
believe the United States may see increasing threats from these 
groups so close to our Southern border?
    Mr. Kohlmann. It is true that there is a presence below the 
border of a number of different groups, most prominently 
Hezbollah and Hamas, not necessarily so much al-Qaeda. I think 
some of those threats have been blown up, but I think there is 
a reality that right now we put a tremendous amount of 
attention on the Northern border. Ever since the days of the 
Ahmed Ressam, the Algerian who tried crossing over in 1999 in 
Bellingham, Washington, there has been a lot of focus on the 
Canadian border. There has been less focus on terrorists 
crossing the Southern border. Terrorists are aware of this. 
There are indications of groups like Shabab placing people in 
Mexico who are able to get folks across the border.
    Now, the reality is that a lot of the people they are 
smuggling across are probably just illegal immigrants, but it 
is very easy to sneak someone in that group. It is not the most 
overwhelming issue we have. Really, al-Qaeda would rather 
recruit someone who is already inside the United States who has 
a U.S. passport. But these groups are trying to get people in 
however they can, however it works best. So if they find that 
they can't recruit someone directly in the United States, I 
think it is very plausible that they will go for the Southern 
border.
    Mr. Duncan. Do you see them working in tandem with the 
Mexican drug cartel at all? We see some evidence of that, and 
that is our untalked-about third war possibly.
    Mr. Kohlmann. I think when it comes to groups like Hamas 
and Hezbollah, there is a potential of individuals doing that. 
With an ideological group like al-Qaeda, it is much less. Al-
Qaeda doesn't seem to like to work with thieves, with drug 
runners--not publicly anyway. For instance, Shabab al-
Mujahideen in Somalia has greatly distanced itself from the 
pirates, the big problem with piracy in northern Somalia, and 
they argued simply they don't want to be associated with that, 
that that is not jihad; that is just thievery.
    So as of right now, I don't think you see those 
connections. The problem is that there are individuals who are 
in Venezuela and elsewhere who have connections to Hamas and 
Hezbollah and also connections to the drug-trafficking rings. 
The issue is can someone like that be marshaled by a terrorist 
group to serve as an intermediary to get someone into the 
country? It is possible. But I still think it is relatively 
far-fetched. The groups really, al-Qaeda, Shabab, they are 
looking to recruit people who are already within U.S. borders, 
who already have U.S. passports, who can walk to the middle of 
Times Square and say, I am a terrorist, and nothing can be 
done. That is the kind of recruitment.
    Mr. Duncan. There is a lot of focus on the lone wolf 
provisions in the PATRIOT Act coming up and sleeper cells. What 
can we do more--you talked about the marketing, the internet, 
Inspire, and other things targeting those groups. What can we 
do more than maybe some of the things you alluded to earlier?
    Mr. Kohlmann. I think one of the issues is that the United 
States has not been engaged in an effective deradicalization 
campaign, a counterradicalization campaign.
    Mr. Duncan. The Chairman has.
    Mr. Kohlmann. So far the U.S. Government has been content 
with simply saying al-Qaeda is bad, al-Qaeda is wrong. But the 
reality is that there are plenty of voices from within al-
Qaeda, from within the Muslim community itself, who will stand 
forward and will say that these folks are completely on the 
wrong path, that they are insane, and that the things they are 
doing are wrong not just from an American perspective, but from 
a Muslim perspective; from any perspective, from a humanist 
perspective.
    I think it is important that we try to galvanize those 
resources and engage in an effective deradicalization campaign. 
So far a lot of the efforts that we have made have fallen on 
deaf ears, whether it comes through sponsoring television 
stations and radio stations in Iraq that nobody watches, that 
nobody listens to, at least not our enemies; or whether it 
comes to simply broadcasting messages that have no impact.
    We also have to realize the effects of negative publicity. 
Right now we talked about jihadi message forums. What a lot of 
people don't realize is that even on the top-tier al-Qaeda 
forums, there is as much argument and nasty back-biting as 
there is agreement about attacking America. These folks fight 
with each other on a daily basis. They say nasty things about 
each other. After the death of bin Laden, a whole bunch of 
people got their accounts removed from al-Qaeda's top-tier web 
forums because they dared to ``crusade'' their claims about the 
death of bin Laden. These are people expressing sorrow about 
the death of bin Laden who were removed, kicked off.
    I think it is important that the United States take note of 
the social networking dynamics that are taking place within al-
Qaeda and try to exploit those differences. If there are people 
that don't like Ayman Zawahiri, start pumping information about 
how terrible Ayman al-Zawahiri is. Trying to sell the United 
States as a good actor might never work, but explaining the 
negative things about al-Qaeda and about the people that lead 
it, you could go on forever. You could write a thousand-page 
encyclopedia about that.
    Chairman King. The time of the gentleman has expired.
    Mr. Hamilton. Mr. Chairman, excuse me for extending this.
    Chairman King. How can I say no to you?
    Mr. Hamilton. The National Security Preparedness Group now 
has in draft form a report on preventing violent radicalization 
in America. It is the most comprehensive thing I have seen--and 
it is not yet final--dealing with this problem. It makes all 
kinds of recommendations as to how the government--local, 
State, National governments--ought to respond to the problem 
you are raising and which Mr. Kohlmann has talked about.
    We consider that a very important report. We will make it 
available to you as soon as it is ready. It should be ready in 
the next few months. I think you will find it helpful.
    Chairman King. Thank you.
    The gentleman from Massachusetts Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Just one quick question, because Mr. Kohlmann just touched 
on this. Social networking. What if many of the very 
sophisticated devices, deep packet kind of technology, that is 
involved in--really getting involved in using--potentially 
using social networking as a weapon, the fact that this kind of 
technology can detect who is involved and not only filter it, 
but can actually use that to get information to crack down on 
people themselves--is it conceivable to you that that kind of 
sophisticated technology that is available in other countries 
right now--one of the companies even in the United States that 
are dealing with this--what is the potential of them gaining 
access to that kind of technology and using that to crack down 
on the very people that you and I both agree can serve a very 
positive role in fighting this?
    Mr. Kohlmann. Well, deep packet inspection rates has a lot 
of privacy concerns, particularly among groups like EFF; the 
Electronic Frontier Foundation. I think those fears are 
grounded except the fact that what you are saying is true is 
that one of the few ways you can actually find out where 
someone is located, despite them using proxies or obfuscation 
techniques, is with deep packet inspection. However, the good 
news is that that is not the only way. There are other ways, 
including ways that don't violate U.S. law and don't require us 
to increasingly impinge upon personal privacy.
    One of the good points about this is that al-Qaeda makes 
mistakes. The folks that create these websites make mistakes. A 
year and a half ago, my company was able to get the entire 
database from one of the top-tier al-Qaeda websites, including 
all their private messages, their IP addresses, everything else 
like that. We did it without hacking. We did it without deep 
packet inspection. We did it without infiltration. We just did 
it using our heads.
    So I think as much as having deep packet inspection would 
be a wonderful tool for law enforcement to have, and it would 
certainly alleviate a lot of the problems that they are 
currently facing tracking people, that is not the only way. So 
if there really are significant privacy concerns, I think the 
point is just making sure that the Bureau and that other law 
enforcement agencies and Government agencies have the 
technological tools to be able to do the job, whether it is 
deep packet inspection or something else.
    I would say right now they are still struggling with this. 
One of the reasons is because of the legal loopholes that allow 
foreign law enforcement to use this technique, but not so much 
for U.S. law enforcement.
    Mr. Keating. Specifically, what about the terrorist 
organizations themselves being able to obtain that technology?
    Mr. Kohlmann. I think that is relatively far-fetched. I 
think that is the good news. The good news is that most of the 
people right now that populate al-Qaeda's social networking web 
are more interested in blowing themselves up than they are 
hacking websites. That might change. That probably will change. 
There are people that are increasingly showing the kind of 
capabilities you would expect from someone working for the NSA.
    I hope that doesn't happen, but I think it is a reminder 
that the United States needs to be concerned about not just 
monitoring the communications that are taking place in social 
networking forums, but making sure our own cybersecurity is up 
to snuff, because whereas China or Russia may not have hackers 
who are going to seek to deliberately cause economic 
catastrophe in the United States, al-Qaeda is a different 
story. So once they develop those kind of capabilities, it is a 
serious concern.
    Mr. Keating. Thank you.
    Mr. Chairman, I yield back my time.
    Chairman King. The gentleman from Michigan Mr. Walberg is 
recognized for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you to the 
witnesses today for giving us insights that are both 
encouraging and challenging as well.
    In kind-of going back to previous questioning and talking 
about the impact of trying to grow homegrown terrorists here in 
the United States, and showing an alternative to the message 
that they are putting out, I have had a lot of contacts in my 
district from Assyrians and others concerned with what is going 
on in Syria, in Libya, and other places. I guess my question 
would be what impact, if there is--what impact could our 
actions or inactions in Libya or Syria have in growing al-Qaeda 
efforts in recruitment of terrorists and terrorist action 
against the United States?
    Chairman King. If I can just interject. I understand 
Chairman Hamilton has to leave at 11:45. Whenever you feel you 
have to leave. Thank you very much for your testimony.
    Mr. Hamilton. Thank you very much, Mr. Chairman. I 
appreciate that. I will leave to my colleagues to answer these 
simple questions that have been asked.
    Mr. Walberg. That is as simple as I can be, I guess.
    Mr. Bergen. I just don't think that is really a relevant 
question right now for the discussion we are having. Somehow 
the war actions in Libya--and Evan can correct me if I am wrong 
on this issue--I don't think are something that is really of 
great interest to the jihadist community, partly because they 
know very well that the whole point of their exercise was to 
overthrow these dictators like Qadhafi. That was the point of 
these groups. So it would be very dissonant for them to say, 
well, now America is involved in actually producing the very 
thing that we tried to do in the first place. So they are kind 
of ignoring it.
    One of the things that was very interesting to me is bin 
Laden really never replied to the Arab Spring because what was 
he going to say; at last it was happening. Belatedly we have a 
minor tape from him. But he was commenting on even the most 
minor news events before his death. This enormous seismic shift 
in the Middle East he didn't really acknowledge publicly before 
his death. So I think that this is not going to be a problem.
    But on the issue of the Muslim American community, we are 
never going to be able to take down these jihadi websites. The 
internet doesn't work like that. What the Chairman and the 
Members of the committee and, I think, Lee Hamilton and his 
group, what we need to be thinking about with the Muslim 
American community is counternarratives. There are plenty of 
people in the Muslim community that want to get out there and 
put out a counternarrative to bin Laden and others. One of the 
problems they face is they are not necessarily that computer 
literate. They don't understand Google bombing or these kinds 
of issues, ways to make their messages more attractive.
    So that is the way forward. It is not taking down 
objectionable websites. They are only going to pop up again. It 
is about creating a counternarrative. At the end of the day, 
that is the Muslim American community, not the U.S. Government. 
But that is the way forward.
    Mr. Kohlmann. I think I agree with Peter. I would just say 
this. It is not clear exactly what is going to fall out of 
Libya, but there are indications that al-Qaeda supporters and 
its leadership are getting very frustrated by the fact that the 
Libyan rebels seem more intent upon courting crusader support 
than they are al-Qaeda support.
    A few months ago a group of foreign fighters from Egypt 
went to Libya, and they later wrote about their experiences. 
They showed up, and what they found was: (A) Chaos; (B) as soon 
as they identified who they were, the Libyan rebels said, we 
don't want you here, go away. Then they basically went out to 
the front anyway, and they discovered it was chaos there, too. 
They came back and said, these guys don't know what they are 
doing, they don't like us, and they are not fighting under a 
banner of Islam. It was deeply demoralizing for them.
    I think if you read between the lines in the last couple of 
speeches that have been given by Ayman al-Zawahiri and other 
senior al-Qaeda leaders, you do kind of hear desperation in 
their voice, saying to the Libyans, don't work with NATO, don't 
work with NATO. It is wrong. It is wrong. It is wrong.
    Mr. Walberg. Is there a similar response in Syria as well?
    Mr. Kohlmann. Syria, unfortunately, is a much different 
picture. I think part of the problem is that it is not clear in 
Syria what exactly Syrian demonstrators want. Some want 
democracy, that is for sure. But the Syrians are not 
necessarily being mobilized and have the same concerns as the 
Libyans do. I think that is part of the issue.
    One of the major concerns with Syria is that the Muslim 
Brotherhood branch in Syria is far more conservative and I 
think you can say far more radical than in other States, 
particularly in Egypt. The Syrian Muslim Brotherhood, numerous 
members have joined al-Qaeda. The Syrian Muslim Brotherhood is 
obviously 100 percent opposed to the existence of the State of 
Israel. It is 100 percent opposed to the idea of peace with the 
Israelis. If you have the Brotherhood start influencing major 
impact on Syrian policy, I think as a starting point you can 
say forget about it to Middle East peace.
    I think this is really what we are talking about. Syria is 
in a different location. It is far more strategically located. 
The political dynamics there are far more complicated than 
Libya. I don't think you are going to see John McCain visiting 
Syria anytime soon. Also, you have the additional factor of 
Iran. Libya, Muammar Qadhafi really doesn't have any allies to 
speak of other than Hugo Chavez. Right. Syria has Iran. Though 
Iran, I think, is worried about what it is seeing there right 
now, the Iranians, I think, will back Bashar al-Assad to the 
hilt.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I thank you and the 
Ranking Member for allowing me to continue to interlope. I 
thank you also for conducting and having this hearing today.
    I would like to say to the panelists as sort of a predicate 
for my eventual question, I believe in America, and I believe 
that if the world did not have the United States of America, we 
would have to create it. It may not be the glue that holds the 
world together; I do believe, however, that it is an 
indispensable ingredient in that glue that holds the world 
together.
    I am finding more and more that I am hearing the notion 
that we are interlopers; that we should not concern ourselves 
with Hezbollah and Nasrallah in Lebanon. We should not concern 
ourselves with the Muslim Brotherhood in Syria and in Egypt. We 
should not concern ourselves with Hamas in Palestine. We should 
not concern ourselves with the vituperative comments of Mahmoud 
Ahmadinejad with reference to what he thinks of another country 
and how he doesn't see the existence of that country.
    This notion that we should remove our assets, bring our 
resources home, seems to be gaining some degree of credibility. 
I would ask each of you to just explain whether this would 
bring about the peace within that some seem to think is 
available to us if we would but only withdraw our assets.
    I will start with Ms. Townsend, please. Thank you.
    Ms. Townsend. Thank you, Congressman.
    The most recent, let me say historical, example was we 
waited far too long to exert our leadership in Afghanistan, and 
look what happened. It was an ungoverned space that al-Qaeda 
used to plan and to train to attack the United States on 
September 11, but before that. We can't abrogate our sense of 
leadership without jeopardizing our own security. That does not 
mean that we need to lead alone. It does not mean that we don't 
have allies and build coalitions, all of which is right and 
appropriate. But we are going to have to lead because it is--
there has been a discussion now about Syria and Hezbollah. 
Hezbollah remains an incredibly strong threat to us because 
they are a client of Iran's, and they are a destabilizing force 
not only in Syria, but throughout the Middle East and to the 
peace and security of Israel.
    I agree with you wholeheartedly that we need to continue to 
engage and not--my fear is that as we begin to engage less, we 
engage more rhetorically and are unwilling to put ourselves at 
risk. I think it is incredibly important. If we care about the 
outcome in Libya, we need to more than just answer 
rhetorically, and we need to be willing to put our assets 
against a real and very credible problem there.
    Chairman King. If the witnesses can keep their answer to 1 
minute.
    Mr. Bergen. I want to take an opportunity about 
Afghanistan, because obviously many Members of the committee 
are going to have to think about this pretty carefully. We are 
spending $118 billion there.
    First of all, 68 percent of Afghans have a favorable view 
of international forces. This is an astonishing number for a 
Muslim country. That is a BBC poll taken in December.
    Second, we are not there because of al-Qaeda; we are there 
because every Islamic terrorist or insurgent group in the world 
was headquartered or based there before 9/11, and they have 
migrated across the border to Pakistan, where they are now 
being guests of the Pakistani Taliban.
    Third, when we overthrow a government, we have somewhat of 
a responsibility, I think, and I think many others would share 
this, to kind of leave the place in a somewhat stable 
condition.
    Fourth, the most likely place in the world for a nuclear 
war is between Pakistan and India. An unstable Afghanistan 
leads to an unstable Pakistan. We have already seen that.
    Fifth, the Taliban are the Taliban. We have seen what they 
have done just recently in Pakistan. This is not a bunch of 
Henry Kissingers in waiting. You know who they are. Just to 
amplify something that Fran just said, we have already run this 
experiment twice before in Afghanistan. We closed our embassy 
in 1989, zeroed out aid in the 1990s, and we did it again in 
2002. We got what we paid for. We did it on the cheap. So we 
were attacked from Afghanistan, as you know.
    So we need to be very careful about how we are going to 
pull out obviously over time. The Afghans were freaking out at 
the idea we were leaving this year in July, as we said, or 
seemed to say. So we need to think very carefully about how we 
manage that withdrawal over time.
    Mr. Kohlmann. I wish I could say that I thought that U.S. 
forces could be withdrawn from Afghanistan by and large and 
that everything would be peachy, but I don't think that is the 
reality. As much as I wish U.S. forces could come home right 
away, I do remember what it was like before 9/11, meeting with 
folks at the NSC at the White House, talking about the issue of 
Afghanistan as a sanctuary, and their frustration with the fact 
that the U.S. Government was doing nothing about it.
    So whenever I think about withdrawing, I think back to 
those days and back to the idea that the last thing we need 
right now is for Afghanistan to once again become a sanctuary 
for al-Qaeda after all of the effort we put in to try to 
prevent it from becoming so.
    Chairman King. The time of the gentleman has expired.
    The former attorney general of California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I am sorry 
to the panelists that I had to leave for a while to Chair 
another committee, so I hope I am not repeating what has been 
asked of you before.
    First of all, just a comment. We talked about the necessity 
for a deradicalization program, a counterradicalization 
program. In order for us to get that support for such a 
program, we have to admit there is radicalization going on. The 
Chairman held a hearing on that, and the message that we 
thought we were going to get out about the radicalization of 
youth in the Muslim communities in America, with testimony by a 
parent and an uncle of two that had been so radicalized, was 
lost in the coverage, and, frankly, the Chairman was attacked 
because we dared to deal with the issue. So I appreciate the 
fact you recognize that we have to do something about a deep 
radicalization or counterradicalization program, but first you 
have to assume there is a radicalization by putting that on the 
record.
    Second, I would like to ask the three of you this: We 
started out this hearing by talking about the treasure trove of 
intelligence that we got from the successful mission executed 
against Osama bin Laden. I was asked this question when I was 
home recently at a town hall meeting. They said, what possible 
benefit was given to us by our releasing the fact that we had 
gotten this treasure trove of intelligence; and, second, by 
giving out some parts of that intelligence; and third, by 
revealing the manner and means by which we obtained the 
intelligence when we executed the mission?
    Frankly, I was at a loss to try and answer that with my 
constituents. My only answer was perhaps there was a judgment 
that this would put them on notice that we were after them. But 
at the same time, that is certainly not what we did during 
World War II and every other thing. We thought the utilization 
of intelligence was enhanced by the fact that the enemy didn't 
know we had it. Could the three of you have help me in that 
regard?
    Chairman King. I know Ms. Townsend is supposed to leave at 
noon. We should be finished with the hearing by about 12:05.
    Ms. Townsend. Thank you, Chairman. I am good. Thanks.
    Let me say, you mentioned the radicalization issue. 
Quickly, this is a fact. Quite frankly, whether or not there is 
radicalization of youth here in the United States is not a 
political issue open to debate. So people just need to suck up 
and get over that. It is a fact. It is happening. We have 
credible instances of it. So it should not be an issue of 
debate.
    On the treasure trove, I will say to you, having served in 
the White House, when you have a successful disruption, I can 
tell you that I have suffered under the sort of excruciating 
pressure from the press to get some details out to inform the 
American people. You do want, because it goes to the 
complacency issue. If you can explain to the American people a 
successful disruption, you can get their support for further 
operations. So there is this balance.
    Let me quickly add that releasing the fact that there was a 
trove, the details of the operation, and the manner and means 
in which it was executed are terribly harmful. I feel that 
releasing those details--we are going to have to have future 
operations, and we are going to have to put men and women in 
harm's way. Releasing those details, we know that al-Qaeda 
monitors what we call open-source material, news reports. We 
found them in the caves of Afghanistan. So have no doubt that 
the details that we release will be used against men and women 
in future operations. So, on balance, I would not have released 
the level of detail that was released.
    Mr. Lungren. Mr. Bergen.
    Mr. Bergen. I think there is a certain utility in letting 
al-Qaeda know that we have found the Rosetta Stone, for the 
following reason. They are in a kind of Catch-22. They can 
communicate with each other and, therefore, open themselves to 
being detected, or not communicate forever, in which case they 
are sort of out of business.
    What did we really release in terms of actual details of 
the information trove? I think we said that the plans were in 
New York, and Washington, and Chicago, and Los Angeles. Well, I 
think we knew that.
    So I think there is--Fran has explained, as she was really 
there for many, many years, what the pressures are. Let us see 
what comes out of this. But there might be a certain utility in 
letting al-Qaeda know this.
    Mr. Lungren. Mr. Kohlmann.
    Mr. Kohlmann. I appreciate the idea of sending a chilled 
fear down al-Qaeda's spine, and I understand that potentially 
this also could be simply a way of trying to get al-Qaeda 
operatives to start moving around out of fear and see where 
people are moving to, who is moving. There was a convoy 
attacked in the last few days. Mullah Omar. Perhaps he was 
afraid that his hiding place had been discovered, and he 
decided to high-tail it.
    So I understand that there is a utility to this, but I, 
too, recognize the fact that al-Qaeda has a dramatic interest 
in open-source intelligence. AQAP has an entire section of 
their Inspire magazine dedicated to open-source intelligence. 
They are parsing through every single statement put out by the 
White House, they are parsing through every single news 
conference. They are watching very carefully for every detail 
they can glean, and they will use it against us. They have in 
the past, and they will in the future. That is a concern.
    I think there were certain things that probably could have 
been stated about the raid, but some things that were released 
I am not sure provide any benefit. The releasing of the videos 
of bin Laden, I think, would have been a tremendously amount 
more effective had there been sound, because right now all we 
have are the description of U.S. officials saying, well, he is 
mumbling here. Well, that is not what we are seeing. When we 
see the video of bin Laden wrapped in a shawl watching TV, it 
is 5 seconds long. There is no context to it.
    So I think some of this information was released with the 
right intent, but I am not sure the execution was there.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Illinois, Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman. It has been a long 
morning, so let us close.
    Ms. Townsend, you have given me my best takeaway line of 
the hearing: It is a fact, radicalization here at home. Just 
your overview thoughts on this topic.
    It is a fact, but we know politically it is also a debate 
in this country. Why is it still a debate? Fort Hood, you 
referenced that we saw warning signs. Why weren't they heeded, 
and what needs to be done to make sure they are heeded again? 
It is a fact, but why doesn't the whole country seem to 
understand that?
    Ms. Townsend. I will take a stab at this. I think part of 
it is it is a fact. If you can point to cases and examples, the 
conversation tends to stay reasonably rational, in my 
experience.
    So you point to Nidal Hasan. There is no question he was an 
American soldier who was radicalized, and that is part of a 
pattern that we know of Anwar al-Awlaki. But I think we also 
have to acknowledge that there are Muslim Americans, while they 
don't often wish to be named publicly, who have cooperated with 
law enforcement agencies like the FBI, like the Department of 
Homeland Security. These aren't either/or issues. Both facts 
happen to be true. There are many Muslim Americans who abhor 
al-Qaeda, who abhor the ideals and ideologue of al-Qaeda, wish 
to be helpful. This is not a single ``ummah'' of the Muslim 
world who subscribe to this.
    But to Congressman Lungren's point, until people accept the 
fact of radicalization of American youth, we can't effectively 
combat it. So what we need to do is, frankly, the best way to 
fight it is this whole notion of a counternarrative. We need to 
employ, encourage, and recruit Muslim Americans to participate 
in that counternarrative.
    Mr. Bergen. Fran used the helpful phrase ``it is not an 
either/or.'' I think there is another either/or which is part 
of this, which is, as I mentioned earlier, 17 Americans have 
been killed in jihadist American attacks since 9/11. In the 
same time, 73 Americans were killed in hate crimes, according 
to the FBI, which have different motivations. So jihadist 
terrorism is obviously a National security problem of the 
United States, but there are other problems. It is not the only 
one.
    So I think part of the controversy around the hearing, Mr. 
Chairman, was the idea that this was the only or the most 
important problem. I think the Muslim American community felt 
there were other issues that were important as well.
    Chairman King. If I can just address that. Obviously it is 
the most important homeland security issue. There are other 
issues in the Judiciary Committee and other committees, but the 
Department of Homeland Security was set up to counter the 
attacks of September 11. Other issues we have had before, and 
they are certainly appropriate for other committees to discuss, 
but I felt this issue in particular was essential for this 
committee.
    Mr. Walsh. Just to leapfrog on that for a second, it is my 
fear that that sensitive attitude we might have might continue 
us down this path--and, Mr. Kohlmann, you can close this whole 
thing--with us not heeding the warning signs of another 
potential Fort Hood because we are afraid of whatever.
    Mr. Kohlmann. I feel tremendous sympathy for the Muslim 
community in this country and around the world. I understand 
that the vast majority of Muslims have no interest in terrorism 
or al-Qaeda. I understand why they are sensitive about this. It 
is very difficult when it seems like your faith is under 
attack, especially in the context of Koran burnings and the 
whole thing about the Ground Zero mosque. It is understandable 
that people get sensitive about this.
    I agree with Fran. I don't think it is a question, it is 
not a political question. There is radicalization going on. I 
think it is in the interests of the Muslim community above all 
else to be at the forefront of making sure that we deal with 
this problem because it is their children who are being 
recruited to go off and join foreign terrorist organizations. 
It is their children who are watching videos of people being 
beheaded on the internet and think that is a good thing. It is 
not their fault, but it is an issue that needs to be addressed. 
I think one thing that Muslims should understand is that this 
is not just an attack on Islam, it is not an attack on mosques.
    In my written testimony I describe an individual who was 
radicalized inside this country in Pennsylvania, who never 
attended a mosque, who never went to an Islamic center, who 
wasn't really a Muslim.
    Again, I understand their sensitivity, but this is not 
about them. It is about terrorism, it is about terrorists, and 
it is about how all Americans can try to prevent radicalization 
and people being pushed to join extremist causes.
    Mr. Walsh. Thank you. Go get lunch.
    Thank you, Mr. Chairman.
    Chairman King. Thank you, Mr. Walsh.
    First of all, let me thank all the witnesses. This has been 
a great, great panel, great hearing, and speaking for the 
Ranking Member, it was extremely illuminating and informative.
    Members of the committee may have additional questions for 
the witnesses. I will ask you to respond to them in writing. 
The record will be kept open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
